Pen
  nsion Benefit
        B       Guaran
                     nty Corrporatio
                                   on
    Office
         e of Ins
                specto
                     or Gen
                          neral
             Aud
               dit Repo
                      ort




  Audit
  A     of the Pen
                 nsion Be
                        enefit Guuaranty
 Co
  orporation's Fis
                 scal Yea
                        ar 2009 and
                                a 2008  8
  Special-P
  S       Purposee Financ
                        cial State
                                 ements




           Novem
               mber 16, 2009
                                 AUD-2010--3 / FA-09-64
                                                      4-3
                       Pension Benefit Guaranty Corporation
                                                       Office of Inspector General
                                         1200 K street, N.W., Washington, D.C. 20005-4026



                                                                     November 16,2009


To:	           Patricia Kelly
               Chief Financial Officer
                                             ~-- a6v 1YIa~(L'4Q. /
From:	         Joseph A. Marchowsky          N    "v O       -VW

               Assistant Inspector General for Audit

Subject:	      Audit of the Pension Benefit Guaranty Corporation's Fiscal
               Year 2009 and 2008 Special-Purpose Financial Statements
               (AUD-2010-3/FA-09-64-3)


I am pleased to transmit the attached report prepared by Clifton Gunderson LLP resulting
from their audit of the PBGC Fiscal Year 2009 and 2008 Special-Purpose Financial
Statements. This report has been prepared for the purpose of complying with the
requirement of the U.S. Department of the Treasury's Financial Manual, Volume I,
Part 2, Chapter 4700, solely for the purpose of providing financial information to the
U.S. Department of the Treasury and U.S. Government Accountability Office to use in
preparing and auditing the Financial Report of the U.S. Government. It is not intended to
be a complete presentation ofPBGC's financial statements.

We would like to take this opportunity to express our appreciation for the overall
cooperation that Clifton Gunderson auditors and we received while performing the audit.


Attachment


cc:	     Vince Snowbarger                        Walt Luiza
         Stephen Barber                          Wayne McKinnon
         Terrence Deneen                         Robert Callahan
         Richard Macy                            Anthony Castoro
         Judith Starr                            David Harvey
         Israel Goldowitz                        Lashon Lissimore
         Ted Winter                              Marlene Hom-Richards
         John Greenburg
         Marty Boehm
                  Audit of the Pension Benefit Guaranty 

                 Corporation’s Fiscal Year 2009 and 2008 

                  Special-Purpose Financial Statements 



                   Audit Report AUD-2010-3 / FA-09-64-3 



                                  Contents


Section I:     Independent Auditor’s Report on
               Special-Purpose Financial Statements




                     U.S. Department of the Treasury

                     Financial Management Service 

          Governmentwide Financial Report System (GFRS) Reports 



Section II:    GF001G – Financial Statements Template with
                        Standard General Ledger (SGL) Accounts
Section III:   Audited Financial Statements (FS) Reports including
               Other Comprehensive Basis of Accounting (OCBOA) Reports
                  GF002A – Audited FS Report
                  GF002B – OCBOA Statement Report
                  GF002C – OCBOA Adjustments Report
Section IV:    GF003F – Closing Package Financial Statement Report
Section V:     GF003G – Closing Package Line Reclassification Summary Report
Section VI:    GF004F – Trading Partner Summary Note Report
Section VII: GF005F – Intragovernmental Trading Partner Summary Report
Section VIII: GF006C – Financial Report (FR) Notes Report
Section IX:    GF006F – Notes Status Report
Section X:     GF007F – Other FR Data Status Report
Section XI:    GF007G – Other Data Report
Section XII: GF008G – Completion and Approvals Report
Section XIII: GF120    – Reclassification Audit Trail Report
                         at Statement Summary Level
   Audit of the Pension Benefit Guaranty 

  Corporation’s Fiscal Year 2009 and 2008 

   Special-Purpose Financial Statements 



   Audit Report AUD-2010-3 / FA-09-64-3 





                Section I 


  Independent Auditor’s Report on 

Special-Purpose Financial Statements 

a1

               Independent Auditor’s Report on Special-Purpose Financial Statements


To the Board of Directors, Management,
 and Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC


We have audited the accompanying reclassified balance sheets as of September 30, 2009 and
2008, and the related reclassified statements of net cost and changes in net position for the
years then ended (hereinafter referred to as the special-purpose financial statements) contained
in the special-purpose closing package of Pension Benefit Guaranty Corporation (PBGC).
These special-purpose financial statements are the responsibility of PBGC’s management. Our
responsibility is to express an opinion on these special-purpose financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the special-purpose financial statements are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the special-purpose financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall special-purpose financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements and accompanying notes contained in
the special-purpose closing package have been prepared for the purpose of complying with the
requirements of the U.S. Department of the Treasury’s Financial Manual (TFM) Volume I,
Part 2, Chapter 4700 solely for the purpose of providing financial information to the
U.S. Department of the Treasury and U.S. Government Accountability Office to use in preparing
and auditing the Financial Report of the U.S. Government, and are not intended to be a
complete presentation of PBGC’s financial statements.

In our opinion, the special-purpose financial statements and accompanying notes referred to
above present fairly, in all material respects, the financial position of PBGC as of
September 30, 2009 and 2008, and its net costs and changes in net position for the years then
ended in conformity with accounting principles generally accepted in the United States of
America and the presentation pursuant to the requirements of the TFM Chapter 4700.




11710 Beltsville Drive, Suite 300 
Calverton, MD  20705­3106 
tel:  301­931­2050 
fax: 301­931­1710 
www.cliftoncpa.com
                                                      1
                                     Offices in 17 states and Washington, DC     h 
By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining. As
of September 30, 2009, PBGC reported in its general purpose financial statements, net deficit
positions (liabilities in excess of assets) in the Single-Employer and Multiemployer Program
Funds of $21,077 million and $869 million, respectively. As discussed in Note 9 to the general
purpose financial statements, loss exposure for the Single-Employer and Multiemployer
Programs that are reasonably possible as a result of unfunded vested benefits are estimated to
be $167,864 million and $326 million, respectively. Management based the Single-Employer
Program estimate on data for fiscal years ending in calendar year 2008 that was obtained from
filings and submissions to the government and from corporate annual reports. Subsequent
adjustment for economic conditions through September 30, 2009 has not been made and as a
result the exposure to loss for the Single-Employer Program as of September 30, 2009 could be
substantially different. In addition, PBGC’s net deficit and long-term viability could be further
impacted by losses from plans classified as reasonably possible (or from other plans not yet
identified as potential losses) as a result of deteriorating economic conditions, the insolvency of
a large plan sponsor or other factors. PBGC has been able to meet their short-term benefit
obligations. However, as discussed in Note 1 to the general purpose financial statements,
management believes that neither program at present has the resources to fully satisfy PBGC’s
long-term obligations to plan participants.

The information included in the Other Data is presented for the purpose of additional analysis
and is not a required part of the special-purpose financial statements, but is supplementary
information required by the TFM Chapter 4700. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding methodology and presentation
of this information. We also reviewed such information for consistency with the related
information presented in PBGC’s special-purpose financial statements. However, we did not
audit this information, and accordingly, we express no opinion on it.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as amended,
we have also issued a combined report dated November 12, 2009 (see PBGC's Office of
Inspector General's Report Number AUD-2010-1/FA-09-64-1), which presents our opinion on
PBGC's financial statements; our opinion on management’s assertion about the effectiveness of
PBGC’s internal control over financial reporting; and our consideration of PBGC's compliance
with certain provisions of laws, regulations, and other matters. That report is an integral part of
an audit of general purpose financial statement reporting performed in accordance with
Government Auditing Standards and OMB Bulletin No. 07-04, as amended, and should be read
in conjunction with this report in considering the results of our audit.

In planning and performing our audit of the special-purpose financial statements, we also
considered PBGC’s internal control over the financial reporting process for the special-purpose
financial statements and compliance with the TFM Chapter 4700. Management is responsible
for establishing and maintaining internal control over financial reporting, including Other Data,
and for complying with laws and regulations, including compliance with the TFM Chapter 4700
requirements.

Our consideration of internal control over the financial reporting process for the special-purpose
financial statements would not necessarily disclose all matters in the internal control over the
financial reporting process that might be significant deficiencies. Under standards issued by the
American Institute of Certified Public Accountants, significant deficiencies are deficiencies in
internal control, or a combination of deficiencies, that adversely affects PBGC's ability to initiate,




                                                  2

authorize, record, process, or report financial data reliably and in accordance with accounting
principles generally accepted in the United States of America such that there is more than a
remote likelihood that a misstatement of the special-purpose financial statements being audited
that is more than inconsequential will not be prevented or detected. Material weaknesses are
significant deficiencies, or combination of significant deficiencies, that result in more than a
remote likelihood that material misstatements in relation to the special-purpose financial
statements being audited will not be prevented or detected.

As part of our audit of the financial statements of PBGC, our examination of management’s
assertion about the effectiveness of the internal control over financial reporting
(including safeguarding assets) and compliance with certain provisions of laws, regulations, and
other matters we identified deficiencies in internal control over financial reporting
(including safeguarding assets) and compliance with laws and regulations and its operation that
we consider significant deficiencies, which constitute a material weakness, and is described in
further detail in PBGC’s Office of Inspector General’s Report Number AUD-2010-2/FA-09-64-2.
However, providing an opinion on internal control over the financial reporting process for the
special-purpose financial statements was not an objective of our audit of the special-purpose
financial statements and, accordingly, we do not express such opinion.

Our tests of compliance with the TFM Chapter 4700 requirements disclosed no instances of
noncompliance that are required to be reported under Government Auditing Standards and
OMB Bulletin No. 07-04, as amended. However, providing an opinion on compliance with the
TFM Chapter 4700 requirements was not an objective of our audit of the special-purpose
financial statements and, accordingly, we do not express such opinion.

This report is intended solely for the information and use of PBGC’s Office of Inspector General,
Board of Directors, management of PBGC, the U.S. Department of the Treasury, the Office of
Management and Budget, the U.S. Government Accountability Office, the United States
Congress, and the President in connection with the preparation and audit of the Financial
Report of the U.S. Government and is not intended to be and should not be used by anyone
other than these specified parties.


A1 
Calverton, Maryland
November 16, 2009




                                               3

           Audit of the Pension Benefit Guaranty 

          Corporation’s Fiscal Year 2009 and 2008 

           Special-Purpose Financial Statements 



           Audit Report AUD-2010-3 / FA-09-64-3 





                           Section II

GF001G – Financial Statements Template Report
 with Standard General Ledger (SGL) Accounts




                      Definition of Attributes


A     –   Non Custodial                 S    –   Custodial
ATB   –   Adjusted Trial Balance        T    –   Nonexchange
BSF   –   Budget Subfunction            TP   –   Trading Partner
F     –   Federal                       U    –   Undefined
N     –   Nonfederal                    X    –   Exchange
                                                                                                            11/16/2009 16:26:38
                                            U.S. Department of the Treasury

                                            Financial Management Service

                                       Governmentwide Financial Report System

                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                2009       Period:       SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

ASSETS
Cash and cash equivalents
SGL    Description                                                 Status F/N TP X/T        S/A       BSF   ATB Code
1010   Fund Balance With Treasury                                         U   U   U          U         U    ALL
1110   Undeposited Collections                                            N   U   U          A         U    ALL
1120   Imprest Funds                                                      N   U   U          U         U    ALL
1190   Other Cash                                                         N   U   U          U         U    ALL
1610   Investments in U.S. Treas. Securities Issued by BPD                 F ALL U           U         U    ALL
Securities lending collateral (Note 3 and 5)
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1690 Other Investments                                                    N     U      U     U         U    ALL
Investments, at market (Note 3 and 5):
Fixed maturity securities
SGL    Description                                                 Status F/N   TP X/T      S/A       BSF   ATB Code
1610   Investments in U.S. Treas. Securities Issued by BPD                 F    ALL U        U         U    ALL
1611   Discount on U.S. Treasury Securities Issued by BPD                  F    ALL U        U         U    ALL
1612   Premium on U.S. Treasury Securities Issued by BPD                   F    ALL U        U         U    ALL
1613   Amort. of Disc. & Pre. on U.S.Treasury Sec. Issued by BPD           F    ALL U        U         U    ALL
1618   Market Adjustment - Investments                                     F    ALL U        U         U    ALL
1618   Market Adjustment - Investments                                    N      U  U        U         U    ALL
1620   Investments in Securities Other Than BPD Securities                N      U  U        U         U    ALL
1621   Discount on Securities Other Than BPD Securities                   N      U  U        U         U    ALL
1622   Premium on Securities Other Than BPD Securities                    N      U  U        U         U    ALL
1630   Invest in U.S. Treas Zero Coupon Bonds Issued by BPD                F    ALL U        U         U    ALL
1631   Discount on U.S. Treasury Zero Coupon Bonds Issued by               F    ALL U        U         U    ALL
       BPD
1633   Amort of Disc - U.S. Treas Zero Coupon Bonds Issued by             F     ALL   U      U        U     ALL
       BPD
1638   Market Adj - Investments in U.S. Treasury Zero Coupon              F     ALL   U      U        U     ALL
       Bonds
1639   Contra Mkt Adj - Investments in U.S. Treas Zero Coupon             F     ALL   U      U        U     ALL
       Bonds
1690   Other Investments                                                  N     U     U      U        U     ALL
Equity securities
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL
Real estate and real estate investment trusts
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL




                                                             -1­
                                                                                                             11/16/2009 16:26:38
                                           U.S. Department of the Treasury

                                           Financial Management Service

                                      Governmentwide Financial Report System

                                    Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                  2009      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Other
SGL Description                                                      Status F/N   TP   X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                        N     U     U     U         U    ALL
1690 Other Investments                                                      N     U     U     U         U    ALL
Total investments
Calculation
Line Description
 5     Fixed maturity securities
 6     Equity securities
 7     Real estate and real estate investment trusts
 8     Other
Receivables, net:
Sponsors of terminated plans
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1310    Accounts Receivable                                                 N     U     U     A         U    ALL
1319    Allowance for Loss on Accounts Receivable                           N     U     U     A         U    ALL
1340    Interest Receivable                                                 N     U     U     A         U    ALL
Premiums (Note 11)
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1310    Accounts Receivable                                                 N     U     U     A         U    ALL
1319    Allowance for Loss on Accounts Receivable                           N     U     U     A         U    ALL
1340    Interest Receivable                                                 N     U     U     A         U    ALL
1349    Allowance for Loss on Interest Receivable                           N     U     U     A         U    ALL
1360    Penalties, Fines and Administrative Fees Receivable                 N     U     U     A         U    ALL
1369    Allow. for Loss on Penalties, Fines and Admin. Fees Rec.            N     U     U     A         U    ALL
Sale of securities
SGL Description                                                      Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                    N     U     U     A         U    ALL
Derivative contracts (Note 4)
SGL Description                                                      Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                    N     U     U     A         U    ALL
Investment income
SGL     Description                                                  Status F/N TP X/T       S/A       BSF   ATB Code
1310    Accounts Receivable                                                 N   U   U         A         U    ALL
1340    Interest Receivable                                                 N   U   U         A         U    ALL
1340    Interest Receivable                                                  F ALL U          A         U    ALL




                                                               -2­
                                                                                                             11/16/2009 16:26:38
                                           U.S. Department of the Treasury

                                           Financial Management Service

                                      Governmentwide Financial Report System

                                    Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                  2009      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Other
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1310    Accounts Receivable                                                 N     U     U     A         U    ALL
1319    Allowance for Loss on Accounts Receivable                           N     U     U     A         U    ALL
1340    Interest Receivable                                                 N     U     U     A         U    ALL
1349    Allowance for Loss on Interest Receivable                           N     U     U     A         U    ALL
1350    Loans Receivable                                                    N     U     U     U         U    ALL
1359    Allowance for Loss on Loans Receivable                              N     U     U     U         U    ALL
1360    Penalties, Fines and Administrative Fees Receivable                 N     U     U     A         U    ALL
1369    Allow. for Loss on Penalties, Fines and Admin. Fees Rec.            N     U     U     A         U    ALL
1410    Advances and Prepayments                                            N     U     U     U         U    ALL
1990    Other Assets                                                        N     U     U     U         U    ALL
2400    Liab. for Nonfid. Dep. Funds, Clear. Acct. & Undep.                 N     U     U     U         U    ALL
        Collect.
Total receivables
Calculation
Line Description
 11    Sponsors of terminated plans
 12    Premiums (Note 11)
 13    Sale of securities
 14    Derivative contracts (Note 4)
 15    Investment income
 16    Other
Capitalized assets, net
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1750    Equipment                                                           N     U     U     U         U    ALL
1759    Accumulated Depreciation on Equipment                               N     U     U     U         U    ALL
1820    Leasehold Improvement                                               N     U     U     U         U    ALL
1829    Accumulated Amortization on Leasehold Improvements                  N     U     U     U         U    ALL
1830    Internal-Use Software                                               N     U     U     U         U    ALL
1832    internal-Use Software in Development                                N     U     U     U         U    ALL
1839    Accumulated Amortization on Internal-Use Software                   N     U     U     U         U    ALL
Total assets
Calculation
Line Description
 2     Cash and cash equivalents
 3     Securities lending collateral (Note 3 and 5)
 9     Total investments
 17    Total receivables
 18    Capitalized assets, net


LIABILITIES
Present value of future benefits, net (Note 6):




                                                               -3­
                                                                                                               11/16/2009 16:26:38
                                            U.S. Department of the Treasury

                                            Financial Management Service

                                       Governmentwide Financial Report System

                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                    2009      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Trusteed plans
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                              N     U     U     U         U    ALL
Plans pending termination and trusteeship
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                              N     U     U     U         U    ALL
Settlements and judgments
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                              N     U     U     U         U    ALL
Claims for probable terminations
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                              N     U     U     U         U    ALL
Total present value of future benefits, net
Calculation
Line Description
 23    Trusteed plans
 24    Plans pending termination and trusteeship
 25    Settlements and judgments
 26    Claims for probable terminations
Present value of nonrecoverable future financial assistance (Note 7)
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2920 Contingent Liabilities                                                   N     U     U     U         U    ALL
Derivative contracts (Note 4)
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                  N     U     U     U         U    ALL
Due for purchases of securities
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                  N     U     U     U         U    ALL
Payable upon return of securities loaned
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                  N     U     U     U         U    ALL
Securities sold under repurchase agreements
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                  N     U     U     U         U    ALL
Unearned premiums
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2320 Other Deferred Revenue                                                   N     U     U     U         U    ALL
2400 Liab. for Nonfid. Dep. Funds, Clear. Acct. & Undep.                      N     U     U     U         U    ALL
     Collect.


                                                                 -4­
                                                                                                              11/16/2009 16:26:38

                                            U.S. Department of the Treasury

                                            Financial Management Service

                                       Governmentwide Financial Report System

                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                     2009    Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Inactive - Due for purchases of securities
Inactive - Derivative contracts (Note 4)
Accounts payable and accrued expenses (Note 8)
SGL     Description                                                     Status F/N   TP X/T   S/A       BSF   ATB Code
2110    Accounts Payable                                                        F    ALL U     A         U    ALL
2110    Accounts Payable                                                       N      U  U     A         U    ALL
2120    Disbursements in Transit                                                F    ALL U     U         U    ALL
2120    Disbursements in Transit                                               N      U  U     U         U    ALL
2130    Contract Holdbacks                                                     N      U  U     U         U    ALL
2210    Accrued Funded Payroll and Leave                                       N      U  U     U         U    ALL
2213    Employer Contributions and Payroll Taxes Payable                        F    ALL U     U         U    ALL
2215    Other Post-Employment Benefits Due and Payable                          F    ALL U     U         U    ALL
2215    Other Post-Employment Benefits Due and Payable                         N      U  U     U         U    ALL
2220    Unfunded Leave                                                         N      U  U     U         U    ALL
2400    Liab. for Nonfid. Dep. Funds, Clear. Acct. & Undep.                    N      U  U     U         U    ALL
        Collect.
Total liabilities
Calculation
Line Description
 27    Total present value of future benefits, net
 28    Present value of nonrecoverable future financial assistance (Note 7)
 29    Derivative contracts (Note 4)
 30    Due for purchases of securities
 31    Payable upon return of securities loaned
 32    Securities sold under repurchase agreements
 33    Unearned premiums
 36    Accounts payable and accrued expenses (Note 8)




                                                                -5­
                                                                                                    11/16/2009 16:26:38

                                            U.S. Department of the Treasury

                                            Financial Management Service

                                       Governmentwide Financial Report System

                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:              2009     Period:   SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Net position
SGL     Description                                                 Status F/N TP X/T   S/A   BSF   ATB Code
3310    Cumulative Results of Operations                                   U   U   U     U     U    ALL
5310    Interest Revenue - Other                                           N   U   T     A    ALL   ALL
5310    Interest Revenue - Other                                           N   U   X     A    ALL   ALL
5311    Interest Revenue - Investments                                      F ALL X      A    ALL   ALL
5311    Interest Revenue - Investments                                     N   U   X     A    ALL   ALL
5320    Penalties, Fines and Administrative Fees Revenue                   N   U   T     A    ALL   ALL
5329    Contra Revenue for Penalties, Fines and Administrative             N   U   T     A    ALL   ALL
        Fees
5500    Insurance and Guarantee Premium Revenue                           N    U    X    U    ALL   ALL
5765    Nonexpenditure Financing Sources - Transfer-Out                   F   ALL   U    U     U    ALL
5780    Imputed Financing Sources                                         F   ALL   U    U     U    ALL
5900    Other Revenue                                                     F   ALL   X    A    ALL   ALL
5900    Other Revenue                                                     N    U    X    A    ALL   ALL
6100    Operating Expenses/Program Cost                                   F   ALL   U    U    ALL   ALL
6100    Operating Expenses/Program Cost                                   N    U    U    U    ALL   ALL
6330    Other Interest Expenses                                           N    U    U    A    ALL   ALL
6400    Benefit Expense                                                   F   ALL   U    U    ALL   ALL
6400    Benefit Expense                                                   N    U    U    U    ALL   ALL
6720    Bad Debt Expense                                                  N    U    U    U    ALL   ALL
6730    Imputed Costs                                                     F   ALL   U    U    ALL   ALL
6790    Other Expenses Not Requiring Budgetary Resources                  N    U    U    U    ALL   ALL
6850    Empl'yr Contrib. to Emp. Benefit Prog. Not Req. Curr Yr           F   ALL   U    U    ALL   ALL
        BA
7110    Gains on Disposition of Assets - Other                            N    U    X    U    ALL   ALL
7111    Gains on Disposition of Investments                               F   ALL   X    U     U    ALL
7111    Gains on Disposition of Investments                               N    U    X    U     U    ALL
7180    Unrealized Gains                                                  F   ALL   X    U     U    ALL
7180    Unrealized Gains                                                  N    U    X    U     U    ALL
7190    Other Gains                                                       N    U    X    U    ALL   ALL
7210    Losses on Disposition of Assets - Other                           N    U    X    U    ALL   ALL
7211    Losses on Disposition of Investments                              F   ALL   X    U     U    ALL
7211    Losses on Disposition of Investments                              N    U    X    U     U    ALL
7280    Unrealized Losses                                                 F   ALL   X    U     U    ALL
7280    Unrealized Losses                                                 N    U    X    U     U    ALL
7290    Other Losses                                                      N    U    X    U    ALL   ALL
7600    Changes in Actuarial Liability                                    N    U    U    U    ALL   ALL
Total liabilities and net position
Calculation
Line Description
 37    Total liabilities
 38    Net position




                                                              -6­
                                                                                                  11/16/2009 16:26:38

                                            U.S. Department of the Treasury

                                            Financial Management Service

                                       Governmentwide Financial Report System

                                     Financial Statement Template with SGL Accounts
Statement: INCOME STATEMENT                          Fiscal Year:             2009    Period:   SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

UNDERWRITING:
Income:
Premium (Note 11)
Other
Total
Expenses:
Administrative
Other
Total
Other underwriting activity:
Losses (credits) from completed and probable terminations (Note 12)

Losses (credits) from financial assistance (Note 7)

Actuarial adjustments (credits) (Note 6)

Total

Underwriting gain (loss)

FINANCIAL:

Investment income (loss) (Note 13):

Fixed
Equity
Other
Total
Expenses:
Investment
Actuarial charges (credits) (Note 6):
Due to passage of time
Due to change in interest rates
Total
Financial income (loss)
Net income (loss)
Calculation
Line Description
 15    Underwriting gain (loss)

 28    Financial income (loss)



                                                               -7­
                                                                                                               11/16/2009 16:26:38
                                          U.S. Department of the Treasury

                                          Financial Management Service

                                     Governmentwide Financial Report System

                                   Financial Statement Template with SGL Accounts
Statement: INCOME STATEMENT                          Fiscal Year:                   2009       Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Total Costs
SGL    Description                                                    Status F/N   TP X/T      S/A   BSF       ATB Code
5765   Nonexpenditure Financing Sources - Transfer-Out                        F    ALL U        U     U        ALL
6100   Operating Expenses/Program Cost                                        F    ALL U        U    ALL       ALL
6100   Operating Expenses/Program Cost                                       N      U  U        U    ALL       ALL
6330   Other Interest Expenses                                               N      U  U        A    ALL       ALL
6400   Benefit Expense                                                        F    ALL U        U    ALL       ALL
6400   Benefit Expense                                                       N      U  U        U    ALL       ALL
6720   Bad Debt Expense                                                      N      U  U        U    ALL       ALL
6730   Imputed Costs                                                          F    ALL U        U    ALL       ALL
6790   Other Expenses Not Requiring Budgetary Resources                      N      U  U        U    ALL       ALL
6850   Empl'yr Contrib. to Emp. Benefit Prog. Not Req. Curr Yr                F    ALL U        U    ALL       ALL
       BA
7210   Losses on Disposition of Assets - Other                               N      U    X      U    ALL       ALL
7211   Losses on Disposition of Investments                                  F     ALL   X      U     U        ALL
7211   Losses on Disposition of Investments                                  N      U    X      U     U        ALL
7280   Unrealized Losses                                                     F     ALL   X      U     U        ALL
7280   Unrealized Losses                                                     N      U    X      U     U        ALL
7290   Other Losses                                                          N      U    X      U    ALL       ALL
7600   Changes in Actuarial Liability                                        N      U    U      U    ALL       ALL
Total Revenue
SGL    Description                                                    Status F/N TP X/T        S/A   BSF       ATB Code
5310   Interest Revenue - Other                                              N   U   T          A    ALL       ALL
5310   Interest Revenue - Other                                              N   U   X          A    ALL       ALL
5311   Interest Revenue - Investments                                         F ALL X           A    ALL       ALL
5311   Interest Revenue - Investments                                        N   U   X          A    ALL       ALL
5320   Penalties, Fines and Administrative Fees Revenue                      N   U   T          A    ALL       ALL
5329   Contra Revenue for Penalties, Fines and Administrative                N   U   T          A    ALL       ALL
       Fees
5500   Insurance and Guarantee Premium Revenue                               N      U    X      U    ALL       ALL
5780   Imputed Financing Sources                                             F     ALL   U      U     U        ALL
5900   Other Revenue                                                         F     ALL   X      A    ALL       ALL
5900   Other Revenue                                                         N      U    X      A    ALL       ALL
7110   Gains on Disposition of Assets - Other                                N      U    X      U    ALL       ALL
7111   Gains on Disposition of Investments                                   F     ALL   X      U     U        ALL
7111   Gains on Disposition of Investments                                   N      U    X      U     U        ALL
7180   Unrealized Gains                                                      F     ALL   X      U     U        ALL
7180   Unrealized Gains                                                      N      U    X      U     U        ALL
7190   Other Gains                                                           N      U    X      U    ALL       ALL
Net Position, beginning of year
SGL Description                                                       Status F/N   TP    X/T   S/A       BSF   ATB Code
3310 Cumulative Results of Operations                                        U     U      U     U         U    ALL
Net Position, end of year
Calculation
Line Description
 30    Total Costs
 31    Total Revenue
 32    Net Position, beginning of year


                                                                -8­
    Audit of the Pension Benefit Guaranty 

   Corporation’s Fiscal Year 2009 and 2008 

    Special-Purpose Financial Statements 



    Audit Report AUD-2010-3 / FA-09-64-3 





                Section III 


Audited Financial Statement (FS) Reports 

 including Other Comprehensive Basis 

    of Accounting (OCBOA) Reports 


    GF002A – Audited FS Report
    GF002B – OCBOA Statement Report
    GF002C – OCBOA Adjustments Report
                                                                                             11/16/2009 16:14:03
                                        U.S.Department of the Treasury
                                         Financial Management Service

                                    Governmentwide Financial Report System


                                            GF002A - Audited FS Report



Statement:    BALANCE SHEET                           Fiscal Year: 2009                Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY                 Reported in: MILLIONS            Decimal: ZERO
        CORPORATION

Agency Line Description                                      FY 2009-SEPTEMBER              FY 2008-SEPTEMBER

ASSETS
Cash and cash equivalents                                                      3,752                       1,759
Securities lending collateral (Note 3 and 5)                                   2,507                       3,772
Investments, at market (Note 3 and 5):
Fixed maturity securities                                                     34,369                      38,334
Equity securities                                                             24,133                      12,921
Real estate and real estate investment trusts                                    596                           3
Other                                                                            653                          23
Total investments                                                             59,751                      51,281
Receivables, net:
Sponsors of terminated plans                                                      85                          19
Premiums (Note 11)                                                               603                         187
Sale of securities                                                               195                       1,357
Derivative contracts (Note 4)                                                  2,860                       7,124
Investment income                                                                410                         405
Other                                                                              3                           3
Total receivables                                                              4,156                       9,095
Capitalized assets, net                                                           29                          32
Total assets                                                                  70,195                      65,939

LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans                                                                80,507                      56,571
Plans pending termination and trusteeship                                        601                         216
Settlements and judgments                                                         58                          56
Claims for probable terminations                                               1,870                       3,154
Total present value of future benefits, net                                   83,036                      59,997
Present value of nonrecoverable future financial                               2,296                       1,768
assistance (Note 7)
Derivative contracts (Note 4)                                               3,014                          8,338
Due for purchases of securities                                               172                          1,847
Payable upon return of securities loaned                                    2,507                          3,772
Securities sold under repurchase agreements                                   643                            885
Unearned premiums                                                             386                            362
Accounts payable and accrued expenses (Note 8)                                 87                            121
Total liabilities                                                          92,141                         77,090
Net position                                                              (21,946)                       (11,151)
Total liabilities and net position                                         70,195                         65,939




                                                        - 1 ­
                                                                                               11/16/2009 16:14:03
                                         U.S.Department of the Treasury
                                          Financial Management Service

                                     Governmentwide Financial Report System


                                             GF002A - Audited FS Report



Statement:    INCOME STATEMENT	                        Fiscal Year: 2009                 Period:   SEPTEMBER
Entity:	 1602-PENSION BENEFIT GUARANTY                 Reported in: MILLIONS             Decimal: ZERO
         CORPORATION

Agency Line Description	                                      FY 2009-SEPTEMBER               FY 2008-SEPTEMBER

UNDERWRITING:
Income:
Premium (Note 11)                                                              1,917                         1,430
Other                                                                             18                            23
Total                                                                          1,935                         1,453
Expenses:
Administrative                                                                   368                           350
Other                                                                             15                             6
Total                                                                            383                           356
Other underwriting activity:
Losses (credits) from completed and probable                                   4,234                           (826)

terminations (Note 12)

Losses (credits) from financial assistance (Note 7)                               614                         (271)

Actuarial adjustments (credits) (Note 6)                                         (573)                        (650)

Total                                                                           4,275                       (1,747)

Underwriting gain (loss)                                                       (2,723)                       2,844 

FINANCIAL:

Investment income (loss) (Note 13):

Fixed                                                                          4,664                           698
Equity                                                                         1,821                        (4,788)
Other                                                                            (34)                           47
Total                                                                          6,451                        (4,043)
Expenses:
Investment	                                                                       49                             50
Actuarial charges (credits) (Note 6):
Due to passage of time                                                       3,923                           3,400
Due to change in interest rates                                             10,551                          (7,564)
Total                                                                       14,523                          (4,114)
Financial income (loss)                                                     (8,072)                             71
Net income (loss)                                                          (10,795)                          2,915
Total Costs                                                                (23,178)                         (2,817)
Total Revenue                                                               12,383                           5,732
Net Position, beginning of year                                            (11,151)                        (14,066)
Net Position, end of year                                                  (21,946)                        (11,151)




                                                         - 2 ­
                                                                                                  11/16/2009 16:14:08
                                            U.S.Department of the Treasury
                                             Financial Management Service

                                        Governmentwide Financial Report System


                                           GF002B - OCBOA Statement Report



Statement:   BALANCE SHEET                                        Fiscal Year: 2009              Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION               Reported in: MILLIONS          Decimal: ZERO


Agency Line Description                                               FY 2009-SEPTEMBER            FY 2008-SEPTEMBER

ASSETS
Cash and cash equivalents                                                               3,752                      1,759
Securities lending collateral (Note 3 and 5)                                            2,507                      3,772
Investments, at market (Note 3 and 5):
Fixed maturity securities                                                             33,478                     38,080
Equity securities                                                                     24,133                     12,921
Real estate and real estate investment trusts                                            596                          3
Other                                                                                    653                         23
Total investments                                                                     58,860                     51,027
Receivables, net:
Sponsors of terminated plans                                                              85                         19
Premiums (Note 11)                                                                       603                        187
Sale of securities                                                                       195                      1,357
Derivative contracts (Note 4)                                                          2,860                      7,124
Investment income                                                                        410                        405
Other                                                                                      3                          3
Total receivables                                                                      4,156                      9,095
Capitalized assets, net                                                                   29                         32
Total assets                                                                          69,304                     65,685

LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans                                                                        80,507                     56,571
Plans pending termination and trusteeship                                                601                        216
Settlements and judgments                                                                 58                         56
Claims for probable terminations                                                       1,870                      3,154
Total present value of future benefits, net                                           83,036                     59,997
Present value of nonrecoverable future financial assistance                            2,296                      1,768
(Note 7)
Derivative contracts (Note 4)                                                           3,014                      8,338
Due for purchases of securities                                                           172                      1,847
Payable upon return of securities loaned                                                2,507                      3,772
Securities sold under repurchase agreements                                               643                        885
Unearned premiums                                                                         386                        362
Accounts payable and accrued expenses (Note 8)                                             87                        121
Total liabilities                                                                      92,141                     77,090
Net position                                                                          (22,837)                   (11,405)
Total liabilities and net position                                                     69,304                     65,685




                                                              - 1 ­
                                                                                                11/16/2009 16:14:08
                                          U.S.Department of the Treasury
                                           Financial Management Service

                                      Governmentwide Financial Report System


                                          GF002B - OCBOA Statement Report



Statement:   INCOME STATEMENT                                   Fiscal Year: 2009              Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION             Reported in: MILLIONS          Decimal: ZERO


Agency Line Description                                             FY 2009-SEPTEMBER            FY 2008-SEPTEMBER

UNDERWRITING:
Income:
Premium (Note 11)                                                                     1,917                      1,430
Other                                                                                    18                         23
Total                                                                                 1,935                      1,453
Expenses:
Administrative                                                                         368                        350
Other                                                                                   15                          6
Total                                                                                  383                        356
Other underwriting activity:
Losses (credits) from completed and probable terminations                             4,234                       (826)
(Note 12)
Losses (credits) from financial assistance (Note 7)                                     614                       (271)
Actuarial adjustments (credits) (Note 6)                                               (573)                      (650)
Total                                                                                 4,275                     (1,747)
Underwriting gain (loss)                                                             (2,723)                     2,844
FINANCIAL:
Investment income (loss) (Note 13):
Fixed                                                                                 4,027                        444
Equity                                                                                1,821                     (4,788)
Other                                                                                   (34)                        47
Total                                                                                 5,814                     (4,297)
Expenses:
Investment                                                                               49                         50
Actuarial charges (credits) (Note 6):
Due to passage of time                                                                3,923                      3,400
Due to change in interest rates                                                      10,551                     (7,564)
Total                                                                                14,523                     (4,114)
Financial income (loss)                                                              (8,709)                       183
Net income (loss)                                                                   (11,432)                     2,661
Total Costs                                                                         (23,178)                    (2,817)
Total Revenue                                                                        11,746                      5,478
Net Position, beginning of year                                                     (11,405)                   (14,066)
Net Position, end of year                                                           (22,837)                   (11,405)




                                                            - 2 ­
                                                                                                                      11/16/2009 16:14:10
                                                       U.S.Department of the Treasury

                                                        Financial Management Service

                                                   Governmentwide Financial Report System


                                                    GF002C - OCBOA Adjustments Report


Statement: BALANCE SHEET                                                             Fiscal Year:      2009             Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                              Reported in:      MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line            FY 2009-SEPTEMBER FY 2009-SEPTEMBER FY 2009-SEPTEMBER        FY 2008-SEPTEMBER FY 2008-SEPTEMBER FY 2008-SEPTEMBER
Description                   Audit Amt       OCBOA Amt          Difference                Audit Amt       OCBOA Amt          Difference

ASSETS
Cash and cash                      3,752              3,752                    0                      1,759         1,759                      0
equivalents
Securities lending                 2,507              2,507                    0                      3,772         3,772                      0
collateral (Note 3
and 5)
Investments, at
market (Note 3 and
5):
Fixed maturity                    34,369            33,478                  (891)                   38,334        38,080                    (254)
securities
Equity securities                 24,133            24,133                     0                    12,921        12,921                       0
Real estate and real                 596               596                     0                         3             3                       0
estate investment
trusts
Other                                653               653                     0                        23            23                       0
Total investments                 59,751            58,860                  (891)                   51,281        51,027                    (254)
Receivables, net:
Sponsors of                           85                 85                    0                         19            19                      0
terminated plans
Premiums (Note 11)                   603                603                    0                        187           187                      0
Sale of securities                   195                195                    0                      1,357         1,357                      0
Derivative contracts               2,860              2,860                    0                      7,124         7,124                      0
(Note 4)
Investment income                    410                410                    0                        405           405                      0
Other                                  3                  3                    0                          3             3                      0
Total receivables                  4,156              4,156                    0                      9,095         9,095                      0
Capitalized assets,                   29                 29                    0                         32            32                      0
net
Total assets                      70,195            69,304                  (891)                   65,939        65,685                    (254)

LIABILITIES
Present value of
future benefits, net
(Note 6):
Trusteed plans                   (80,507)           (80,507)                   0                    (56,571)      (56,571)                     0
Plans pending                       (601)              (601)                   0                       (216)         (216)                     0
termination and
trusteeship




                                                                    - 1 ­
                                                                                                                     11/16/2009 16:14:10
                                                        U.S.Department of the Treasury

                                                         Financial Management Service

                                                    Governmentwide Financial Report System


                                                     GF002C - OCBOA Adjustments Report


Statement: BALANCE SHEET                                                            Fiscal Year:      2009             Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                             Reported in:      MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line             FY 2009-SEPTEMBER FY 2009-SEPTEMBER FY 2009-SEPTEMBER      FY 2008-SEPTEMBER FY 2008-SEPTEMBER FY 2008-SEPTEMBER

Description                    Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference


Settlements and                       (58)               (58)                  0                       (56)          (56)                    0
judgments
Claims for probable                (1,870)            (1,870)                  0                    (3,154)       (3,154)                    0
terminations
Total present value               (83,036)           (83,036)                  0                   (59,997)      (59,997)                    0
of future benefits,
net
Present value of                   (2,296)            (2,296)                  0                    (1,768)       (1,768)                    0
nonrecoverable
future financial
assistance (Note 7)
Derivative contracts               (3,014)            (3,014)                  0                    (8,338)       (8,338)                    0
(Note 4)
Due for purchases of                 (172)              (172)                  0                    (1,847)       (1,847)                    0
securities
Payable upon return                (2,507)            (2,507)                  0                    (3,772)       (3,772)                    0
of securities loaned
Securities sold under                (643)              (643)                  0                      (885)         (885)                    0
repurchase
agreements
Unearned premiums                    (386)              (386)                  0                      (362)         (362)                    0
Accounts payable                      (87)               (87)                  0                      (121)         (121)                    0
and accrued
expenses (Note 8)
Total liabilities                 (92,141)           (92,141)                  0                   (77,090)      (77,090)                    0
Net position                       21,946             22,837                 891                    11,151        11,405                   254
Total liabilities and             (70,195)           (69,304)                891                   (65,939)      (65,685)                  254
net position




                                                                     - 2 ­
                                                                                                                       11/16/2009 16:14:10
                                                         U.S.Department of the Treasury

                                                          Financial Management Service

                                                     Governmentwide Financial Report System


                                                      GF002C - OCBOA Adjustments Report


Statement: INCOME STATEMENT                                                            Fiscal Year:     2009            Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                                Reported in:     MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line              FY 2009-SEPTEMBER FY 2009-SEPTEMBER FY 2009-SEPTEMBER        FY 2008-SEPTEMBER FY 2008-SEPTEMBER FY 2008-SEPTEMBER
Description                     Audit Amt       OCBOA Amt          Difference                Audit Amt       OCBOA Amt          Difference

UNDERWRITING:
Income:
Premium (Note 11)                    1,917             1,917                     0                    1,430         1,430                       0
Other                                   18                18                     0                       23            23                       0
Total                                1,935             1,935                     0                    1,453         1,453                       0
Expenses:
Administrative                        368                368                     0                      350           350                       0
Other                                  15                 15                     0                        6             6                       0
Total                                 383                383                     0                      356           356                       0
Other underwriting
activity:
Losses (credits) from                4,234             4,234 
                   0                     (826)         (826)                      0
completed and

probable

terminations (Note

12)

Losses (credits) from                 614                614 
                   0                     (271)         (271)                      0
financial assistance

(Note 7)

Actuarial                             (573)             (573)
                   0                     (650)         (650)                      0
adjustments (credits)

(Note 6)

Total                                4,275              4,275 
                  0                    (1,747)       (1,747)                     0
Underwriting gain                   (2,723)            (2,723)
                  0                     2,844         2,844                      0
(loss)

FINANCIAL:
Investment income
(loss) (Note 13):
Fixed                                4,664             4,027                  (637)                      698           444                   (254)
Equity                               1,821             1,821                     0                    (4,788)       (4,788)                     0
Other                                  (34)              (34)                    0                        47            47                      0
Total                                6,451             5,814                  (637)                   (4,043)       (4,297)                  (254)
Expenses:
Investment                              49                 49                    0                       50            50                       0
Actuarial charges
(credits) (Note 6):
Due to passage of                    3,923             3,923                     0                    3,400         3,400                       0
time
Due to change in                    10,551            10,551                     0                    (7,564)       (7,564)                     0
interest rates



                                                                      - 3 ­
                                                                                                                     11/16/2009 16:14:10
                                                       U.S.Department of the Treasury

                                                        Financial Management Service

                                                   Governmentwide Financial Report System


                                                    GF002C - OCBOA Adjustments Report


Statement: INCOME STATEMENT                                                          Fiscal Year:     2009            Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                              Reported in:     MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line            FY 2009-SEPTEMBER FY 2009-SEPTEMBER FY 2009-SEPTEMBER        FY 2008-SEPTEMBER FY 2008-SEPTEMBER FY 2008-SEPTEMBER
Description                   Audit Amt       OCBOA Amt          Difference                Audit Amt       OCBOA Amt          Difference

Total                             14,523            14,523                     0                    (4,114)       (4,114)                     0
Financial income                  (8,072)           (8,709)                 (637)                       71          (183)                  (254)
(loss)
Net income (loss)                (10,795)           (11,432)                (637)                    2,915        2,661                    (254)
Total Costs                       23,178             23,178                    0                     2,817        2,817                       0
Total Revenue                    (12,383)           (11,746)                 637                    (5,732)      (5,478)                    254
Net Position,                     11,151             11,405                  254                    14,066       14,066                       0
beginning of year
Net Position, end of              21,946            22,837                  891                     11,151       11,405                    254
year




                                                                    - 4 ­
 Audit of the Pension Benefit Guaranty 

Corporation’s Fiscal Year 2009 and 2008 

 Special-Purpose Financial Statements 



Audit Report AUD-2010-3 / FA-09-64-3 





             Section IV 


   GF003F – Closing Package 

   Financial Statement Report 

                                                                       U.S Department of the Treasury                                        11-16-2009 16:41:53
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2009                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                    Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                                3,706                              1,557                              1,724
Accounts and Taxes Receivable                                                 3,747                              8,690                              8,397
Loans Receivable                                                                  0                                  0                                  0
Inventory and Related Property                                                    0                                  0                                  0
Property, Plant and Equipment                                                    29                                 32                                 32
Securities and Investments                                                   43,582                             36,456                             33,618
Investment in Government sponsored                                                0                                  0                                  0
enterprises (GSEs)
Other Assets                                                                      0                                  0                                  0
Total Non-Federal Assets                                                     51,064                             46,735                             43,771

Federal
Fund Balance with Treasury                                                        1                                  1                                  1
Federal Investments                                                          18,047                             18,831                             18,831
Accounts Receivable                                                               0                                  0                                  0
Interest Receivable                                                             192                                118                                118
Loans Receivable                                                                  0                                  0                                  0
Transfers Receivable                                                              0                                  0                                  0
Benefit Program Contributions                                                     0                                  0                                  0
Receivable
Advances to Others and Prepayments                                                0                                  0                                  0
Other Assets (without reciprocals)                                                0                                  0                                  0
Total Federal Assets                                                         18,240                             18,950                             18,950
Total Assets                                                                  69,304                            65,685                             62,721




                                                                                              -1­
                                                                        U.S Department of the Treasury	                                         11-16-2009 16:41:53
                                                                         Financial Management Service

                                                                    Governmentwide Financial Report System


                                                              GF003F-Closing Package Financial Statement Report

Statement:	 BALANCE SHEET                                            Fiscal Year:        2009                               Period:   SEPTEMBER

Entity:	       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                 Decimal Point:      ZERO
               CORPORATION

           Amounts presented as debits and credits()

           The accompanying notes are an integral part of these financial statements.

           I = Inactive Line


Closing Line item	                          Status              2009-SEPTEMBER                        2008-SEPTEMBER                     Previously Reported

Liabilities
Non-Federal
Accounts Payable                                                                  (73)                              (110)                               (152)
Federal Debt Securities Held by the                                                 0                                  0                                   0
Public
Federal Employee and Veteran                                                        0                                  0                                   0
Benefits Payable
Environmental and Disposal                                                          0                                  0                                   0
Liabilities
Benefits Due and Payable                                                            0                                   0                                   0
Loan Guarantee Liabilities                                                          0                                   0                                   0
Keepwell payable                                                                    0                                   0                                   0
Insurance Programs                                                            (83,036)                            (59,997)                            (59,997)
Other Liabilities                                                              (9,031)                            (16,983)                            (13,977)
Total Non-Federal Liabilities                                                 (92,140)                            (77,090)                            (74,126)

Federal
Accounts Payable                                                                     0                                 0                                   0
Federal Debt                                                                         0                                 0                                   0
Interest Payable                                                                     0                                 0                                   0
Loans Payable                                                                        0                                 0                                   0
Transfers Payable                                                                    0                                 0                                   0
Benefit Program Contributions                                                       (1)                                 0                                  0
Payable
Advances from Others and Deferred                                                   0                                  0                                   0




                                                                                                -2­
                                                                        U.S Department of the Treasury	                                       11-16-2009 16:41:53
                                                                         Financial Management Service

                                                                    Governmentwide Financial Report System


                                                              GF003F-Closing Package Financial Statement Report


Statement:	 BALANCE SHEET                                            Fiscal Year:        2009                             Period:   SEPTEMBER

Entity:	       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                  Decimal Point:   ZERO
               CORPORATION

           Amounts presented as debits and credits()

           The accompanying notes are an integral part of these financial statements.

           I = Inactive Line


Closing Line item	                          Status              2009-SEPTEMBER                        2008-SEPTEMBER                   Previously Reported
Credits
Other Liabilities (without reciprocals)                                             0                                    0                                0
Total Federal Liabilities                                                          (1)                                   0                                0
Total Liabilities                                                             (92,141)                             (77,090)                         (74,126)

Net Position
Net Position-Non-Earmarked Funds                                               22,837                               11,405                           11,405
Net Position-Earmarked Funds                                                        0                                    0                                0
Total Net Position                                                             22,837                               11,405                           11,405
Total Liabilities and Net Position                                            (69,304)                             (65,685)                         (62,721)




                                                                                                -3­
                                                                        U.S Department of the Treasury	                                        11-16-2009 16:41:53
                                                                         Financial Management Service

                                                                    Governmentwide Financial Report System


                                                              GF003F-Closing Package Financial Statement Report

Statement:	 STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2009                              Period:   SEPTEMBER

Entity:	       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                 Decimal Point:     ZERO
               CORPORATION

           Amounts presented as debits and credits()

           The accompanying notes are an integral part of these financial statements.

           I = Inactive Line


Closing Line item	                          Status              2009-SEPTEMBER                        2008-SEPTEMBER                    Previously Reported
Beginning Net Position                                                        11,405                              14,066                             14,066
Non-Federal Prior Period                                                           0                                   0                                  0
Adjustments (Not Restated)
Federal Prior Period Adjustments                                                    0                                 0                                   0
(Not Restated)
Adjusted Beginning Net Position                                               11,405                              14,066                             14,066
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                                       0                                 0                                   0
Witholdings
Corporation Income Taxes                                                            0                                  0                                   0
Unemployment Taxes                                                                  0                                  0                                   0
Excise Taxes                                                                        0                                  0                                   0
Estate and Gift Taxes                                                               0                                  0                                   0
Custom Duties                                                                       0                                  0                                   0
Other Taxes and Receipts                                                            5                                (17)                                (17)
Miscellaneous Earned Revenue                                                        0                                  0                                   0
Total Non-Federal Nonexchange                                                       5                                (17)                                (17)
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                                 0                                 0                                   0
Borrowing and other interest revenue                                                0                                 0                                   0
Benefit Program Revenue                                                             0                                 0                                   0
(nonexchange)




                                                                                                -4­
                                                                       U.S Department of the Treasury                                       11-16-2009 16:41:53
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2009                            Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:    ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                        2008-SEPTEMBER                  Previously Reported
Other taxes and receipts                                                           0                                0                                  0
Total Federal Nonexchange Revenue                                                  0                                0                                  0

Budgetary Financing Sources:
Appropriations received as adjusted                                                0                                0                                  0
(rescissions and other adjustments)
Appropriation of unavailable special                                               0                                0                                  0
or trust fund receipts transfers-in
Appropriation of unavailable special                                               0                                0                                  0
or trust fund receipts Transfers-out
Nonexpenditure transfers-in of                                                     0                                0                                  0
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                                    0                                0                                  0
unexpended appropriations and
financing sources
Expenditure transfers-in of financing                                              0                                0                                  0
sources
Expenditure Transfers-out of                                                       0                                0                                  0
financing sources
Other budgetary financing sources                                                  0                                0                                  0
Total Budgetary Financing Sources                                                  0                                0                                  0

Other Financing Sources:
Transfers-in Without Reimbursement                                                 0                                0                                  0
Transfers-out Without                                                               0                               0                                  0




                                                                                               -5­
                                                                        U.S Department of the Treasury	                                         11-16-2009 16:41:53
                                                                         Financial Management Service

                                                                    Governmentwide Financial Report System


                                                              GF003F-Closing Package Financial Statement Report


Statement:	 STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2009                               Period:   SEPTEMBER

Entity:	       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                  Decimal Point:     ZERO
               CORPORATION

           Amounts presented as debits and credits()

           The accompanying notes are an integral part of these financial statements.

           I = Inactive Line


Closing Line item	                          Status              2009-SEPTEMBER                        2008-SEPTEMBER                     Previously Reported
Reimbursement
Imputed Financing Source                                                            (8)                                (4)                                 (4)
Other non-budgetary financing                                                        0                                  0                                   0
sources
Total Other Financing Sources                                                       (8)                                (4)                                 (4)


Net Cost	                                                                     11,435                               (2,640)                             (2,640)

Ending Net Position Balance	                                                  22,837                               11,405                             11,405




                                                                                                -6­
                                                                       U.S Department of the Treasury                                       11-16-2009 16:41:53
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2009                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:    ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                   Previously Reported
Gross Cost:
Non-Federal Gross Cost                                                       22,841                             2,291                              2,291
Interest on Debt Held by the Public                                               0                                 0                                  0
Total Non-Federal Gross Cost                                                 22,841                             2,291                              2,291

Federal Gross Cost
Benefit Program Costs                                                            19                                13                                 13
Imputed Costs                                                                      8                                4                                  4
Buy/Sell Costs                                                                    (4)                               4                                  4
Federal Securities Interest Expense                                             314                               505                                502
Borrowing and Other Interest                                                       0                                0                                  0
Expense
Borrowing Losses                                                                  0                                 0                                  0
Other Expenses (without reciprocals)                                              0                                 0                                  0
Total Federal Gross Cost                                                        337                               526                                523
Department Total Gross Cost                                                  23,178                             2,817                              2,814

Earned Revenue
Non-Federal Earned Revenue                                                  (10,427)                            (3,548)                            (3,548)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                                  0                                 0                                  0
Buy/Sell Revenue                                                                   0                                 0                                  0
Federal Securities Interest Revenue                                           (1,316)                           (1,909)                            (1,906)
(exchange)
Borrowing and Other Interest                                                       0                                0                                  0




                                                                                              -7­
                                                                        U.S Department of the Treasury	                                       11-16-2009 16:41:53
                                                                         Financial Management Service

                                                                    Governmentwide Financial Report System


                                                              GF003F-Closing Package Financial Statement Report


Statement:	 STATEMENT OF NET COST                                    Fiscal Year:        2009                            Period:    SEPTEMBER

Entity:	       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                  Decimal Point:   ZERO
               CORPORATION

           Amounts presented as debits and credits()

           The accompanying notes are an integral part of these financial statements.

           I = Inactive Line


Closing Line item	                          Status              2009-SEPTEMBER                        2008-SEPTEMBER                   Previously Reported
Revenue (Exchange)

Borrowings Gains                                                                    0                                   0                                 0

Other Revenue (without reciprocals)                                                 0                                   0                                 0

Total Federal Earned Revenue                                                   (1,316)                             (1,909)                           (1,906)


Department Total Earned Revenue	                                              (11,743)                             (5,457)                           (5,454)


Net Cost	                                                                      11,435                              (2,640)                           (2,640)





                                                                                                -8­
 Audit of the Pension Benefit Guaranty 

Corporation’s Fiscal Year 2009 and 2008 

 Special-Purpose Financial Statements 



Audit Report AUD-2010-3 / FA-09-64-3 





              Section V 


   GF003G – Closing Package 

     Line Reclassification 

       Summary Report 

                                                                    U.S. Department of the Treasury
                                    11/16/2009 16:44:18
                                                                      Financial Management Service

                                                                 Governmentwide Financial Report System


                                                    GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                         Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                           Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                     Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                         Type
 2   Cash and cash equivalents                                                             A      D        B                   3,752                   1,759
                                                                                        Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                    Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                              N                 3,706                  1,557                     1,724                   (167)
Fund Balance with Treasury                                  F                     1                      1                         1                       0
Federal Investments                                         F                    45                    201                       201                       0
Total:                                                                        3,752                  1,759                     1,926                    (167)
Line Agency Line Description                                                     Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                         Type
 3   Securities lending collateral (Note 3 and 5)                                          A      D      N                     2,507                   3,772
                                                                                        Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                    Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Securities and Investments                                  N                 2,507                  3,772                     3,772                      0
Total:                                                                        2,507                  3,772                     3,772                      0

Line Agency Line Description                                                     Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                         Type
 5   Fixed maturity securities                                                             A      D        B                  33,478                  38,080
                                                                                        Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                    Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Federal Investments                                         F                18,002                 18,630                    18,630                      0
Securities and Investments                                  N                 15,476                19,450                    16,489                  2,961
Total:                                                                        33,478                38,080                    35,119                  2,961

                                                                                  -1­
                                                                 U.S. Department of the Treasury
                                    11/16/2009 16:44:18
                                                                   Financial Management Service

                                                              Governmentwide Financial Report System


                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                      Type
 6   Equity securities                                                                  A      D      N                    24,133                  12,921
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Securities and Investments                               N                24,133                 12,921                    13,044                   (123)
Total:                                                                    24,133                 12,921                    13,044                   (123)

Line Agency Line Description                                                  Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                      Type
 7   Real estate and real estate investment trusts                                      A      D      N                       596                          3
                                                                                     Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Securities and Investments                               N                 596                      3                           3                      0
Total:                                                                     596                      3                           3                      0

Line Agency Line Description                                                  Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                      Type
 8   Other                                                                              A      D      N                       653                      23
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Securities and Investments                               N                  653                    23                          23                      0
Total:                                                                      653                    23                          23                      0




                                                                               -2­
                                                             U.S. Department of the Treasury
                                    11/16/2009 16:44:18
                                                               Financial Management Service

                                                          Governmentwide Financial Report System


                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                  Type
 11 Sponsors of terminated plans                                                    A      D      N                        85                      19
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                  85                     19                          19                      0
Total:                                                                  85                     19                          19                      0

Line Agency Line Description                                              Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                  Type
 12 Premiums (Note 11)                                                              A      D      N                       603                     187
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                 603                    187                         187                      0
Total:                                                                 603                    187                         187                      0

Line Agency Line Description                                              Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                  Type
 13 Sale of securities                                                              A      D      N                       195                   1,357
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                  195                   1,357                     1,357                      0
Total:                                                                  195                   1,357                     1,357                      0




                                                                           -3­
                                                             U.S. Department of the Treasury
                                    11/16/2009 16:44:18
                                                               Financial Management Service

                                                          Governmentwide Financial Report System


                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                  Type
 14 Derivative contracts (Note 4)                                                   A      D      N                     2,860                   7,124
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                 2,860                  7,124                     6,831                    293
Total:                                                                 2,860                  7,124                     6,831                    293

Line Agency Line Description                                              Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                  Type
 15 Investment income                                                               A      D        B                     410                     405
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Interest Receivable                                  F                 192                    118                         118                      0
Accounts and Taxes Receivable                        N                   1                      0                           0                      0
Securities and Investments                           N                 217                    287                         287                      0
Total:                                                                 410                    405                         405                      0
Line Agency Line Description                                              Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                  Type
 16 Other                                                                           A      D      N                         3                          3
                                                                                 Variance:                                   0                         0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                   3                      3                           3                      0
Total:                                                                   3                      3                           3                      0



                                                                           -4­
                                                                U.S. Department of the Treasury
                                     11/16/2009 16:44:18
                                                                  Financial Management Service

                                                             Governmentwide Financial Report System


                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                       Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 18 Capitalized assets, net                                                             A      D     N                         29                      32
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Property, Plant and Equipment                           N                  29                     32                          32                       0
Total:                                                                     29                     32                          32                       0

Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 23 Trusteed plans                                                                      L      C     N                     80,507                  56,571
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Insurance Programs                                      N                 80,507                 56,571                    56,571                      0
Total:                                                                   (80,507)               (56,571)                  (56,571)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 24 Plans pending termination and trusteeship                                           L      C     N                       601                      216
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Insurance Programs                                      N                  601                   216                         216                       0
Total:                                                                    (601)                  (216)                      (216)                       0




                                                                               -5­
                                                                U.S. Department of the Treasury
                                    11/16/2009 16:44:18
                                                                  Financial Management Service

                                                             Governmentwide Financial Report System


                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2009                                  Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N    2009-SEPTEMBER           2008-SEPTEMBER
                                                                                       Type
 25 Settlements and judgments                                                            L      C     N                       58                      56
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2009-SEPTEMBER        2008-SEPTEMBER        Previously Reported       Line Item Changes
Insurance Programs                                     N                     58                    56                        56                       0
Total:                                                                       (58)                  (56)                     (56)                      0

Line Agency Line Description                                                   Status Account NB      F/N    2009-SEPTEMBER           2008-SEPTEMBER
                                                                                       Type
 26 Claims for probable terminations                                                     L      C     N                    1,870                   3,154
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2009-SEPTEMBER        2008-SEPTEMBER        Previously Reported       Line Item Changes
Insurance Programs                                     N                    1,870                 3,154                   3,154                       0
Total:                                                                     (1,870)               (3,154)                  (3,154)                     0

Line Agency Line Description                                                   Status Account NB      F/N    2009-SEPTEMBER           2008-SEPTEMBER
                                                                                       Type
 28 Present value of nonrecoverable future financial assistance (Note 7)                 L      C     N                    2,296                   1,768
                                                                                      Variance:                                 0                      0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2009-SEPTEMBER        2008-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                      N                    2,296                 1,768                   1,768                       0
Total:                                                                     (2,296)               (1,768)                  (1,768)                      0




                                                                                -6­
                                                               U.S. Department of the Treasury
                                     11/16/2009 16:44:18
                                                                 Financial Management Service

                                                            Governmentwide Financial Report System


                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                    Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                      Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                    Type
 29 Derivative contracts (Note 4)                                                     L      C      N                      3,014                   8,338
                                                                                   Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                 3,014                  8,338                         0                   8,338
Total:                                                                  (3,014)                (8,338)                        0                   8,338

Line Agency Line Description                                                Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                    Type
 30 Due for purchases of securities                                                   L      C      N                       172                    1,847
                                                                                   Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                 172                    1,847                         0                   1,847
Total:                                                                   (172)                 (1,847)                        0                   1,847

Line Agency Line Description                                                Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                    Type
 31 Payable upon return of securities loaned                                          L      C      N                      2,507                   3,772
                                                                                   Variance:                                    0                      0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                 2,507                  3,772                     3,772                       0
Total:                                                                  (2,507)                (3,772)                    (3,772)                      0




                                                                             -7­
                                                             U.S. Department of the Treasury
                                     11/16/2009 16:44:18
                                                               Financial Management Service

                                                          Governmentwide Financial Report System


                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                  Type
 32 Securities sold under repurchase agreements                                     L      C      N                       643                      885
                                                                                 Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                 643                    885                           0                     885
Total:                                                                 (643)                  (885)                         0                     885

Line Agency Line Description                                              Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                  Type
 33 Unearned premiums                                                               L      C      N                       386                      362
                                                                                 Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                 386                     362                        362                       0
Total:                                                                 (386)                  (362)                      (362)                      0

Line Agency Line Description                                              Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                  Type
 34 Due for purchases of securities                                          I      L      C      N
                                                                                 Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                   0                      0                       1,847                   (1,847)
Total:                                                                   0                      0                       (1,847)                 (1,847)




                                                                           -8­
                                                             U.S. Department of the Treasury
                                     11/16/2009 16:44:18
                                                               Financial Management Service

                                                          Governmentwide Financial Report System


                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                   Type
 35 Derivative contracts (Note 4)                                             I      L      C     N
                                                                                  Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                   0                      0                       6,217                   (6,217)
Total:                                                                   0                      0                       (6,217)                 (6,217)

Line Agency Line Description                                               Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                   Type
 36 Accounts payable and accrued expenses (Note 8)                                   L      C       B                       87                     121
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Accounts Payable                                     N                  73                    110                         152                     (42)
Other Liabilities                                    N                  13                      11                         11                        0
Benefit Program Contributions Payable                F                    1                      0                          0                        0
Total:                                                                  (87)                  (121)                      (163)                     (42)
Line Agency Line Description                                               Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                   Type
 38 Net position                                                                     E      C       B                  (22,837)                (11,405)
                                                                                  Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                     B                (22,837)               (11,405)                  (11,405)                     0
Total:                                                                 22,837                   11,405                 11,405                       0



                                                                            -9­
                                                               U.S. Department of the Treasury
                                     11/16/2009 16:44:18
                                                                 Financial Management Service

                                                            Governmentwide Financial Report System


                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: INCOME STATEMENT                                                  Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                       Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N    2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 30 Total Costs                                                                        TC      D       B                  23,178                   2,817
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N       2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Imputed Costs                                        F                      8                       4                         4                       0
Buy/Sell Costs                                       F                     (4)                       4                        4                       0
Benefit Program Costs                                F                        19                        13                   13                       0
Federal Securities Interest Expense                  F                       314                       505                  502                       3
Non-Federal Gross Cost                               N                    22,841                     2,291                2,291                       0
Total:                                                                    23,178                     2,817                2,814                       3
Line Agency Line Description                                                  Status Account NB       F/N    2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 31 Total Revenue                                                                      TR      C       B                  11,746                   5,478
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Imputed Financing Source                               F                       8                       4                       4                      0
Federal Securities Interest Revenue (exchange)         F                  1,316                   1,909                   1,906                       3
Non-Federal Earned Revenue                             N                 10,427                   3,548                   3,548                       0
Other Taxes and Receipts                               N                      (5)                     17                      17                      0
Total:                                                                  (11,746)                 (5,478)                  (5,475)                      3




                                                                              - 10 ­
                                                             U.S. Department of the Treasury
                                     11/16/2009 16:44:18
                                                               Financial Management Service

                                                          Governmentwide Financial Report System


                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: INCOME STATEMENT                                               Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                   Type
 32 Net Position, beginning of year                                                 BN      C       B                  (11,405)                (14,066)
                                                                                  Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Beginning Net Position                               B                (11,405)                (14,066)                 (14,066)                     0
Total:                                                                 11,405                   14,066                 14,066                           0




                                                                           - 11 ­
 Audit of the Pension Benefit Guaranty 

Corporation’s Fiscal Year 2009 and 2008 

 Special-Purpose Financial Statements 



Audit Report AUD-2010-3 / FA-09-64-3 





             Section VI 


    GF004F – Trading Partner 

     Summary Note Report 

                                                             U.S.Department of the Treasury                                11-16-2009 16:49:26
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2009                              Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION             Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB            2009-SEPTEMBER        2008-SEPTEMBER
 BS              Federal Investments                              A                    D                         18,047                18,831
                                                                                 Variance:                            0                    0

Trading       Name                              Status 2009-SEPTEMBER      2008-SEPTEMBER            Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                18,047                      18,831               18,831                    0
                                  Total                         18,047                      18,831               18,831                    0


Agency FS Status CP Line Description                              Account Type         NB            2009-SEPTEMBER        2008-SEPTEMBER
 BS              Interest Receivable                              A                    D                            192                  118
                                                                                 Variance:                             0                   0

Trading       Name                              Status 2009-SEPTEMBER      2008-SEPTEMBER            Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                   192                        118                   118                    0
                                  Total                           192                         118                   118                    0




                                                                           -1­
                                                             U.S.Department of the Treasury                              11-16-2009 16:49:26
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2009                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2009-SEPTEMBER        2008-SEPTEMBER
 BS              Benefit Program Contributions Payable            L                   C                             1                    0
                                                                                 Variance:                          0                    0

Trading         Name                            Status 2009-SEPTEMBER      2008-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                1                         0                     0                    0
                                  Total                             (1)                      0                      0                    0


Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2009                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2009-SEPTEMBER        2008-SEPTEMBER
 IS              Imputed Financing Source                         F                   C                             8                    4
                                                                                 Variance:                           0                   0

Trading         Name                            Status 2009-SEPTEMBER      2008-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                8                         4                     4                    0
                                  Total                             (8)                      (4)                   (4)                    0




                                                                          -2­
                                                               U.S.Department of the Treasury                                   11-16-2009 16:49:26
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                    Fiscal Year: 2009                                 Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION              Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type        NB               2009-SEPTEMBER         2008-SEPTEMBER
 IS              Federal Securities Interest Revenue (exchange)     ER                  C                             1,316                  1,909
                                                                                   Variance:                              0                      0

Trading       Name                              Status 2009-SEPTEMBER        2008-SEPTEMBER              Previously Reported     Line item Changes
Partner
 2000 Department of the Treasury                                  1,316                        1,909                  1,906                      3
                                  Total                           (1,316)                      (1,909)                (1,906)                    3


Agency FS Status CP Line Description                                Account Type        NB               2009-SEPTEMBER         2008-SEPTEMBER
 IS              Benefit Program Costs                              GC                  D                                19                    13
                                                                                   Variance:                               0                     0

Trading         Name                            Status 2009-SEPTEMBER        2008-SEPTEMBER              Previously Reported     Line item Changes
Partner
 2400 Office of Personnel Management                                 14                            8                      8                      0
 9900 Treasury General Fund                                            5                           5                      5                      0
                                  Total                              19                           13                     13                      0




                                                                            -3­
                                                              U.S.Department of the Treasury                               11-16-2009 16:49:26
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2009                              Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION             Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type        NB            2009-SEPTEMBER        2008-SEPTEMBER
 IS              Buy/Sell Costs                                    GC                  D                          (4)                   4
                                                                                  Variance:                           0                    0

Trading         Name                            Status 2009-SEPTEMBER       2008-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1400 Department of the Interior                                      2                         0                     0                    0
 1601 Department of Labor                                             1                         1                     1                    0
 2000 Department of the Treasury                                     (8)                         0                    0                    0
 2400 Office of Personnel Management                                 0                          1                     1                    0
 4700 General Services Administration                                1                          2                     2                    0
                                  Total                              (4)                        4                     4                    0

Agency FS Status CP Line Description                               Account Type        NB            2009-SEPTEMBER        2008-SEPTEMBER
 IS              Federal Securities Interest Expense               GC                  D                            314                  505
                                                                                  Variance:                            0                   0

Trading       Name                              Status 2009-SEPTEMBER       2008-SEPTEMBER           Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                    314                       505                   502                    3
                                  Total                            314                        505                   502                    3




                                                                           -4­
                                                             U.S.Department of the Treasury                             11-16-2009 16:49:26
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2009                            Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB          2009-SEPTEMBER        2008-SEPTEMBER
 IS              Imputed Costs                                    GC                  D                            8                    4
                                                                                 Variance:                         0                    0

Trading         Name                            Status 2009-SEPTEMBER      2008-SEPTEMBER         Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                8                        4                     4                    0
                                  Total                             8                        4                     4                    0




                                                                          -5­
 Audit of the Pension Benefit Guaranty 

Corporation’s Fiscal Year 2009 and 2008 

 Special-Purpose Financial Statements 



Audit Report AUD-2010-3 / FA-09-64-3 





             Section VII 


  GF005F – Intragovernmental 

Trading Partner Summary Report

                                          U.S.Department of the Treasury                                 11/16/2009
                                          Financial Management Service
                                      Governmentwide Financial Report System

                             GF005F - Intragovernmental Trading Partner Summary Report


Statement:   BALANCE SHEET                           Fiscal Year:   2009           Period:   SEPTEMBER



                                           No Record Found




                                                       -1­
 Audit of the Pension Benefit Guaranty 

Corporation’s Fiscal Year 2009 and 2008 

 Special-Purpose Financial Statements 



Audit Report AUD-2010-3 / FA-09-64-3 





            Section VIII

   GF006C – Financial Report
      (FR) Notes Report
                                                                                                                                                                                    11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01            Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                 Fiscal Year: 2009            Period: SEPTEMBER
    Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    AMR - Note 17

    Status: Complete                          The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

      Section: B              Section Name: Related Parties ¿ External to the Reporting Entity for      No Data Flag: YES         Line Attributes: Dollars
                                            the Financial Report                                                                Rounding Method: Millions                   Decimal: Zero
Line Status Line Description          NB        2009 - SEPTEMBER             2008 - SEPTEMBER                 Previously Rptd    Line Item Changes
                Related party        Debit
1
                receivables
                Related party        Credit
2
                payables
                Related party        Credit
3
                operating revenue
                Related party net    Debit
4
                cost of operations
                Related party        Debit
5
                economic
                dependency
                transactions
                Investments in       Debit
6
                related parties




                                                                                                           -1­
                                                                                                                                                                                              11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01         Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                   Fiscal Year: 2009                 Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:      AMR - Note 17

 Status: Complete                         The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                        Answer
1                  Describe any significant events that occured after the date of the balance sheet but prior to   1) Management evaluated subsequent events through November 13, 2009, the date the
                   the agency's audited financial statements being issued.                                         financial statements were available to be issued. Events or transactions occurring after
                                                                                                                   September 30, 2009, but prior to November 13, 2009 that provided addtional evidence
                                                                                                                   about conditions that existed at September 30, 2009, for either the single-employer or
                                                                                                                   multiemployer program, have been recognized in the financial statements for the period
                                                                                                                   ended September 30, 2009.

                                                                                                                   For the single-employer program, subsequent to September 30, 2009, PBGC obtained
                                                                                                                   a recovery in the form of an ownership interest in a new entity, emerging from a chapter
                                                                                                                   11 bankruptcy proceeding, intially valued in the range of $550 million to $700 million.
                                                                                                                   This current value estimate may change significantly over time.

                                                                                                                   For the multiemployer program, events or transactions that provided evidence about
                                                                                                                   conditions that did not exist at September 30, 2009 but arose before the financial
                                                                                                                   statements were available to be issued have not been recognized in the financial
                                                                                                                   statements for the period ended September 30, 2009.
2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).              2) There were no departures from GAAP for the end of fiscal year, September 30, 2009.
3                  Describe any change in accounting if a collecting entity adopts accounting standards that       3) There were no changes in accounting for the end of fiscal year, September 30, 2009.
                   embody a fuller application of accrual accounting concepts that differs from that prescribed
                   by the standard-SFFAS no. 7, par.64.
4                  List all of the agency's components whose balances and activities are not combined into the     4) There were no omissions of balances nor activity from PBGC's financial statements,
                   agency's financial statements and therefore, are not represented in the GFRS data.              all activity is represented in GFRS.
5                  List all of the agency's components whose balances and activities are combined into the         5) PBGC has two programs - The single-employer and the multiemployer program, in
                   agency's financial statements, and, therefore, are represented in the GFRS data.                which both are combined on the agency's financial statements and, therefore,
                                                                                                                   represented in the GFRS data.
6                  Describe the nature of the related party relationship and transactions pertaining to the        6) There is no relevant information to report for the end of fiscal year, September 30,
                   amount in the Other Notes Info tab, Related party receivables line.                             2009.
7                  Describe the nature of the related party relationship and transactions pertaining to the
                   amount in the Other Notes Info tab, Related party payables¿ line.
8                  Describe the Other Notes Info tab, Related party operating revenue transactions along with
                   the related party relationship and include transactions with zero or nominal balances,
                   guarantees, and other terms. Also, describe changes in related party terms.
9                  Describe the Other Notes Info tab, Related party net cost of operations transactions along
                   with the related party relationship and include transactions with zero or nominal balances,
                   guarantees, and other terms. Also, describe changes in related party terms.
10                 Describe related party economic dependency (that is, major customers, suppliers,
                   franchisors, franchisees, distributors, general agents, borrowers, and lenders) relationships
                   and transactions included in the Other Notes Info tab, Related party economic dependency
                   transactions section.
11                 Provide details on the investments in related parties.
12                 Provide details on related party leases.
13                 Describe control relationships with entities under common ownership, management control,



                                                                                                            -2­
                                                                                                                                                                            11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01        Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                              Fiscal Year: 2009            Period: SEPTEMBER
  Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AMR - Note 17

 Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Text Data
Line             Question                                                                                          Answer
                 and conservatorship if the operating results or financial position could be significantly
                 impacted as a result of the relationship. Include control relationships with and without
                 transactions.
14               Provide any other useful information on related parties.
15               Provide any other relevant information pertaining to this note.




                                                                                                             -3­
                                                                                                                                                                                              11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 02           Cash and Other Monetary Assets                                                                               Fiscal Year: 2009                 Period: SEPTEMBER
    Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                            0                                            Agency Notes:      AMR - MD&A - Investment Actvty & Note 3

    Status: Complete                        The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB     Account    2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                   Type
Cash and Other Monetary Assets                                             D         A                    3,706                  1,557
                                                                                Variance:                                            0           Rounding Method: Millions               Decimal: Zero
Line Status Line Description             2009 - SEPTEMBER           2008 - SEPTEMBER                Previously Rptd          Line Item Changes
             Other cash - not
3
             restricted
             Other cash - restricted
4
             International monetary
5
             assets
         I   Domestic monetary                         3                         1                         1                         0
7
             assets                                  3,703                     1,556                     1,723                     -167
             Foreign currency
8
             Total
Threshold

 Line Description                                               Question                                                          Answer
 Line Item Notes - Other cash - not restricted (20093,706
                                                     ­                           1,557
                                                                Please provide explanations                      1,724
                                                                                               for any amounts that  have         This change is directly attributable to PBGC's investment activity.
                                                                                                                                    -167
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between
                                                                the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Other cash - restricted (2009 ­              Please provide explanations for any amounts that have             This change is directly attributable to PBGC's investment activity and cash
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between        received from newly trusteed plans. The line item change of $167m is due to
                                                                the current fiscal year and prior fiscal year. (Unaudited)        a reclass from Cash and cash equivalents to Equity securities and
                                                                                                                                  Derivative Contracts Receivable.




                                                                                                       -4­
                                                                                                                                                                                                  11/16/2009 16:31:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

    Note: 02           Cash and Other Monetary Assets                                                                                     Fiscal Year: 2009                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:       AMR - MD&A - Investment Actvty & Note 3

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                            Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted."                   1) Relates to entity cash as defined in FASAB. This cash is derived from a cash
                                                                                                                       lockbox, whereas premiums are paid by sponsors of defined benefit plans.


2                  Describe the restrictions on the cash reported in the line item "Other cash - restricted" and       2) Relates to non-entity cash as defined in FASAB. This cash belongs to the trust fund,
                   any statutory authority (law, regulation, or agreement).                                            as the assets of trusteed plans are transferred to PBGC, as authorized by ERISA.
3                  If the cash is restricted because it is non-entity, state the entity for which the cash is being    3) Restricted cash held by PBGC's trust fund is for both the single-employer and
                   held.                                                                                               multiemployer programs.
4                  Is the reported restricted cash being held in a financial institution? If yes, is it a Treasury     4) Yes, PBGC's restricted cash is held in a U.S. financial institution and is not in a
                   designated bank?                                                                                    Treasury designated bank.
5                  If the agency has restricted cash, is the restricted cash invested? If yes, is it invested in the   5) PBGC's restricted cash is invested in both federal and non-federal securities, within
                   Bureau of the Public Debt security, agency security, and/or non-Federal security?                   PBGC's trust fund.
6                  Describe the nature of the amount in the line item "Foreign currency."
7                  Disclose any restrictions on the use (for example, by law, regulation, or agreement) of the
                   amount in the line item "Foreign Currency."
8                  Disclose the method of exchange rate used on the financial statement date (Treasury
                   exchange rate or prevailing market rate).
9                  Provide any other relevant information pertaining to this note.                                     9) There is no relevant information pertaining to this note.




                                                                                                                -5­
                                                                                                                                                                                            11/16/2009 16:31:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 03          Accounts and Taxes Receivable                                                                               Fiscal Year: 2009                 Period: SEPTEMBER
    Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                          0                                            Agency Notes:      AMR -MD&A Undr Wrtng Actvty

    Status: Complete                      The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB     Account    2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                 Type
Accounts and Taxes Receivable                                            D         A                    3,747                  8,690
                                                                              Variance:                                            0           Rounding Method: Millions               Decimal: Zero
Line Status Line Description           2009 - SEPTEMBER           2008 - SEPTEMBER                Previously Rptd          Line Item Changes
             Accounts receivable,
1
             gross
             Related interest
2
             receivable - accounts
             receivable                          4,566                       8,922                     8,629
             Penalties, fines, and                                                                                                293
3
             administrative fees
             receivable                          150                         139                       139
                                                                                                                                   0
             Less: allowance for
4
             loss on accounts
             receivable                                                       19                        19
                                                  8                                                                                0
             Less: allowance for
5
             loss on interest
             receivable                         -827                         -255                      -255
                                                                                                                                   0
             Less: allowance for
6
             loss on penalties,
             fines, and admin. fees             -147                         -131                      -131
                                                                                                                                   0
             rec.
             Total
Threshold                                         -3                          -4                        -4                         0

 Line Description                                             Question                                                          Answer
 Line Item Notes - Accounts receivable, gross (2009 ­
                                                  3,747                        8,690
                                                              Please provide explanations                      8,397
                                                                                             for any amounts that  have         This change is mainly attributable to a decrease of $5,426 million to Sale of
                                                                                                                                   293
 SEPTEMBER)                                                   changed by 10% or more and or greater than 500,000 between        securities, partially offset by an increase of $1,023 million in Premiums
                                                              the current fiscal year and prior fiscal year. (Unaudited)        receivable from FY 08 to FY 09.




                                                                                                     -6­
                                                                                                                                                                                             11/16/2009 16:31:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

    Note: 03          Accounts and Taxes Receivable                                                                                 Fiscal Year: 2009                 Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:       AMR -MD&A Undr Wrtng Actvty

 Status: Complete                        The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                       Answer
1                  Describe the method(s) used to calculate the allowances on accounts receivable.                The allowance for Premium Accounts Receivable is calculated in two ways 1) A
                                                                                                                  Specific Reserve is at 100% of A/R (accounts receivable) aged greater than 6 years for
                                                                                                                  Premium Statement of Accounts (SOA) and on A/R balances over $500,000 on a case
                                                                                                                  by case basis. 2) Then a General Reserve is applied for the remaining A/R using a 5
                                                                                                                  year rolling average of collection rates for SOA. The allowance for sponsors of
                                                                                                                  terminated plans is determined on a plan by plan basis through a collectibility analysis
                                                                                                                  performed on plan sponsors.
3                  Explain any material difference between the balance of accounts receivable and the             3) For the period ended, September 30, 2009, there are no material differences
                   amounts reported on the Treasury Report on Receivables.                                        between accounts receivable and the Treasury Report on receivables.
4                  Provide any other relevant information pertaining to this note.                                There is no relevant information pertaining to this note.




                                                                                                        -7­
                                                                                                                                                                                                     11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable                                           0                                                Fiscal Year: 2009                   Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                              0                                                Agency Notes:      AMR - MD&A Part IV.B and Note 7

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                   I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB     Account      2009 - SEPTEMBER         2008 - SEPTEMBER
                                                                                   Type
Loans Receivable                                                           D         A                                                     0
                                                                                Variance:                                                  0         Rounding Method: Millions                 Decimal: Zero
Line Status Line Description            CY: Face Value of Loans      CY: Long-Term Cost of               CY Net Loans             PY: Face Value of Loans       PY: Long-Term Cost of                PY Net Loans
                                               Oustanding                       Loans                                                    Oustanding                        Loans
14           Multiemployer
             Financial Assistance ­
             Revolving
15
16                                                387                          387                                                        311                            311                              0
17                                                                                                            0
18
19           All other loans
             receivable
             Total
Threshold

 Line Description                                              Question                                                                  Answer                                                                 0
 Line Item Notes - Multiemployer Financial Assistance ­        Please provide explanations
                                                                                 387          for any amounts that have                 This change is attributable to an increase
                                                                                                                                           311                             311     in requests for financial assistance
                                                   387                                                            0
 Revolving (CY: Long-Term Cost of Loans)                       changed by 10% or more and or greater than 500,000       between         from multiemployer plan sposnors.
                                                               the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Multiemployer Financial Assistance ­        Please provide explanations for any amounts that have                    This change is attributable to an increase in requests for financial assistance
 Revolving (CY: Face Value of Loans Oustanding)                changed by 10% or more and or greater than 500,000 between               from multiemployer plan sponsors.
                                                               the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                          -8­
                                                                                                                                                                                                 11/16/2009 16:31:51

                                                                                           U.S. Department of the Treasury
                                                                                            Financial Management Service
                                                                                       Governmentwide Financial Report System
                                                                                               GF006 - FR Notes Report

     Note: 04A           Direct Loans Receivable                                                                                          Fiscal Year: 2009                Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:      AMR - MD&A Part IV.B and Note 7

    Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Subsidy Expense                                                                       Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB       2009 - SEPTEMBER              2008 - SEPTEMBER              Previously Rptd         Line Item Changes
14             Multiemployer           Debit
               Financial
               Assistance ­
               Revolving
15                                     Debit
                                       Debit              86                            85                      85                          0
16
17                                     Debit
18                                     Debit
19             All other loans         Debit
               receivable
20             Total                   N/A
       Section: B                Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.         No Data Flag: YES             Line Attributes: Dollars
                                               91)                                                                                 Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB       2009 - SEPTEMBER              2008 - SEPTEMBER              Previously Rptd         Line Item Changes
                                                          86                          85                       85                           0
               Balances for            Debit
1
               property held Pre­
               1992
               Balances for            Debit
2
               property held Post­
               1991




Tab: Text Data
 Line                Question                                                                                           Answer
 1                   Provide a broad description of foreclosed property.
 2                   Provide any other relevant information pertaining to this note.                                    PBGC provides financial assistance to insolvent multiemployer plans to enable the plan
                                                                                                                        to pay guaranteed benefits.




                                                                                                          -9­
                                                                                                                                                                                 11/16/2009 16:31:51

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 04B          Loan Guarantees                                               0                                          Fiscal Year: 2009               Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                          0                                          Agency Notes:      N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                Type
Loan Guarantee Liabilities                                               C        L                                             0
                                                                             Variance:                                          0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2009 - SEPTEMBER             2008 - SEPTEMBER                Previously Rptd        Line Item Changes
13
14
15
16
17
18           All other loan
             guarantee liabilities
             Total




                                                                                                    - 10 ­
                                                                                                                                                                                  11/16/2009 16:31:51

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

     Note: 04B         Loan Guarantees                                                                                              Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Other Related Information                                No Data Flag: YES           Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                  Decimal: Zero
Line Status Line Description         NB          CY Face Value of           CY Amount Guaranteed     CY Subsidy Expense D    PY Face Value of Loans PY Amount Guaranteed by   PY Subsidy Expense D
                                             Loans Outstanding D             by the Government D                                    Outstanding D        the Government D
13                                   N/A
14                                   N/A
15                                   N/A
16                                   N/A
17                                   N/A
18          All other loans          N/A
            guarantee liabilities
19          Total:                   N/A
Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                        Answer
 1                  Provide any other relevant information pertaining to this note.




                                                                                                       - 11 ­
                                                                                                                                                                                11/16/2009 16:31:51

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 05          Inventories and Related Property                              0                                          Fiscal Year: 2009               Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                          0                                          Agency Notes:      N/A

    Status: Complete                     The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                               Type
Inventory and Related Property                                          D        A                                             0
                                                                            Variance:                                          0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description           2009 - SEPTEMBER          2008 - SEPTEMBER                Previously Rptd        Line Item Changes
             Gross Inventory ­
1
             balance beginning of
             year
             Prior-period
2
             adjustment (not
             restated)
             Capitalized
3
             acquisitions from the
             public
             Capitalized
4
             acquisitions from
             Government agencies
             Inventory sold or used
5
             Total allowance for
6
             inventories and related
             property
             Total




                                                                                                   - 12 ­
                                                                                                                                                                               11/16/2009 16:31:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                             Fiscal Year: 2009      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

    Status: Complete                             The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Inventory Yearend Balances by Category Type                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                Inventory               Debit
1
                purchased for sale
                Inventory held in       Debit
2
                reserve for future
                sale to the public
                Inventory and           Debit
3
                operating material
                and supplies held
                for repair
                Inventory - excess,     Debit
4
                obsolete, and
                unserviceable
                Operating materials     Debit
5
                and supplies held
                for use
                Operating materials     Debit
6
                and supplies held
                in reserve for future
                use
                Operating materials     Debit
7
                and supplies
                excess, obsolete,
                and unserviceable
                Stockpile materials     Debit
8
                Stockpile materials     Debit
9
                held for sale
10              Forfeited property      Debit
11              Other related           Debit
                property
12              Total allowance for     Credit
                inventories and
                related property
13              Total inventories        N/A
                and related
                property, net




                                                                                                           - 13 ­
                                                                                                                                                                               11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                          Fiscal Year: 2009         Period: SEPTEMBER
    Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    N/A

    Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line


      Section: B               Section Name: Capitalized Acquitions From Government Agencies         No Data Flag: YES         Line Attributes: Dollars
                                             by Trading Patrner                                                              Rounding Method: Millions                Decimal: Zero
Line Status Line Description          NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                General Services     Debit
1
                Administration
                Department of        Debit
2
                Defense
                Department of        Debit
3
                Justice
                National             Debit
4
                Aeronautics and
                Space
                Administration
                All other            Debit
5
                departments
                Total Capitalized     N/A
6
                Assets from
                Federal Agencies
      Section: C               Section Name: Other Information - Dollar Value                        No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                Seized property      Debit
1
                Forfeited property   Debit
2
                Goods held under     Debit
3
                price support and
                stabilization
                programs




                                                                                                       - 14 ­
                                                                                                                                                                         11/16/2009 16:31:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                         Fiscal Year: 2009      Period: SEPTEMBER
    Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    N/A

    Status: Complete                        The accompanying notes are an integral part of these financial statements.         I = Inactive Line


      Section: D               Section Name: Other Information - Number of Items/Volume             No Data Flag: YES         Line Attributes: Units


Line Status Line Description          NB      2009 - SEPTEMBER                2008 - SEPTEMBER            Previously Rptd     Line Item Changes
                Seized property      N/A
1
                Forfeited property   N/A
2
                Goods held under     N/A
3
                price support and
                stabilization
                programs



Tab: Text Data                         No Data Flag: YES
 Line                Question                                                                                        Answer
 1                   Method used to calculate allowance for each category of inventory.
 2                   Significant accounting principles and methods of applying those principles.
 3                   Provide any other relevant information pertaining to this note.




                                                                                                      - 15 ­
                                                                                                                                                                                     11/16/2009 16:31:51

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 06          Property, Plant, and Equipment                                                                            Fiscal Year: 2009                   Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                           0                                          Agency Notes:       AMR - Note 2 Deprec & Amortz

    Status: Complete                     The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account      2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                               Type
Property, Plant and Equipment                                           D        A                          29                 32
                                                                            Variance:                                           0             Rounding Method: Millions          Decimal: Zero
Line Status Line Description                     CY PP&E            CY Accum. Depr.                CY Net PP& E                     PY PP&E             PY Accum. Depr.                  PY Net PP&E
             PP&E - balance
1
             beginning of year
             Prior-period
2
             adjustments (not
             restated)
             Capitalized                         73                         41                         32                       71                             30                         41
3
             acquisitions from the
             public
             Capitalized
4
             acquisitions from
             Government agencies                10                                                     10                        2                                                         2
             Deletions from the
5
             Balance Sheet
             Revaluations
6
             Stewardship
7
             reclassifications
             Depreciation/amortizati
8
             on
             Total


                                                                            13                        -13                                                      11                         -11
                                                                                                                                                                                                32

                                                 83                         54                          29                          73                          41




                                                                                                   - 16 ­
                                                                                                                                                                                                    11/16/2009 16:31:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                                 Fiscal Year: 2009                  Period: SEPTEMBER
    Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:       AMR - Note 2 Deprec & Amortz

    Status: Complete                            The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Other Notes Info.

      Section: A                 Section Name: Gross cost for PP&E for each category                                                  Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                               Decimal: Zero
Line Status Line Description             NB       2009 - SEPTEMBER              2008 - SEPTEMBER                  Previously Rptd    Line Item Changes
                Buildings,              Debit
1
                structures, and
                facilities (including
                improvement to
                land)
                Furniture, fixtures,    Debit
2
                and equipmen
                (including
                aircraf,ships,
                vessels, small
                boats, and                                 17                          15                             15
                vehicles)                                                                                                                   0
                Construction in         Debit
3
                progress
                Land and Land           Debit
4
                Rights
                Internal use            Debit
5
                software
                Assets under            Debit
6
                capital lease
                Leasehold               Debit
7                                                          66                          58                             58
                improvements                                                                                                                0
                Other property,         Debit
8
                plant and
                equipment
                Total property,         N/A
9
                plant and
                equipment
Threshold
 Line Description                                                   Question                                                           Answer
 Other Notes Info - Furniture, fixtures, and equipmen 83                              73
                                                                    Please provide explanations  for any amounts that73have            This is0 attributable to an increase in equipment.
 (including aircraf,ships, vessels, small boats, and vehicles)      changed by 10% or more and or greater than 500,000
 (2009 - SEPTEMBER)                                                 between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)
 Other Notes Info - Internal use software (2009 ­                   Please provide explanations for any amounts that have              This is attributable to an increase in the development of internal use
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000                 software.
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)



                                                                                                             - 17 ­
                                                                                                                                                                                       11/16/2009 16:31:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06             Property, Plant, and Equipment                                                                               Fiscal Year: 2009            Period: SEPTEMBER
    Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    AMR - Note 2 Deprec & Amortz

    Status: Complete                             The accompanying notes are an integral part of these financial statements.         I = Inactive Line


      Section: B                Section Name: Accumulated Depreciation/Amortization                                                Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                     Decimal: Zero
Line Status Line Description             NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                Buildings,              Credit
1
                structures, and
                facilities (including
                improvements to
                land)
                Furniture, fixtures,    Credit
2
                and equipment
                (including aircraft,
                ships, vessels,
                small boats, and
                vehicles)                                   16                         15                           15                   0
                Internal use            Credit
3
                software
                Assets under            Credit
4
                capital lease
                Leasehold               Credit
5                                                           38                         26                           26
                improvements                                                                                                             0
                Other property,         Credit
6
                plant, and
                equipment
                Total accumulated        N/A
7
                depreciation/amorti
                zation
      Section: C                Section Name: Intragovernmental Capitalized acquisition amounts          No Data Flag: YES         Line Attributes: Dollars
                                                           -54                        -41                       -41              Rounding Method: Millions                     Decimal: Zero
                                                                                                                                         0
Line Status Line Description             NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                General Services        Debit
1
                Administration
                Department of           Debit
2
                Defense
                Department of the       Debit
3
                Interior
                Department of           Debit
4
                Justice
                National                Debit
5
                Aeronautics and
                Space
                Administration



                                                                                                           - 18 ­
                                                                                                                                                                                         11/16/2009 16:31:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 06            Property, Plant, and Equipment                                                                                 Fiscal Year: 2009            Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    AMR - Note 2 Deprec & Amortz

    Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: C              Section Name: Intragovernmental Capitalized acquisition amounts          No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                     Decimal: Zero
Line Status Line Description           NB        2009 - SEPTEMBER             2008 - SEPTEMBER                 Previously Rptd     Line Item Changes
                All other             Debit
6
                departments
                Total capitalized      N/A
7
                assets from
                Federal agencies




       Section: D              Section Name: Gain/Loss on Sale/Disposition                              No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                  Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB        2009 - SEPTEMBER             2008 - SEPTEMBER                 Previously Rptd     Line Item Changes
                Gain/loss on          Credit
1
                sale/disposition of
                property, plant and
                equipment




Tab: Text Data                           No Data Flag: YES
 Line                Question                                                                                            Answer
 1                   Provide the physical quantity information by category for multiuse heritage assets that are
                     included in the "Line Item Notes" tab of this note (SFFAS No. 16, par 9).
 2                   Disclose any transfer of land where the book value is not known by the receiving entity, if
                     material (SFFAS No. 6, par.72).
 3                   Provide any other relevant information pertaining to this note and any material changes from
                     the prior years' depreciation methods and capitalization thresholds.




                                                                                                           - 19 ­
                                                                                                                                                                                           11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 07           Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                   Fiscal Year: 2009               Period: SEPTEMBER
    Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                            0                                           Agency Notes:      AMR - MD& A Section VIII & Note 3

    Status: Complete                      The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB      Account    2009 - SEPTEMBER        2008 - SEPTEMBER
                                                                                   Type
Securities and Investments                                                D          A                   43,582                36,456
                                                                                Variance:                                           0           Rounding Method: Millions          Decimal: Zero
Line Status Line Description            2009 - SEPTEMBER           2008 - SEPTEMBER                Previously Rptd          Line Item Changes
             Fixed/Debt Securities
1
             (FASB 115 par 6 and
             19): Non-U.S.
             Government Securities
             Fixed/Debt Securities              2,974
2                                                                             2,527                     2,527
             (FASB 115 par 6 and
                                                                                                                                    0
             19): Commercial
             Securities
             Fixed/Debt Securities
3                                                                                                       -229
             (FASB 115 par 6 and                 48                            656                                                 885
             19): Mortgage/asset
             backed Securities
             Fixed/Debt Securities
4                                               2,728                         5,407                     3,331                     2,076
             (FASB 115 par 6 and
             19):Corporate and
             other bonds
             Fixed/Debt Securities                                            10,936                    10,936
5                                               8,314
             (FASB 115 par 6 and
                                                                                                                                    0
             19) All:Other fixed/debt
             securities
             Equity Securities
6                                               1,412
             (FASB 115 par 6 and                                               -76                       -76
                                                                                                                                    0
             19): Common Stocks
             Equity Securities
7
             (FASB 115 par 6 and
                                                                              2,741                     2,864                     -123
             19): Unit Trusts                   717
             Equity Securities
8
             (FASB 115 par 6 and               21,710                         9,225                     9,225
             19): Other Equity
                                                                                                                                    0
             Securities
             Other
9                                               1,706
             Total                                                             955                       955
                                                                                                                                    0
Threshold

 Line Description                              3,973          Question        4,085                     4,085                     Answer
                                               43,582                         36,456                    33,618                      0
                                                                                                                                   2,838




                                                                                                      - 20 ­
                                                                                                                                                                                     11/16/2009 16:31:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 07           Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                Fiscal Year: 2009               Period: SEPTEMBER
  Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:     AMR - MD& A Section VIII & Note 3

 Status: Complete                        The accompanying notes are an integral part of these financial statements.         I = Inactive Line



Threshold

Line Description                                               Question                                                      Answer
Line Item Notes - Fixed/Debt Securities (FASB 115 par 6 and    Please provide explanations for any amounts that have        In accordance to a Temporary Investment Policy Guidance and Transition
19): Commercial Securities (2009 - SEPTEMBER)                  changed by 10% or more and or greater than 500,000 between   Plan, approved on October 14, 2009, directed PBGC to prudently rebalance
                                                               the current fiscal year and prior fiscal year. (Unaudited)   the PBGC portfolio and reduce PBGC's investment in public equities to no
                                                                                                                            more than the percent as of March 31, 2009. PBGC will continue to take a
                                                                                                                            prudent and careful approach to implement this temporary investment
                                                                                                                            policy.
Line Item Notes - Fixed/Debt Securities (FASB 115 par 6 and    Please provide explanations for any amounts that have        In accordance to a Temporary Investment Policy Guidance and Transition
19): Mortgage/asset backed Securities (2009 ­                  changed by 10% or more and or greater than 500,000 between   Plan, approved on October 14, 2009, directed PBGC to prudently rebalance
SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)   the PBGC portfolio and reduce PBGC's investment in public equities to no
                                                                                                                            more than the percent as of March 31, 2009. PBGC will continue to take a
                                                                                                                            prudent and careful approach to implement this temporary investment
                                                                                                                            policy.
Line Item Notes - Fixed/Debt Securities (FASB 115 par 6 and    Please provide explanations for any amounts that have        In accordance to a Temporary Investment Policy Guidance and Transition
19):Corporate and other bonds (2009 - SEPTEMBER)               changed by 10% or more and or greater than 500,000 between   Plan, approved on October 14, 2009, directed PBGC to prudently rebalance
                                                               the current fiscal year and prior fiscal year. (Unaudited)   the PBGC portfolio and reduce PBGC's investment in public equities to no
                                                                                                                            more than the percent as of March 13, 2009. PBGC will continue to take a
                                                                                                                            prudent and careful approach to implement this temporary investment
                                                                                                                            policy.
Line Item Notes - Fixed/Debt Securities (FASB 115 par 6 and    Please provide explanations for any amounts that have        In accordance to a Temporary Investment Policy Guidance and Transition
19) All:Other fixed/debt securities (2009 - SEPTEMBER)         changed by 10% or more and or greater than 500,000 between   Plan, approved on October 14, 2009, directed PBGC to prudently rebalance
                                                               the current fiscal year and prior fiscal year. (Unaudited)   the PBGC portfolio and reduce PBGC's investment in public equities to no
                                                                                                                            more than the percent as of March 31, 2009. PBGC will continue to take a
                                                                                                                            prudent and careful approach to implement this temporary investment
                                                                                                                            policy.
Line Item Notes - Equity Securities (FASB 115 par 6 and 19):   Please provide explanations for any amounts that have        In accordance to a Temporary Investment Policy Guidance and Transition
Common Stocks (2009 - SEPTEMBER)                               changed by 10% or more and or greater than 500,000 between   Plan, approved on October 14, 2009, directed PBGC to prudently rebalance
                                                               the current fiscal year and prior fiscal year. (Unaudited)   the PBGC portfolio and reduce PBGC's investments in public equities to no
                                                                                                                            more than the percent as of March 31, 2009. PBGC will continue to take a
                                                                                                                            prudent and careful approach to implement this temporary investment
                                                                                                                            policy.
Line Item Notes - Equity Securities (FASB 115 par 6 and 19):   Please provide explanations for any amounts that have        In accordance to a Temporary Investment Policy Guidance and Transition
Unit Trusts (2009 - SEPTEMBER)                                 changed by 10% or more and or greater than 500,000 between   Plan, approved on October 14, 2009, directed PBGC to prudently rebalance
                                                               the current fiscal year and prior fiscal year. (Unaudited)   the PBGC portfolio and reduce PBGC's investment in public equities to no
                                                                                                                            more than the percent as of March 31, 2009. PBGC will continue to take a
                                                                                                                            prudent and careful approach to implement this temporary investment
                                                                                                                            policy.




                                                                                                     - 21 ­
                                                                                                                                                                                     11/16/2009 16:31:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 07           Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                Fiscal Year: 2009              Period: SEPTEMBER
  Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:     AMR - MD& A Section VIII & Note 3

 Status: Complete                        The accompanying notes are an integral part of these financial statements.         I = Inactive Line



Threshold

Line Description                                               Question                                                      Answer
Line Item Notes - Equity Securities (FASB 115 par 6 and 19):   Please provide explanations for any amounts that have        In accordance to a Temporary Investment Policy Guidance and Transition
Other Equity Securities (2009 - SEPTEMBER)                     changed by 10% or more and or greater than 500,000 between   Plan, approved on October 14, 2009, directed PBGC to prudently rebalance
                                                               the current fiscal year and prior fiscal year. (Unaudited)   the PBGC portfolio and reduce PBGC's investment in public equities to no
                                                                                                                            more than the percent as of March 31, 2009. PBGC will continue to take a
                                                                                                                            prudent and careful approach to implement this temporary investment
                                                                                                                            policy.




                                                                                                     - 22 ­
                                                                                                                                                                                         11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                 Fiscal Year: 2009             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AMR - MD& A Section VIII & Note 3

    Status: Complete                          The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Investment Category - Held-to-Maturity Securities        No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D              CY Unamortized           CY Net Investment     PY Basis (Costs) D             PY Unamortized        PY Net Investment
                                                                             Premium/Discount D                                                            Premium/Discount D
                Fixed/Debt              N/A
1
                Securities: Non-
                U.S. Government
                securities
                Fixed/Debt              N/A
2
                Securities: Non-
                U.S. Commercial
                securities
                Fixed/Debt              N/A
3
                Securities:
                Mortgage/asset
                backed securities
                Fixed/Debt              N/A
4
                Securities:
                Corporate and
                other bonds
                Fixed/Debt              N/A
5
                Securities: Other
                fixed/debt securities
                Equity Securities:      N/A
6
                Common stocks
                Equity Securities:      N/A
7
                Unit trusts
                Equity Securities:      N/A
8
                All Other equity
                securities
                Other                   N/A
9
10              Total Held-to-          N/A
                Maturity Securities




                                                                                                        - 23 ­
                                                                                                                                                                                         11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                 Fiscal Year: 2009             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AMR - MD& A Section VIII & Note 3

    Status: Complete                          The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B              Section Name: Investment Category - Available-for-Sale Securities      No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value     PY Basis (Costs) D      PY Unrealized Gain/Loss          PY Market Value
                                                                                               D                                                                             D
                Fixed/Debt              N/A
1
                Securities: Non-US
                Government
                securities
                Fixed/Debt              N/A
2
                Securities:
                Commercial
                securities
                Fixed/Debt              N/A
3
                Securities:
                Mortgage/asset
                backed securities
                Fixed/Debt              N/A
4
                Securities:
                Corporate and
                other bonds
                Fixed/Debt              N/A
5
                Securities: All other
                fixed/debt securities
                Equity Securities:      N/A
6
                Common stocks
                Equity Securities:      N/A
7
                Common stocks
                Equity Securities:      N/A
8
                All other equity
                securities
                Other                   N/A
9
10              Total Available-        N/A
                for-Sale Securities




                                                                                                        - 24 ­
                                                                                                                                                                                         11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                 Fiscal Year: 2009             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AMR - MD& A Section VIII & Note 3

    Status: Complete                          The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C               Section Name: Investment Category - Trading Securities                                          Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value     PY Basis (Costs) D      PY Unrealized Gain/Loss          PY Market Value
                                                                                               D                                                                             D
                Fixed/Debt              N/A
1
                Securities: Non-US
                Government
                securities
                Fixed/Debt              N/A            2,720                                                     2,974              2,850                                                  2,527
2                                                                                  254                                                                         -323
                Securities:
                Commercial
                securities
                Fixed/Debt              N/A
3                                                                                                                                    656                                                    656
                Securities:                              48                                                       48
                Mortgage/asset
                backed securities
                Fixed/Debt              N/A            2,845                                                     2,728              5,759                                                  5,407
4                                                                                 -117                                                                         -352
                Securities:
                Corporate and
                other bonds
                Fixed/Debt              N/A            8,408                                                     8,314              13,220                    -2,284                       10,936
5                                                                                  -94
                Securities: All other
                fixed/debt securities
                Equity Securities:      N/A
6
                Common stocks                          1,349                                                     1,412
                                                                                    63                                               -34                       -42                          -76
                Equity Securities:      N/A
7
                Unit trusts
                Equity Securities:      N/A                                                                                         3,403                      -662                        2,741
8                                                       805                        -88                           717
                All other equity
                securities                             16,566                     5,144                      21,710                 5,833                      3,392                       9,225
                Other                   N/A
9
10              Total Trading           N/A            1,928                      -222                           1,706              1,007
                                                                                                                                                               -52                          955
                Securities

                                                        3,840                                                 3,973                  4,081                                                  4,085
                                                                                   133
                                                       38,509                     5,073                      43,582                 36,775                       4                         36,456
                                                                                                                                                               -319




                                                                                                        - 25 ­
                                                                                                                                                                                          11/16/2009 16:31:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                  Fiscal Year: 2009             Period: SEPTEMBER
    Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AMR - MD& A Section VIII & Note 3

    Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


      Section: D               Section Name: Other Information (FASB 115, pars. 21a, 21c, 21d,                                   Line Attributes: Dollars
                                             21e, and 22)                                                                      Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd      Line Item Change
                Proceeds from         Debit
1
                sales of available-
                for-sale securities
                Gross realized        Debit
2
                gains (included in
                earnings) from
                sales of available-
                for-sale securities
                Gross realized        Credit
3
                losses (included in
                earnings) from
                sales of available-
                for-sale securities
                Gross gains           Debit
4
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
                Gross losses          Credit
5
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
                Net unrealized        Debit
6
                holding gain on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income
                Net unrealized        Credit
7
                holding loss on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive


                                                                                                         - 26 ­
                                                                                                                                                                                           11/16/2009 16:31:51

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                   Fiscal Year: 2009             Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AMR - MD& A Section VIII & Note 3

    Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D               Section Name: Other Information (FASB 115, pars. 21a, 21c, 21d,                                   Line Attributes: Dollars
                                              21e, and 22)                                                                      Rounding Method: Millions                      Decimal: Zero
Line Status Line Description             NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd      Line Item Change
                income
                Amount of               Debit
8
                gains/losses
                reclassified out of
                accumulated other
                comprehensive
                income into
                earnings for the
                period
                Portion of trading      Debit
9
                gains/losses that
                relates to trading
                securities still held
                at the reporting                                                    -6,973                     -6,973
                date                                     5,730

10              Net carrying            Debit
                amount of
                sold/transferred
                held-to-maturity
                securities
11              Net gain/loss in        Debit
                accum. other
                comp. income for
                any derivative that
                hedged the
                forecasted
                acquisition of HTM
                security




                                                                                                          - 27 ­
                                                                                                                                                                                                   11/16/2009 16:31:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 07          Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                          Fiscal Year: 2009                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                              Agency Notes:       AMR - MD& A Section VIII & Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide a description of the amounts reported on the "Line Item Notes" tab for lines 5, 8 and      The majority of the amount in line 5 consists of $1,359 million in pooled funds - fixed
                   9.                                                                                                 income.
                                                                                                                      The majority of the amount in line 8 consists of $1,237 million in private equity.
                                                                                                                      The majority of the amount in line 9 consists of $2,507 million in security lending
                                                                                                                      collateral, $648 million in other investments and $595 million in pooled funds - real
                                                                                                                      estate.
2                  Provide a description of the amounts reported on the "Other Notes Infor" tab for lines 5, 8        The majority of the amount in line 5 consists of $1,306 million (cost) for pooled funds ­
                   and 9 in Sections A through C.                                                                     fixed income.
                                                                                                                      The majority of the amount in line 8 consists of $1,470 million (cost) for private equity.
                                                                                                                      The majority of the amount on line 9 consists of $2,507 million (cost) security lending
                                                                                                                      collateral, $474 million (cost) for other investments and $636 million (cost) for pooled
                                                                                                                      funds - real estate.
3                  Provide the basis on which the cost of a security sold or the amount reclassified out of
                   accumulated other comprehensive income into earnings was determined (FASB 115 par
                   21b).
4                  Provide the circumstances leading to the decision to sell or transfer the security for held-to­
                   maturity securities (FASB 115 par 22).
5                  Provide any other relevant information pertaining to this note.                                    There is no other relevant information pertaining to this note.




                                                                                                             - 28 ­
                                                                                                                                                                                              11/16/2009 16:31:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 08            Other Assets                                                         0                                               Fiscal Year: 2009               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                 0                                               Agency Notes:      N/A

    Status: Complete                        The accompanying notes are an integral part of these financial statements.                     I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                       Type
Other Assets                                                                   D         A                                                   0
                                                                                    Variance:                                                0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2009 - SEPTEMBER               2008 - SEPTEMBER                   Previously Rptd            Line Item Changes
               Advances and
1
               prepayments
               Regulatory Assets
2
               Other Assets
3
               Total

Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                Answer
 1                   Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.
 2                   Provide a description and related amounts for balances that exceed $1 billion in the line titled
                     "Other Assets" on the "Line Item Notes" tab.
 3                   Provide any other relevant information pertaining to this note.




                                                                                                              - 29 ­
                                                                                                                                                                                          11/16/2009 16:31:51

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 09          Accounts Payable                                                                                            Fiscal Year: 2009                 Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                           0                                            Agency Notes:      AMR - Note 8

    Status: Complete                      The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2009 - SEPTEMBER        2008 - SEPTEMBER
                                                                                Type
Accounts Payable                                                         C        L                          73                 110
                                                                             Variance:                                            0            Rounding Method: Millions             Decimal: Zero
Line Status Line Description         2009 - SEPTEMBER             2008 - SEPTEMBER                Previously Rptd          Line Item Changes
             Accounts Payable
1
             Total
Threshold

 Line Description                                             Question                                                          Answer
                                                73                            110                              152                -42
 Line Item Notes - Accounts Payable (2009 - SEPTEMBER)        Please provide explanations
                                                                                110          for any amounts that
                                                                                                                152have         The-42
                                                                                                                                     change in accounts payable (AP) is due to a balance sheet reclass of
                                                73            changed by 10% or more and or greater than 500,000 between        swap collateral activity from A/P to Derivative Contracts.
                                                              the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                    - 30 ­
                                                                                                                                                                                    11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2009               Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AMR - Note 3

    Status: Complete                       The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Investments in Federal Debt securities                                              Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                      Decimal: Zero
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium       CY Net Investment          PY Par Value of the PY Unamortized discount
                                                   investment D                       Discount C                                                              investment D                         C
                                                                                                                      D
17             Pension Benefit      N/A
               Guaranty
               Corporation Fund
23                                  N/A
                                    N/A              18,301                        2,553                            2,299          18,047                   21,549                     4,891
24
25                                  N/A
26             All other programs   N/A
               and funds
27             Total                N/A

Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium D
17             Pension Benefit       N/A             18,301                       -2,553                            2,299          18,047                   21,549                     -4,891
               Guaranty
               Corporation Fund
23                                   N/A
                                     N/A             2,173                        18,831
24
25                                   N/A
26             All other programs    N/A
               and funds
27             Total                 N/A
       Section: B            Section Name: Fiduciary Funds - Tresury Securities Held by Deposit          No Data Flag: YES     Line Attributes: Dollars
                                           Funds with Fiduciary - Activity                                                   Rounding Method: Millions                      Decimal: Zero
Line Status Line Description         NB        CY Par value of the
                                                    2,173                       18,831 discount CY Unamortized premium
                                                                         CY Unamortized                                        CY Net Investment
                                                   investment D                              C                      D
                                    N/A
1
                                    N/A
2
                                    N/A
3
                                    N/A
4
                                    N/A
5
                                    N/A
6
                                    N/A
7
                                    N/A
8


                                                                                                           - 31 ­
                                                                                                                                                                                   11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2009               Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AMR - Note 3

    Status: Complete                      The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B           Section Name: Fiduciary Funds - Tresury Securities Held by Deposit          No Data Flag: YES     Line Attributes: Dollars
                                          Funds with Fiduciary - Activity                                                   Rounding Method: Millions                      Decimal: Zero
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment
                                                  investment D                               C                      D
                                   N/A
9
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
       Section: C           Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                          Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                      Decimal: Zero
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment
                                                  investment D                               C                      D
                                   N/A
1
                                   N/A
2
                                   N/A
3
                                   N/A
4
                                   N/A
5
                                   N/A
6
                                   N/A
7
                                   N/A
8
                                   N/A
9
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A




                                                                                                          - 32 ­
                                                                                                                                                                                     11/16/2009 16:31:51

                                                                                      U.S. Department of the Treasury

                                                                                       Financial Management Service

                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

      Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2009               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AMR - Note 3

     Status: Complete	                      The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: D             Section Name:	 Tresury Secrities Held be Governmnet Trust Funds,            No Data Flag: YES     Line Attributes: Dollars

                                             Revolving Funds, and Special Funds (to be
                                       Rounding Method: User-Defined                 Decimal: User-Defined
                                             completed only by Treasury)
Line Status Line Description          NB        CY Par value of the                 CY Unamortized CY Unamortized premium      CY Net Investment          PY Par Value of the PY Unamortized Discount
                                                    investment D                       Discount C                                                             investment D
                                                                                                                       D                                                                          C
            Total                    N/A
26
Line Status Line Description          NB            PY Unamortized             PY Net Investment
                                                       premium D
               Total                  N/A
26




                                                                                                            - 33 ­
                                                                                                                                                                               11/16/2009 16:31:51

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                           Fiscal Year: 2009               Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                         0                                          Agency Notes:      N/A

    Status: Complete                    The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account    2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                               Type
Federal Employee and Veteran Benefits Payable                          C         L                         0                  0
                                                                            Variance:                                         0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2009 - SEPTEMBER           2008 - SEPTEMBER               Previously Rptd        Line Item Changes
             Pension and accrued
1
             benefits
             Post-retirement health
2
             and accrued benefits
             Veteran's
3
             compensation and
             burial benefits
             Life Insurance and
4
             accrued benefits
             FECA Benefits
5
             Liability for other
6
             retirement and
             postemployment
             benefits
             Total




                                                                                                  - 34 ­
                                                                                                                                                                               11/16/2009 16:31:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2009      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

    Status: Complete                             The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Pension and Accrued Benefits Liability-To be               No Data Flag: YES         Line Attributes: Dollars
                                              completed for the amount entered for pension and                                   Rounding Method: Millions             Decimal: Zero
                                              accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                Pension and             Credit
1
                accrued benefits
                liability- beginning
                of period
                Prior-period            Credit
2
                adjustments(not
                restated)
                Prior (and past)        Credit
3
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
                Assumption              Credit
4
                Change Liability
                Normal Costs            Credit
5
                (SFFAS No. 5, par.
                72)
                Interest on pension     Credit
6
                liability during the
                period
                Prior (and past)        Credit
7
                service cost (from
                the initiation of a
                new plan)
                Actuarial               Credit
8
                (gains)/losses
                Total pension            N/A
9
                expense (SFFAS
                No. 5, par.72)
10              Less Benefits Paid      Debit
11              Pension and              N/A
                Accrued Benefits
                Liability-end of
                period




                                                                                                           - 35 ­
                                                                                                                                                                               11/16/2009 16:31:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                               Fiscal Year: 2009      Period: SEPTEMBER
    Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

    Status: Complete                             The accompanying notes are an integral part of these financial statements.         I = Inactive Line


      Section: B                 Section Name: Pension Liability Long-Term Significant Assumptions       No Data Flag: YES         Line Attributes: Percent
                                               Used in 2008 and 2007 Valuation (SFFAS No. 5,
                                               par.67)
Line Status Line Description             NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                Rate of Interest         N/A
1
                Rate of inflation        N/A
2
                Projected salary         N/A
3
                increases




      Section: C                 Section Name: Postretirement Health and Accrued Benefits                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                Postretirement          Credit
1
                health and accrued
                benefits liability-
                beginning of period
                (SFFAS No. 5,
                par.88)
                Prior-period            Credit
2
                adjustments (not
                restated)
                Prior (and past)        Credit
3
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
                Normal costs            Credit
4
                Interest on liability   Credit
5
                Change in medical       Credit
6
                cost trend rate
                assumption
                (gains)/losses
                Other actuarial         Credit
7
                (gains)/losses
                Total                    N/A
8
                postretirement
                health benefits



                                                                                                           - 36 ­
                                                                                                                                                                                11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                             Fiscal Year: 2009         Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    N/A

    Status: Complete                          The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C              Section Name: Postretirement Health and Accrued Benefits               No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                Decimal: Zero
Line Status Line Description           NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                expense
                Less claims paid      Debit
9
10              Postretirement        N/A
                health and accrued
                benefits liability-
                end of period




       Section: D              Section Name: Postretirement Health Liability Significant              No Data Flag: YES         Line Attributes: Percent
                                             Assumptions Used in Determining the 2008 and 2007
                                             Valuation
Line Status Line Description           NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                Rate of Interest      N/A
1
                Ultimate rate of      N/A
2
                health care cost
                trend
                Single equivalent     N/A
3
                rate of health care
                cost trend


       Section: G              Section Name: Other                                                    No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description           NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                Non-marketable      Debit
1
                Treasury securities
                held by Thrift
                Savings Plan (TSP)
                Fund
                Total assets of     Debit
2
                pension (SFFAS
                No.5, par. 68)
                Market value of     Debit
3
                investments in
                market-based and
                marketable
                securities included



                                                                                                        - 37 ­
                                                                                                                                                                                 11/16/2009 16:31:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 11               Federal Employee and Veteran Benefits Payable                                                           Fiscal Year: 2009          Period: SEPTEMBER
    Entity: 1602            PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:     N/A

    Status: Complete                           The accompanying notes are an integral part of these financial statements.        I = Inactive Line


      Section: G                Section Name: Other                                                    No Data Flag: YES         Line Attributes: Dollars
                                                                                                                               Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description            NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                in line 2
                Total assets of        Debit
4
                other retirement
                benefit plans
                (SFFAS No. 5, par.
                85)
                Market value of        Debit
5
                investments in
                market-based and
                marketable
                securities included
                in line 4 (SFFAS
                no. 5, par.85)
      Section: O                Section Name: Number of Pension Plans Administrated                    No Data Flag: YES         Line Attributes: Units


Line Status Line Description            NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
         I      Pension plans          N/A
1
                administrated




                                                                                                         - 38 ­
                                                                                                                                                                         11/16/2009 16:31:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                              Fiscal Year: 2009      Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    N/A

 Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                           Answer
1                  Provide the following information as it relates to the future policy benefits for noncancelable
                   and renewable life insurance (other than whole life) (SFFAS No. 5, par. 110, table 9): a
                   description of each component of the liability for future policy benefits, an explanation of its
                   projected use, and any other potential uses.
2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal
                   Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                   how and why the assumptions differ from one of those plans (SFFAS No. 5, par. 67).
3                  Provide the long-term projection of the significant assumptions used in determining pension
                   liability and the related expense (example of assumptions: actuarial, economic, interest rate,
                   and trend).
4                  Provide the long-term projection of the significant assumptions used in determining the
                   postretirement health benefits liability and the related expense (example of assumptions:
                   actuarial, economic, interest rate, and trend).
7                  Provide the sources(s) of the information entered for "Line Item Notes" tab numbers 4, 5,
                   and 6.
8                  Provide the sources(s) for the components of pension expense entered in Section A.
9                  Provide the source(s) for the interest rate entered in Section B.
10                 Provide the source(s) for the components of postretirement expense entered in Section C.
11                 Provide the source(s) for the interest rate entered in Section D.
14                 Provide any other relevant information pertaining to this note.




                                                                                                             - 39 ­
                                                                                                                                                                                  11/16/2009 16:31:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 12           Environmental and Disposal Liabilities                         0                                          Fiscal Year: 2009               Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                           0                                          Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                 Type
Environmental and Disposal Liabilities                                    C        L                                             0
                                                                              Variance:                                          0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2009 - SEPTEMBER          2008 - SEPTEMBER                Previously Rptd        Line Item Changes

9
10
11
12
13
14           Other Environmental
             and Disposal Liabilities
             Total




                                                                                                     - 40 ­
                                                                                                                                                                                         11/16/2009 16:31:51

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

     Note: 12            Environmental and Disposal Liabilities                                                                             Fiscal Year: 2009          Period: SEPTEMBER
    Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:    N/A

    Status: Complete                         The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Other Notes Info.

      Section: A               Section Name: Other Related Information                                        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                       Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2009 - SEPTEMBER                 2008 - SEPTEMBER                    Previously Rptd     Line Item Changes
                Unrecognized         Debit
1
                portion of
                estimated total
                cleanup costs
                associated with
                general property,
                plant, and
                equipment


Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                 Answer
 1                   List the applicable laws and regulations covering cleanup requirements
 2                   Provide a description of the type of environmental and disposal liabilties identified.
 3                   Provide any other relevant information pertaining to this note.




                                                                                                                - 41 ­
                                                                                                                                                                               11/16/2009 16:31:51

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

     Note: 13          Benefits Due and Payable                                     0                                          Fiscal Year: 2009               Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                         0                                          Agency Notes:      N/A

    Status: Complete                    The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                      NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                              Type
Benefits Due and Payable                                               C        L                                             0
                                                                           Variance:                                          0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2009 - SEPTEMBER           2008 - SEPTEMBER                Previously Rptd        Line Item Changes
             Other Entitlement
9
             BenefitsDue and
             Payable
             Total




                                                                                                  - 42 ­
                                                                                                                                                                                             11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 14            Insurance Programs Other Than Veterans Affairs                                                             Fiscal Year: 2009                 Period: SEPTEMBER
    Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                           0                                           Agency Notes:      AMR - Fincl Stmnts Hghlghts, MD&A & Note 2

    Status: Complete                      The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB     Account    2009 - SEPTEMBER      2008 - SEPTEMBER
                                                                                   Type
Insurance Programs                                                        C          L                  83,036                 59,997
                                                                                Variance:                                           0           Rounding Method: Millions               Decimal: Zero
Line Status Line Description           2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd          Line Item Changes
                Single employer
1
                Multiemployer
2
                Other Insurance
6
                Programs
                                                83,035                        59,996                   59,996
7
                                                                                                                                    0
8
             Total                                1                             1                         1                         0

Threshold

 Line Description                                              Question                                                          Answer
                                               83,036                          59,997                           59,997
 Line Item Notes - Single employer (2009 - SEPTEMBER)          Please provide explanations for any amounts that have             Liability interest factors decreased by 149 basis points to 5.17% at
                                                               changed by 10% or more and or greater than 500,000 between             0
                                                                                                                                 September     30, 2009, from 6.66% at September 30, 2008. This decrease in
                                                               the current fiscal year and prior fiscal year. (Unaudited)        PBGC's interest factors resulted in an increase to actuarial charges, due to
                                                                                                                                 change in interest rates, of $10.55 billion. The actuarial charges for passge
                                                                                                                                 of time amounted to $3.92 billion.




                                                                                                     - 43 ­
                                                                                                                                                                                                  11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 14          Insurance Programs Other Than Veterans Affairs                                                                   Fiscal Year: 2009                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       AMR - Fincl Stmnts Hghlghts, MD&A & Note 2

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide a description for the type of insurance programs identified in the "Line Item Notes"     PBGC operates two seperate insurance programs for defined benefit plans. PBGC's
                   tab.                                                                                             single-employer program guarantees payment of basic pension benefits when
                                                                                                                    underfunded plans terminate. The insured event in the single-employer is plan
                                                                                                                    termination. By contrast, in the multiemployer program, the insured event is plan
                                                                                                                    insolvency. PBGC's multiemployer program financially assists insolvent covered plans
                                                                                                                    to pay benefits at the statutorily guaranteed level. By law, the two programs are funded
                                                                                                                    and administered seperately, and their financial conditions, results of operations, and
                                                                                                                    cash flows are reported seperately.

                                                                                                                    PBGC's multiemployer program provides financial assistance through loans to insolvent
                                                                                                                    plans to enable them to pay guaranteed benefits. A multiemployer plan is a pension
                                                                                                                    plan sponsored by two or more unrelated employers who have signed a collective
                                                                                                                    bargaining agreement with one or more unions.

                                                                                                                    The single-employer Present Value of Future Benefits (PVFB) is the estimated liability
                                                                                                                    for future pension benefits that PBGC is or will be obligated to pay the particpants of
                                                                                                                    trusteed plans and the net liability for plans pending termination and trusteeship.

                                                                                                                    Net claims for probable terminations represents PBGC's best estimate of the losses,
                                                                                                                    net of plan assets, and the present value of expected recoveries (from sponsors and
                                                                                                                    members of their controlled group) for plans that are likely to terminate in a future year.
                                                                                                                    These estimated losses are based on conditons that existed as of PBGC's fiscal year­
                                                                                                                    end.
2                  Provide the name, description, and the related amounts of the insurance programs entered
                   on the line titled, "Other insurance programs" in the "Line Item Notes" tab.
3                  Provide any other relevant information pertaining to this note.                                  There is no other relevant information pertaining to this note.




                                                                                                           - 44 ­
                                                                                                                                                                                       11/16/2009 16:31:51

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

     Note: 15             Other Liabilities                                                                                            Fiscal Year: 2009               Period: SEPTEMBER
    Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                               0                                         Agency Notes:      AMR - Note 3,4 & 7

    Status: Complete                            The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                              NB      Account    2009 - SEPTEMBER      2008 - SEPTEMBER
                                                                                        Type
Other Liabilities                                                              C          L                   9,031               16,983
                                                                                     Variance:                                         0           Rounding Method: Millions       Decimal: Zero
Line Status Line Description                  2009 - SEPTEMBER          2008 - SEPTEMBER                Previously Rptd        Line Item Changes
                Deferred revenue
1
                Accrued wages and
2
                benefits
                Other debt
4
                Legal and other                        386
6                                                                                   362                      362
                contingencies                                                                                                          0
                Grant payments due to                  6                             4                         4                       0
7
                State and local
                governments and
                others
                Other employee and
8
                actuarial liabilities
10              D.C. pension liability
11              Custodial liabilities
12              Accrued annual leave
14              Advances and
                prepayments
15              Farm and other
                subsidies
16              Deposit funds                          7                             6                         6                       0
17              Bonneville Power
                Administration Non-
                Federal power projects
                and capital lease
                liabilities and disposal
                liabilities
18              Employer contributions
                and payroll taxes
19
20
21            Other Liabilities
              Total                                                                  1                         1



                                                      8,632                        16,610                   13,604                   3,006
                                                                                    16,983                   13,977                   3,006
                                                      9,031

                                                                                                          - 45 ­
                                                                                                                                                                                                         11/16/2009 16:31:51

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

     Note: 15           Other Liabilities                                                                                                      Fiscal Year: 2009                 Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                                   Agency Notes:       AMR - Note 3,4 & 7

 Status: Complete                           The accompanying notes are an integral part of these financial statements.                      I = Inactive Line



Threshold

Line Description                                                  Question                                                                  Answer
Line Item Notes - Accrued wages and benefits (2009 ­              Please provide explanations for any amounts that have                     This change is due to an increase in accrued wages and benefits.
SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Accrued annual leave (2009 ­                    Please provide explanations for any amounts that have                     This change is due to an increase in accrued annual leave.
SEPTEMBER)                                                        changed by 10% or more and or greater than $500,000
                                                                  between the current fiscal year and prior fiscal year. (unaudited)
Line Item Notes - Other Liabilities (2009 - SEPTEMBER)            Please enter a description for any amounts over $50 million.              Of the total $7,978 million decrease in Other Liabilities from FY 2008 to FY
                                                                                                                                            2009, Derivative contracts decreased by $5,324 million, a decrease of
                                                                                                                                            $1,675 million for Due for purchases of securities, a decrease of $1,265
                                                                                                                                            million for Payable upon return of securities loaned, a decrease of $242
                                                                                                                                            million (new item on PBGC's balance sheet) to Securities sold under
                                                                                                                                            repurchase agreements, partially offset by an increase of $528 million to
                                                                                                                                            Present value of nonrecoverable future financial assisstance.
Tab: Text Data
 Line               Question                                                                                                 Answer
 1                  Provide more details on the liabilities reported on the "Line Item Notes" tab for each line 1            Line 1, Deferred revenue is attributable to unearned revenue premium for both the
                    through 21 by including a description of the significant related amounts and providing the               single-employer and multiemployer programs - which can be located on the balance
                    page number of the agency's financial report where the amount is identified.                             sheet under Unearned premiums.

                                                                                                                             Line 21, Other liabilities consists of Present value of nonrecoverable future financial
                                                                                                                             assistance, Derivative contracts, Due for purchases of securities, Payable upon return
                                                                                                                             of securities loaned and Securities sold under repurchase agreements - which all can
                                                                                                                             be located on the balance sheet.

 2                  Provide a description and related amounts for balances that exceed $50 million on the line               The items and amounts that consists of Other Liabilities are: Present value of
                    titled, "Other liabilities," and provide the page number of the agency's financial report where          nonrecoverable future financial assistance ($2,296 million), Derivative contracts ($3,014
                    the amount is identified.                                                                                million), Due for purchases of securities ($172 million), Payable upon return of
                                                                                                                             securities loaned ($2,507 million) and Securities sold under repurchase agreements
                                                                                                                             ($643 million).
 3                  Provide any other relevant information pertaining to this note.                                          There is no other relevant information pertaining to this note.




                                                                                                              - 46 ­
                                                                                                                                                                                  11/16/2009 16:31:51

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 17             Prior-Period Adjustments                                                                                   Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    N/A

    Status: Complete                            The accompanying notes are an integral part of these financial statements.        I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Non- Federal Prior Period Adjustments (Not                 No Data Flag: YES         Line Attributes: Dollars
                                             Restated)                                                                          Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description            NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                Amounts that           Credit
1
                adjusted beginning
                net position - for
                change in
                accounting
                principles
                Amounts that           Credit
2
                adjusted beginning
                net position - for
                correction of errors
       Section: B              Section Name: Restated Prior-Period Adjustments - Corrections of         No Data Flag: YES         Line Attributes: Dollars
                                             Errors for the Prior Year                                                          Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description            NB            Credit Amount C               Debit Amount D
                                        N/A
1
                                        N/A
2
                                        N/A
3
                                        N/A
4
                                        N/A
5
                                        N/A
6
                                        N/A
7
                                        N/A
8
                                        N/A
9
10                                      N/A




                                                                                                          - 47 ­
                                                                                                                                                                       11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 17          Prior-Period Adjustments                                                                                  Fiscal Year: 2009      Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:    N/A

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                         Answer
1                  Describe the adjustments to current year or prior-year beginning net position that resulted
                   from changes in accounting principles.
2                  Describe the adjustments to the prior-year beginning net position that resulted from
                   correcting errors that occurred in years preceding the prior year.
3                  Describe the restatements to the prior-year that resulted from correcting errors that occurred
                   in the prior year.
4                  Describe any Federal prior-period adjustments.
5                  Provide any other relevant information pertaining to this note. This would include information
                   related to any immaterial errors that occurred in the prior period(s) that were corrected
                   against the current year.




                                                                                                           - 48 ­
                                                                                                                                                                                      11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 18            Contingencies (SFFAS Nos. 5 and 12)                                                                        Fiscal Year: 2009             Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AMR - Notes 2, 9 & 16

    Status: Complete                          The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Insurance Contingencies (Reasonably Possible Only)                                  Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                PBGC Defined         Credit
1
                Pension Plan
                (Single-employer)
                PBGC Defined         Credit
2                                                     167,864
                Pension Plan                                                      46,732                     46,732
                (Multi-employer)                                                                                                      0
                                     Credit
4
                                     Credit             326
5                                                                                   30                           30                   0
                                     Credit
6
                                     Credit
7
                                     Credit
8
                Other insurance      Credit
9
                contingencies
10              Total                 N/A
       Section: B         Section Name: Insurance in force (Sum of Policy Face Value and              No Data Flag: YES         Line Attributes: Dollars
                                        Dividends Paid)                                                                       Rounding Method: User-Defined                  Decimal: User-Defined
                                             -168,190
Line Status Line Description     NB    2009 - SEPTEMBER               2008-46,762
                                                                            - SEPTEMBER                     -46,762
                                                                                                            Previously Rptd    Line Item Changes
                                     Credit                                                                                           0
3
                                     Credit
4
                                     Credit
5
                                     Credit
6
                                     Credit
7
                Other insurance in   Credit
8
                force
                Total                 N/A
9




                                                                                                        - 49 ­
                                                                                                                                                                                         11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                        Fiscal Year: 2009              Period: SEPTEMBER
    Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:     AMR - Notes 2, 9 & 16

    Status: Complete                          The accompanying notes are an integral part of these financial statements.           I = Inactive Line


      Section: C               Section Name: Civil Litigation, Claims and Assessments                                             Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB        CYAccrued/Estimated      CY Estimated Range(Low           CY Estimated Range CY Claim amount(Unable           PYAccrued/Estimated PY Estimated Range(Low
                                                          amount                          end)                   (High end)      to determine loss)          amount rued/Estimated                 end)
                                                                                                                                                                         amount
                Probable             Credit
1
                Reasonably           Credit
2
                Possible
Line Status Line Description           NB        PY Estimated Range        PY Claim amunt (unable
                                                         (High end)                to determine)
                Probable             Credit                                         68                                                                                                      104
1
                Reasonably           Credit
2
                Possible
      Section: D               Section Name: Environmental Litigation, Claims, and Assessments        No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                   Decimal: User-Defined
Line Status Line Description          NB        CYAccrued/Estimated           CY Estimated Range          CY Estimated Range   CY Claim amunt(unable         PY Accrued/Estimated      PY Estimated Range
                                                          amount                      (Low end)                  (High end)            to determine)                    amount                 (Low end)
                Probable             Credit
1
                Reasonably           Credit
2
                Possible
Line Status Line Description           NB        PY Estimated Range      PY Claim amount (unable
                                                      (High Range)                 to determine)
                Probable             Credit
1
                Reasonably           Credit
2
                Possible
      Section: E               Section Name: Other Contingencies                                      No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                   Decimal: User-Defined
Line Status Line Description          NB               CY Probable        CY Reasonably Possible                 PY Probable   PY Reasonably Possible

                                     Credit
3
                                     Credit
4
                                     Credit
5




                                                                                                        - 50 ­
                                                                                                                                                                                 11/16/2009 16:31:51

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                     Fiscal Year: 2009             Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    AMR - Notes 2, 9 & 16

    Status: Complete                      The accompanying notes are an integral part of these financial statements.        I = Inactive Line


      Section: F           Section Name: Other Contingencies                                      No Data Flag: YES         Line Attributes: Dollars
                                                                                                                          Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description      NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
         I                       Credit
3
         I                       Credit
4
         I                       Credit
5




                                                                                                    - 51 ­
                                                                                                                                                                                                    11/16/2009 16:31:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                               Fiscal Year: 2009                   Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:        AMR - Notes 2, 9 & 16

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Describe the risk insurance programs that are in force.                                           Title IV of ERISA requires PBGC to provide mandatory insurance for defined benefit
                                                                                                                     pension plans. PBGC operates two - programs one for the single-employer (SE)
                                                                                                                     defined benefit plans and the other for multiemployer (ME) defined benfit pension plans.
                                                                                                                     When a SE plan terminates and does not have enough assets to pay Title IV benefits to
                                                                                                                     the particpants, PBGC trustees the plan and pay benefits (up to the guaranteed limit) to
                                                                                                                     the particpants. PBGC does not trustee ME plans but provides financial assistance to
                                                                                                                     the plan when it becomes insolvent (there are not enough assets to pay guaranteed
                                                                                                                     level of benefits to the particpants).
                                                                                                                     Insurance contingencies are the estimated aggregate underfunded vested benefits
                                                                                                                     exposure to PBGC whose SE plans are classified as reasonably possible of
                                                                                                                     termination. This amount as of September 30, 2009 was $168 billion.

                                                                                                                     In order for a plan sponsor to be specifically classified as reasonable possible, it must
                                                                                                                     first have $5 million or more of underfunding, as well as meet addtional criteria. Criteria
                                                                                                                     used for classfying a company as reasonably possible include, but not limited to, one or
                                                                                                                     more of the following condtions: the plan sponsor is in Chapter 11 reorganization;
                                                                                                                     funding waiver pending or outstanding with the Internal Revenue Service; sponsor
                                                                                                                     missed minimum funding contribution; sponsor's bond rating is below-investment­
                                                                                                                     grade for Standard & Poor's (BB+) or Moody's (Ba1); sponsor has no bond rating but
                                                                                                                     the ratio of long-term debt plus unfunded benefit liability to market value of shares is
                                                                                                                     1.5 or greater (See PBGC Note 9).

                                                                                                                     In addition, PBGC estimates that as of September 30, 2009, it is reasonably possible
                                                                                                                     that the multiemployer program may require future financial assistance in the amount of
                                                                                                                     $326 million.

2                  Provide the nature of the isurance contingencies.
3                  Provide the nature of the litigation contingencies, including the range of loss for probable
                   liabilities.
4                  Provide the nature of the litigation contingencies including the range of loss for reasonably     A union representing participants of a plan has filed a law suit in federal district court
                   possible contingencies.                                                                           against PBGC. They are challenging a PBGC Appeals Board decision denying
                                                                                                                     participant shutdown benefits. An estimate of potential loss is $68 million.

                                                                                                                     In addtion, there are two reasonably possible civil litigation cases, whereas no estimate
                                                                                                                     of the amount or range of potential loss can be made with any degree of certainty.
5                  Provide the total claim amount for cases assessed as "unable to determine" if significant.
                   Also, provide a statement on whether this materiality affects the financial statements.
6                  Describe the other claims that may derive from treaties or international agreements.
7                  Provide any other relevant information pertaining to this note.                                   There is no other relevant information pertaining to this note.




                                                                                                            - 52 ­
                                                                                                                                                                                              11/16/2009 16:31:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                   Fiscal Year: 2009               Period: SEPTEMBER
    Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:     AMR - Note 10

    Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

      Section: A                Section Name: Capital leases-Asset                                        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                    Decimal: User-Defined
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal       PY Non-Federal
                Building               Debit
1
                Land                   Debit
2
                Equipment              Debit
3
                Software license       Debit
4
                Other                  Debit
5
                Accumulated            Credit
6
                depreciation/amorti
                zation
                Net assets under        N/A
7
                capital leases
      Section: B                Section Name: Capital leases - Liability                                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                    Decimal: User-Defined
Line Status Line Description            NB                 CY Federal              CY Non-Federal                     PY Federal       PY Non-Federal
                Future minimum         Credit
1
                lease programs
                Imputed interest       Debit
2
                Executory costs        Debit
3
                including any profit
                Total capital lease     N/A
4
                liability


      Section: C                Section Name: Commitments: Operating leases and undelivered                                          Line Attributes: Dollars
                                              orders                                                                               Rounding Method: Millions                        Decimal: Zero
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal      PY Non-Federal
                Operating leases       Credit
1
                Undelivered orders     Credit
2
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Undelivered orders (CY Non-Federal)                               190
                                                                    Please provide explanations  for any amounts that have               205experienced an increase in contractual services from FY 2008 to FY
                                                                                                                                      PBGC
                                                                    changed by 10% or116
                                                                                       more and or greater than $500,000              2009.
                                                           28                                                          26                 60
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (unaudited)



                                                                                                             - 53 ­
                                                                                                                                                                                                      11/16/2009 16:31:51

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                         Fiscal Year: 2009                Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:      AMR - Note 10

  Status: Complete                              The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: D                Section Name: Other Commitments                                            No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                        Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description            NB                CY Federal                CY Non-Federal                      PY Federal          PY Non-Federal
10                                     Credit
11                                     Credit
12                                     Credit
13                                     Credit
14                                     Credit
15              Total                   N/A


Tab: Text Data
 Line                   Question                                                                                             Answer
 1                      Describe the lessee's leasing arrangements including the basis on which contingent rental            PBGC leases its office facility under a commitment that began on January 1, 2005, and
                        payments are determined, the existence and terms of renewal or purchase options,                     expires December 10, 2018. This lease provides for periodic rate increases based on
                        escalation clauses and restrictions imposed by lease agreement.                                      increases in operating costs and real estate taxes over a base amount. In addtion,
                                                                                                                             PBGC is leasing space for field benefit administrators. These leases began in 1996 and
                                                                                                                             expire in 2013.
 2                      Provide any other relevant information pertaining to this note. (Reference the Note in the
                        agency's Performance and Accountability Report.)




                                                                                                               - 54 ­
                                                                                                                                                                                          11/16/2009 16:31:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 20          Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                 Fiscal Year: 2009           Period: SEPTEMBER
                       Funds)
                                                                                                                                          Agency Notes:     N/A
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION
                                                                                                                                       I = Inactive Line
    Status: Complete                     The accompanying notes are an integral part of these financial statements.

Tab: Other Notes Info.

      Section: A            Section Name: Assets - Current Year                                    No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description       NB            Inv. in Fed debt            Fund balance with        Interest receivable D           Other Fed assets D      Non-Federal assets D             Total assets
                                              securities - net D                  Treasury D
         I                         N/A
1
         I                         N/A
2
         I                         N/A
3
         I                         N/A
4
         I                         N/A
5


      Section: B            Section Name: Assets - Prior year                                      No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description       NB     Inv. in Fed Debt Sec. ­            Fund balance with        Interest receivable D        Other Federal assets D     Non-Federal assets D             Total assets
                                                           net D                  Treasury D
                                   N/A
1
                                   N/A
2
                                   N/A
3
                                   N/A
4
                                   N/A
5


      Section: C            Section Name: Liabilities - Current Year                               No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description       NB           Liability due and            Other liabilities C               Total liabilities
                                                       payable to
                                                beneficiaries C
         I                         N/A
1
         I                         N/A
2
         I                         N/A
3
         I                         N/A
4
         I                         N/A
5




                                                                                                      - 55 ­
                                                                                                                                                                                           11/16/2009 16:31:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 20          Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                 Fiscal Year: 2009             Period: SEPTEMBER
                       Funds)
                                                                                                                                          Agency Notes:    N/A
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION
                                                                                                                                       I = Inactive Line
    Status: Complete                     The accompanying notes are an integral part of these financial statements.


      Section: D            Section Name: Liabilities - Prior Year                                 No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description       NB            Liability due and           Other liabilities C               Total liabilities
                                                        payable to
                                                 beneficiaries C
                                   N/A
1
                                   N/A
2
                                   N/A
3
                                   N/A
4
                                   N/A
5

      Section: E            Section Name: Current Year - Revenue, financing, expenses, and         No Data Flag: YES                  Line Attributes: Dollars
                                          other                                                                                     Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description       NB     Beginning net position           Exchange revenue ­      Exchange revenue - with         Nonexchange revenue ­      Nonexchange revenue ­    Other financing sources
                                                                                   Federal C                  the public C                    Federal C            with the public C                         C
                                                               C
         I                         N/A
1
         I                         N/A
2
         I                         N/A
3
         I                         N/A
4
         I                         N/A
5
Line Status Line Description       NB      Other changes in fund         Program expenses D              Other expenses D            Ending Net Position
                                                     balance C
         I                         N/A
1
         I                         N/A
2
         I                         N/A
3
         I                         N/A
4
         I                         N/A
5




                                                                                                      - 56 ­
                                                                                                                                                                                      11/16/2009 16:31:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 20          Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked            Fiscal Year: 2009             Period: SEPTEMBER
                       Funds)
                                                                                                                                     Agency Notes:    N/A
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION
                                                                                                                                  I = Inactive Line
    Status: Complete                     The accompanying notes are an integral part of these financial statements.


      Section: F            Section Name: Prior Year - Revenue, financing, expenses, and           No Data Flag: YES             Line Attributes: Dollars
                                          other                                                                                Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description       NB     Beginning net position           Exchange revenue ­     Exchange revenue - with     Nonexchange revenue ­      Nonexchange revenue ­    Other financing sources
                                                                                   Federal C                 the public C                Federal C            with the public C                         C
                                                               C
                                   N/A
1
                                   N/A
2
                                   N/A
3
                                   N/A
4
                                   N/A
5
Line Status Line Description       NB      Other changes in fund         Program expenses D              Other expenses D       Ending net position
                                                     balance C
                                   N/A
1
                                   N/A
2
                                   N/A
3
                                   N/A
4
                                   N/A
5
      Section: G            Section Name: Other                                                    No Data Flag: YES             Line Attributes: Dollars
                                                                                                                               Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description       NB          PY - Revenues C            PY - Other financing                 PY - Costs D
                                                                                   sources C
                                   N/A
1
                                   N/A
2
                                   N/A
3
                                   N/A
4
                                   N/A
5




                                                                                                      - 57 ­
                                                                                                                                                                                                 11/16/2009 16:31:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 20           Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                     Fiscal Year: 2009             Period: SEPTEMBER
                        Funds)
                                                                                                                                               Agency Notes:    N/A
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION
                                                                                                                                            I = Inactive Line
    Status: Complete                        The accompanying notes are an integral part of these financial statements.


       Section: H            Section Name: Other                                                            No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                          Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description         NB           CY - Revenues C                CY - Other financing                      CY - Costs D      PY - Revenues C          PY - Other financing           PY - Costs D
                                                                                          sources C                                                                            sources C
          I                          N/A
1
          I                          N/A
2
          I                          N/A
3
          I                          N/A
4
          I                          N/A
5


Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                                     Answer
 1                  State the legal authority for the administrative entity of each fund to use the collections
                    based on SFFAS No. 7, par. 85.
 2                  Provide any other relevant information pertaining to this note.




                                                                                                                  - 58 ­
                                                                                                                                                                                        11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury

                                                                                     Financial Management Service

                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

      Note: 22            Earmarked Funds                                                                                              Fiscal Year: 2009            Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

     Status: Complete                        The accompanying notes are an integral part of these financial statements.             I = Inactive Line

 Tab: Other Notes Info.

       Section: A              Section Name: Assets - Current Year                                   No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB           Cash and other             Fund balance with           Inv in U. S. Treas.   Interest Receivable D Other Federal assets (with      Other Federal assets
                                                 monetary assets D                  Treasury D       Sec.(net of prem. & disc)                              earmarked funds) D        (with non-earmarked
                                                                                                                            D                                                                    funds) D
                                       N/A
21
                                       N/A
22
                                       N/A
23
                                       N/A
24
                                       N/A
25
                 All other earmarked   N/A
26
                 funds
                 Intra-agency          N/A
27
                 earmarked funds
                 elimination
                 amounts
                 Total                 N/A
28
Line Status Line Description           NB         Other non-Federal                 Total assets
                                                          assets D
                                       N/A
21
                                       N/A
22
                                       N/A
23
                                       N/A
24
                                       N/A
25
                 All other earmarked   N/A
26
                 funds
                 Intra-agency          N/A
27
                 earmarked funds
                 elimination
                 amounts
                 Total                 N/A
28




                                                                                                        - 59 ­
                                                                                                                                                                                         11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury

                                                                                     Financial Management Service

                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

      Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2009            Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A

     Status: Complete                        The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: B              Section Name: Assets - Prior Year                                     No Data Flag: YES              Line Attributes: Dollars
                                                                                                                                  Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB           Cash and other             Fund balance with       Inv. in U.S. Treas. Sec.   Interest Receivable D Other Federal assets (with      Other Federal assets
                                                 monetary assets D                  Treasury D       (net of prem. & disc.) D                                earmarked funds) D        (with non-earmarked
                                                                                                                                                                                                  funds) D
                                       N/A
21
                                       N/A
22
                                       N/A
23
                                       N/A
24
                                       N/A
25
                 All other earmarked   N/A
26
                 funds
                 Intra-agency          N/A
27
                 earmarked funds
                 elimination
                 amounts
                 Total                 N/A
28
Line Status Line Description           NB         Other non-Federal                 Total assets
                                                          assets D
                                       N/A
21
                                       N/A
22
                                       N/A
23
                                       N/A
24
                                       N/A
25
                 All other earmarked   N/A
26
                 funds
                 Intra-agency          N/A
27
                 earmarked funds
                 elimination
                 amounts
                 Total                 N/A
28




                                                                                                       - 60 ­
                                                                                                                                                                                                11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                Fiscal Year: 2009             Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:       N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: C             Section Name: Liabilities and Net Position - Current Year              No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description          NB           Benefits due and       Other Federal liabilities Other Fed. liabilities (with      Other non-Federal            Total liabilities        Ending net position C
                                                        payable C         (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                  C
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A

Line Status Line Description          NB     Total liabilities and net
                                                            position
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A




                                                                                                         - 61 ­
                                                                                                                                                                                                 11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                 Fiscal Year: 2009             Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line


       Section: D             Section Name: Liabilities and Net Position - Prior Year                 No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description          NB           Benefits due and        Other Federal liabilities Other Fed. liabilities (with      Other non-Federal            Total liabilities        Ending net position C
                                                        payable C          (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                   C
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A

Line Status Line Description          NB     Total liabilities and net
                                                            position
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A




                                                                                                          - 62 ­
                                                                                                                                                                                     11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury

                                                                                     Financial Management Service

                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

      Note: 22            Earmarked Funds                                                                                           Fiscal Year: 2009             Period: SEPTEMBER
      Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:      N/A

     Status: Complete	                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line


        Section: E             Section Name:	 Revenue, Financing, Expenses, and Other - Current      No Data Flag: YES          Line Attributes: Dollars

                                              Year
                                                                           Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description           NB              Net position,     Prior-period adjustment      Investment revenue C   Individual income taxes Unemployment and excise    Other taxes and receipts
                                              beginning of period C                            C                             and payroll tax withhold               taxes C                           C
                                                                                                                                                   C
                                       N/A
21	
                                       N/A
22	
                                       N/A
23	
                                       N/A
24	
                                       N/A
25	
                 All other earmarked   N/A
26
                 funds
                 Intra-agency          N/A
27
                 earmarked funds
                 elimination
                 amounts
                 Total                 N/A
28
Line Status Line Description           NB      Miscellaneous earned            Intragovernmental Program net cost - public        Program net cost -     Non-program expenses       Net position, end of
                                                         revenue C               transfers, net C                              Intragovernmental D                          D                   period
                                                                                                                       D
                                       N/A
21	
                                       N/A
22	
                                       N/A
23	
                                       N/A
24	
                                       N/A
25
                 All other earmarked   N/A
26
                 funds
                 Intra-agency          N/A
27
                 earmarked funds
                 elimination
                 amounts
                 Total                 N/A
28




                                                                                                       - 63 ­
                                                                                                                                                                                     11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury

                                                                                     Financial Management Service

                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

      Note: 22            Earmarked Funds                                                                                           Fiscal Year: 2009             Period: SEPTEMBER
      Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:      N/A

     Status: Complete	                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line


        Section: F             Section Name:	 Revenue, Financing, Expenses, and Other - Prior        No Data Flag: YES          Line Attributes: Dollars

                                              Year
                                                                           Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description           NB              Net position,     Prior-period adjustment      Investment revenue C   Individual income taxes Unemployment and excise    Other taxes and receipts
                                              beginning of period C                            C                             and payroll tax withhold               taxes C                           C
                                                                                                                                                   C
                                       N/A
21	
                                       N/A
22	
                                       N/A
23	
                                       N/A
24	
                                       N/A
25	
                 All other earmarked   N/A
26
                 funds
                 Intra-agency          N/A
27
                 earmarked funds
                 elimination
                 amounts
                 Total                 N/A
28
Line Status Line Description           NB      Miscellaneous earned            Intragovernmental Program net cost - public        Program net cost -     Non-program expenses       Net position, end of
                                                         revenue C               transfers, net C                              Intragovernmental D                          D                   period
                                                                                                                       D
                                       N/A
21	
                                       N/A
22	
                                       N/A
23	
                                       N/A
24	
                                       N/A
25
                 All other earmarked   N/A
26
                 funds
                 Intra-agency          N/A
27
                 earmarked funds
                 elimination
                 amounts
                 Total                 N/A
28




                                                                                                       - 64 ­
                                                                                                                                                                                 11/16/2009 16:31:51

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                  Fiscal Year: 2009      Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

    Status: Complete                        The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: G             Section Name: Number of Agency Earmarked Funds                                No Data Flag: YES         Line Attributes: Units


Line Status Line Description          NB       2009 - SEPTEMBER                 2008 - SEPTEMBER                   Previously Rptd    Line Item Changes
                Total number of       N/A
1
                earmarked funds




Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                Answer
 1                   Provide a general description of the individual earmarked funds reported in the Other Notes
                     Info tab (SFFAS No. 27, par. 33). Also describe how the entity accounts for and reports the
                     fund (SFFAS No. 27, par. 23.1).
 2                   State the legal authority for the administrative entity of each fund to use the revenues and
                     other financing sources based on SFFAS No. 27, par. 23.1
 3                   Explain any changes in legislation during or subsequent to the reporting period and before
                     the issuance of the financial statements that significantly changes the purpose of the fund or
                     that redirects a material portion of the accumulated balance (SFFAS No. 27, par. 23.3).
 4                   Provide the sources of revenue and other financing for amounts reported in columns 3
                     through 8 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2).
 5                   Provide any other relevant information pertaining to this note, including explanation for prior-
                     period adjustments, if any.




                                                                                                               - 65 ­
                                                                                                                                                                             11/16/2009 16:31:51

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 25             Stewardship Land                                                                                           Fiscal Year: 2009       Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:     N/A

    Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: A              Section Name: Stewardship Land (SFFAS No. 29, par. 40d)­                  No Data Flag: YES        Line Attributes: Units
                                             Unaudited
Line Status Line Description          NB        Beginning Balance                         Acquired                   Withdrawn      Ending Balance
                Public Land           N/A
1
                National Forest       N/A
2
                System
                National Wildlife     N/A
3
                Refuge System
                National Park         N/A
4
                System
                Mission land          N/A
5
            Water, power, and         N/A
6
            recreation
            All other                 N/A
7
Tab: Text Data                          No Data Flag: YES
 Line                 Question                                                                                           Answer
 1                    Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
 2                    Provide the condition of the stewardship land (SFFAS 29, par. 41).
 3                    Provide a brief statement explainng how the stewardship land relates to the mission of the
                      agency (SFFAS No. 29, par. 40a).
 4                    Provide a brief description of the agency's stewardship policies for stewardsip land (SFFAS
                      No. 29, par. 40b).
 5                    Provide any other information relevant information pertaining to this note.




                                                                                                            - 66 ­
                                                                                                                                                                                11/16/2009 16:31:51

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 26          Heritage Assets                                                                                        Fiscal Year: 2009             Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                   Agency Notes:     N/A

    Status: Complete                     The accompanying notes are an integral part of these financial statements.        I = Inactive Line


      Section: A           Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.     No Data Flag: YES         Line Attributes: Units
                                         25d) - Unaudited
Line Status Line Description       NB     CY Physical units as of    CY Physical units added           CY Physical units   CY Physical units-           PY Physical units   PY Physical units added
                                            the beginning of the                                           withdrawn        ending balance            beginning balance
                                                          year
                                   N/A
1
                                   N/A
2
                                   N/A
3
                                   N/A
4
                                   N/A
5
Line Status Line Description       NB          PY Physical units    PY Physical units-ending
                                                   withdrawn                       balance
                                   N/A
1
                                   N/A
2
                                   N/A
3
                                   N/A
4
                                   N/A
5
      Section: B           Section Name: Non-Collection Type Heritage Assets (SFFAS No.          No Data Flag: YES         Line Attributes: Units
                                         29, par. 25d) - Unaudited
Line Status Line Description       NB         CY Physical units      CY Physical units added           CY Physical units   CY Physical units-           PY Physical units   PY Physical units added
                                            beginning balance                                              withdrawn        ending balance            beginning balance
                                   N/A
1
                                   N/A
2
                                   N/A
3
                                   N/A
4
                                   N/A
5
Line Status Line Description       NB          PY Physical units    PY Physical units-ending
                                                   withdrawn                       balance
                                   N/A
1
                                   N/A
2
                                   N/A
3
                                   N/A
4
                                   N/A
5




                                                                                                   - 67 ­
                                                                                                                                                                     11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 26          Heritage Assets                                                                                         Fiscal Year: 2009      Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    N/A

 Status: Complete                        The accompanying notes are an integral part of these financial statements.        I = Inactive Line

Tab: Text Data                       No Data Flag: YES
Line               Question                                                                                       Answer
1                  Provide a brief statement explaining how heritage assets relate to the mission of the agency
                   (SFFAS No. 29, par. 25a).
2                  Provide a brief description of the agency's stewardship policies for each major category of
                   the heritage assets (SFFAS No. 29, par. 25b).
3                  Provide a brief description of the condition of each category of the heritage assets (SFFAS
                   29, par. 26).
4                  Provide any other relevant information pertaining to this note.




                                                                                                         - 68 ­
                                                                                                                                                                                        11/16/2009 16:31:51

                                                                                       U.S. Department of the Treasury

                                                                                        Financial Management Service

                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

      Note: 27           Fiduciary Activities                                                                                           Fiscal Year: 2009            Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:    N/A

     Status: Complete	                          The accompanying notes are an integral part of these financial statements.           I = Inactive Line

 Tab: Other Notes Info.

       Section: A             Section Name:	 Schedule of Fiduciary Net Assets - Deposit Funds -         No Data Flag: YES           Line Attributes: Dollars

                                             Current Year
                                                                        Rounding Method: Millions	                    Decimal: Zero
Line Status Line Description           NB           Fid Inv in Fed Debt      Fid FBWT (USSGL 1010        Int Rec on Fid Fed Debt Inv in Non-Fed Debt Sec Cash and cash equivalents         Other assets D
                                                   Sec-net of prem and                    only) D                         Sec D    (and related int rec) D
                                                                                                                                                                               D
                                                          discounts D
                                      N/A
1
                                      N/A
2
                                      N/A
3
                                      N/A
4
                                      N/A
5
                                      N/A
6
                                      N/A
7
                                      N/A
8
                                      N/A
9
                                      N/A
10
                                      N/A
11
                                      N/A
12
                                      N/A
13
                                      N/A
14
                                      N/A
15




                                                                                                          - 69 ­
                                                                                                                                                                                              11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                               Fiscal Year: 2009               Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:    N/A

    Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: A           Section Name: Schedule of Fiduciary Net Assets - Deposit Funds ­          No Data Flag: YES               Line Attributes: Dollars
                                          Current Year                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description         NB              Liability due and          Other liabilities C   Total fiduciary net assets
                                                            payable to
                                                     beneficiaries C
                                    N/A
1
                                    N/A
2
                                    N/A
3
                                    N/A
4
                                    N/A
5
                                    N/A
6
                                    N/A
7
                                    N/A
8
                                    N/A
9
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
       Section: B           Section Name: Schedule of Fiduciary Activity - Deposit Funds ­            No Data Flag: YES               Line Attributes: Dollars
                                          Current Year                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description         NB             Beginning fid net      Fiduciary contributions      Fiduciary revenues C       Investment earnings C      Gain (loss) on disposition   All other inflows to net
                                                      assets bal. D                              C                                                               of investments, net C                   assets C
                                    N/A
1
                                    N/A
2
                                    N/A
3
                                    N/A
4
                                    N/A
5
                                    N/A
6
                                    N/A
7
                                    N/A
8
                                    N/A
9
10                                  N/A
11                                  N/A
12                                  N/A


                                                                                                         - 70 ­
                                                                                                                                                                                              11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                             Fiscal Year: 2009                 Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:      N/A

    Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: B           Section Name: Schedule of Fiduciary Activity - Deposit Funds ­            No Data Flag: YES             Line Attributes: Dollars
                                          Current Year                                                                            Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB             Beginning fid net      Fiduciary contributions      Fiduciary revenues C     Investment earnings C        Gain (loss) on disposition   All other inflows to net
                                                      assets bal. D                              C                                                               of investments, net C                   assets C
13                                  N/A
14                                  N/A
15                                  N/A

Line Status Line Description         NB        Disbursements to and       Administrative and other     All other outflows from      Ending fiduciary net
                                                        on behalf of                  expenses D                 net assets D              assets bal.
                                                    beneficiaries D
                                    N/A
1
                                    N/A
2
                                    N/A
3
                                    N/A
4
                                    N/A
5
                                    N/A
6
                                    N/A
7
                                    N/A
8
                                    N/A
9
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
       Section: C           Section Name: Schedule of Changes in Non-Valued Fiduciary Asset           No Data Flag: YES              Line Attributes: Units
                                          - Deposit Funds - Current Year
Line Status Line Description         NB        Beginning quantity of        Additions to quantity           Subtractions from    Ending quantity of non-
                                               non-valued fid assets                                                quantity          valued fid assets

                                    N/A
1
                                    N/A
2
                                    N/A
3
                                    N/A
4
                                    N/A
5
                                    N/A
6


                                                                                                        - 71 ­
                                                                                                                                                                                      11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                            Fiscal Year: 2009           Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:      N/A

    Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: C           Section Name: Schedule of Changes in Non-Valued Fiduciary Asset           No Data Flag: YES             Line Attributes: Units
                                          - Deposit Funds - Current Year
Line Status Line Description         NB        Beginning quantity of        Additions to quantity           Subtractions from   Ending quantity of non-
                                               non-valued fid assets                                                quantity         valued fid assets

                                    N/A
7
                                    N/A
8
                                    N/A
9
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
       Section: D           Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES            Line Attributes: Dollars
                                          Funds - Current Year                                                                   Rounding Method: Millions                    Decimal: Zero
Line Status Line Description         NB           Fid Inv in Fed Debt      Fid FBWT (USSGL 1010        Int Rec on Fid Fed Debt Inv in Non-Fed Debt Sec Cash and cash equivalents         Other assets D
                                                 Sec-net of prem and                    only) D                         Sec D    (and related int rec) D
                                                                                                                                                                             D
                                                        discounts D
                                    N/A
1
                                    N/A
2
                                    N/A
3
                                    N/A
4
                                    N/A
5
                                    N/A
6
                                    N/A
7
                                    N/A
8
                                    N/A
9
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A




                                                                                                        - 72 ­
                                                                                                                                                                                              11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                               Fiscal Year: 2009               Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:    N/A

    Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: D           Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                          Funds - Current Year                                                                      Rounding Method: Millions                         Decimal: Zero
Line Status Line Description         NB              Liability due and          Other liabilities C   Total fiduciary net assets
                                                            payable to
                                                     beneficiaries C
                                    N/A
1
                                    N/A
2
                                    N/A
3
                                    N/A
4
                                    N/A
5
                                    N/A
6
                                    N/A
7
                                    N/A
8
                                    N/A
9
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
       Section: E           Section Name: Schedule of Fiduciary Activity - All Other Agency           No Data Flag: YES               Line Attributes: Dollars
                                          Funds - Current Year                                                                      Rounding Method: Millions                         Decimal: Zero
Line Status Line Description         NB             Beginning fid net      Fiduciary contributions      Fiduciary revenues C       Investment earnings C      Gain (loss) on disposition   All other inflows to net
                                                      assets bal. D                              C                                                               of investments, net C                   assets C
                                    N/A
1
                                    N/A
2
                                    N/A
3
                                    N/A
4
                                    N/A
5
                                    N/A
6
                                    N/A
7
                                    N/A
8
                                    N/A
9
10                                  N/A
11                                  N/A
12                                  N/A


                                                                                                         - 73 ­
                                                                                                                                                                                              11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                              Fiscal Year: 2009                Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                              Agency Notes:       N/A

    Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: E           Section Name: Schedule of Fiduciary Activity - All Other Agency           No Data Flag: YES             Line Attributes: Dollars
                                          Funds - Current Year                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB             Beginning fid net      Fiduciary contributions      Fiduciary revenues C     Investment earnings C        Gain (loss) on disposition   All other inflows to net
                                                      assets bal. D                              C                                                               of investments, net C                   assets C
13                                  N/A
14                                  N/A
15                                  N/A

Line Status Line Description         NB        Disbursements to and       Administrative and other     All other outflows from   Ending fid net asset bal.
                                                        on behalf of                  expenses D                 net assets D
                                                    beneficiaries D
                                    N/A
1
                                    N/A
2
                                    N/A
3
                                    N/A
4
                                    N/A
5
                                    N/A
6
                                    N/A
7
                                    N/A
8
                                    N/A
9
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
       Section: F           Section Name: Schedule of Changes in Non-Valued Fiduciary                 No Data Flag: YES              Line Attributes: Units
                                          Assets - All Other Agency Funds - Current Year
Line Status Line Description         NB        Beginning quantity of        Additions to quantity           Subtractions from    Ending quantity of non-
                                               non-valued fid assets                                                quantity          valued fid assets

                                    N/A
1
                                    N/A
2
                                    N/A
3
                                    N/A
4
                                    N/A
5
                                    N/A
6


                                                                                                        - 74 ­
                                                                                                                                                                                11/16/2009 16:31:51

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                            Fiscal Year: 2009        Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:      N/A

    Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: F           Section Name: Schedule of Changes in Non-Valued Fiduciary                 No Data Flag: YES             Line Attributes: Units
                                          Assets - All Other Agency Funds - Current Year
Line Status Line Description         NB        Beginning quantity of        Additions to quantity           Subtractions from   Ending quantity of non-
                                               non-valued fid assets                                                quantity         valued fid assets

                                    N/A
7
                                    N/A
8
                                    N/A
9
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
       Section: G           Section Name: Number of Agency Fiduciary Activities                       No Data Flag: YES             Line Attributes: Units


Line Status Line Description         NB            Total number of fid   Total number of fid funds
                                                funds - deposit funds     - all other agency funds
                                    N/A
1
                                    N/A
2
                                    N/A
3
                                    N/A
4
                                    N/A
5
                                    N/A
6
                                    N/A
7
                                    N/A
8
                                    N/A
9
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A




                                                                                                        - 75 ­
                                                                                                                                                                           11/16/2009 16:31:51

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                         Fiscal Year: 2009      Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

 Status: Complete                             The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data                         No Data Flag: YES
Line               Question                                                                                             Answer
1                  Describe the fiduciary relationship, for example, the applicable legal authority, the objectives
                   of the fiduciary activity, and a general description of the beneficial owners or class of owners
                   of each fiduciary fund (SFFAS No. 31, par. 18 (a)).
2                  Provide information on any significant changes in fiduciary net assets from the prior period
                   (SFFAS No. 31, par. 18 (c)).
3                  Provide the TAS for all funds with fiduciary activities.
4                  For any cash included in the Schedules of Fiduciary Net Assets, indicate if the cash is
                   represented by balances on deposit with either the U.S. Treasury or with a commercial
                   banking institution (SFFAS No. 31, par. 12).
5                  Provide a description of any cash equivalents included in the Schedules of Fiduciary Net
                   Assets.
6                  For any non-monetary assets included in the Schedules of Fiduciary Net Assets, provide a
                   description of the composition of the assets, the method(s) of valuation, and the changes (if
                   any) from prior-period accounting methods (SFFAS No. 31, par. 18 (c)).
7                  For any non-valued fiduciary assets included in the Schedules of Non-Valued Fiduciary
                   Assets, provide a description of the non-valued assets (SFFAS No. 31, par. 18 (d)).
8                  If separate audited financial statements are issued for an individual fiduciary activity with a
                   fiscal yearend other than September 30, indicate the fiduciary activity's fiscal year (SFFAS
                   No. 31, par. 18 (e)).
9                  If separate audited financial statements are issued for an individual fiduciary activity, disclose
                   the basis of accounting used and the auditor's opinion on the current or most recent financial
                   statements. If the auditor's opinion was not unqualified, disclose the reason(s) stated by the
                   auditors and refer the reader to the audit opinion for further information (SFFAS No. 31, par.
                   12 (a)).
10                 If separate audited financial statements are issued for an individual fiduciary activity, provide
                   information on the reader can obtain a copy of the financial statements and the audit opinion
                   thereon (SFFAS No. 31, par. 19).
11                 If more than one agency is responsible for administering a fiduciary activity, and the separate
                   portions of the activity can be clearly identified with another responsible agency, identify the
                   other agency(ies) involved in managing the activity (SFFAS No. 31, par. 19).
12                 Provide any other relevant information pertaining to this note.




                                                                                                              - 76 ­
                                                                                                                                                                                      11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 28A          Financial and Housing Market Stabilization - Investment in GSE                                                Fiscal Year: 2009              Period: SEPTEMBER
    Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                            0                                            Agency Notes:     N/A

    Status: Complete                      The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2009 - SEPTEMBER      2008 - SEPTEMBER
                                                                                   Type
Investment in Government sponsored enterprises (GSEs)                      D         A                         0                      0
                                                                                Variance:                                             0         Rounding Method: Millions         Decimal: Zero
Line Status Line Description             CY - Appraisal value at           CY - Unamortized     CY - Net investment          CY - Interest receivable   CY - Investment Balance   PY - Appraisal value at
                                             purchase date             premium/discount                                                                                               purchase date
             Fannie Mae senior
1
             preferred stock
             Freddie Mac senior
2
             preferred stock
             Fannie Mae warrants
3
             common stock
             Freddie Mac warrants
4
             common stock

5
6
7
             All other stock
8
             Total

Line Status Line Description                    PY - Unamortized      PY - Net investment         PY - Interest receivable    PY- Investment Balance
              Fannie Mae senior
1
              preferred stock
              Freddie Mac senior
2
              preferred stock
              Fannie Mae warrants
3
              common stock
              Freddie Mac warrants
4
              common stock
5
6
7
              All other stock
8
             Total




                                                                                                      - 77 ­
                                                                                                                                                                            11/16/2009 16:31:51

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 28A          Financial and Housing Market Stabilization - Investment in GSE                                              Fiscal Year: 2009      Period: SEPTEMBER
    Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

    Status: Complete                          The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

      Section: A                Section Name: Appraisal Value at Reporting Date                       No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB      CY- Appraisal value at       PY- Appraisal value at
                                                     reporting date               reporting date
              Fannie Mae senior       Debit
1
              preferred stock
              Freddie Mac senior      Debit
2
              preferred stock
              Fannie Mae              Debit
3
              warrants common
              stock
              Freddie Mac             Debit
4
              warrants common
              stock
                                      Debit
5
                                      Debit
6
                                      Debit
7
              All other stock         Debit
8
              Total                   N/A
9
      Section: B                Section Name: Other Related Information                               No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
              Debt and mortgage Debit
1
              backed securities
              outstanding ­
              Fannie Mae
              Debt and mortgage Debit
2
              backed securities
              outstanding ­
              Freddie Mac
              Debt and mortgage Debit
3
              backed securities
              outstanding ­
              Other
              Revenue           Credit
4
              recognized from
              acquisition of
              preferred stocks
              and warrants



                                                                                                        - 78 ­
                                                                                                                                                                          11/16/2009 16:31:51

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 28A          Financial and Housing Market Stabilization - Investment in GSE                                            Fiscal Year: 2009      Period: SEPTEMBER
    Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    N/A

    Status: Complete                        The accompanying notes are an integral part of these financial statements.         I = Inactive Line


      Section: B             Section Name: Other Related Information                                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                            Rounding Method: Millions             Decimal: Zero
Line Status Line Description         NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
              The liquidation       Debit
5
              preference value
              per share of senior
              preferred stock
              Nominal cost of       Debit
6
              common stock on a
              fully-diluted basis



      Section: C             Section Name: Othere Related Information                               No Data Flag: YES         Line Attributes: Units


Line Status Line Description         NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
              Number of non­        N/A
1
              voting senior
              preferred stock ­
              shares




      Section: D             Section Name: Other Related Information                                No Data Flag: YES         Line Attributes: Percent


Line Status Line Description         NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
              Rate of dividents     N/A
1




                                                                                                      - 79 ­
                                                                                                                                                                                 11/16/2009 16:31:51

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 28B         Financial and housing Market Stabilization - GSE Keepwell Payable 0                                       Fiscal Year: 2009               Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                             0                                        Agency Notes:      N/A

    Status: Complete                     The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account       2009 - SEPTEMBER    2008 - SEPTEMBER
                                                                                 Type
Keepwell payable                                                          C        L                                            0
                                                                              Variance:                                         0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2009 - SEPTEMBER             2008 - SEPTEMBER                Previously Rptd       Line Item Changes
             Keepwell Payable ­
1
             Fannie Mae
             Keepwell Payable ­
2
             Freddie Mac

3
4
             All other payables
5
             Total




                                                                                                     - 80 ­
 Audit of the Pension Benefit Guaranty 

Corporation’s Fiscal Year 2009 and 2008 

 Special-Purpose Financial Statements 



Audit Report AUD-2010-3 / FA-09-64-3 





             Section IX 


 GF006F – Notes Status Report 

                                    U.S. Department of the Treasury/FMS                     11-16-2009 16:55:04
                                  Governmentwide Financial Report System

                                              Notes Status Report


Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION                      Year:       2009            SEPTEMBER

Number    Note Title                                                                        Status

01        Federal Reserve Earnings, Subsequent Events, and Other Pertinent
                 SUBMITTED
          Information

02        Cash and Other Monetary Assets
                                                   SUBMITTED

03        Accounts and Taxes Receivable
                                                    SUBMITTED

04A       Direct Loans Receivable
                                                          SUBMITTED

04B       Loan Guarantees
                                                                  SUBMITTED

05        Inventories and Related Property
                                                 SUBMITTED

06        Property, Plant, and Equipment
                                                   SUBMITTED

07        Securities and Investments (Financial Accounting Standards Board
                 SUBMITTED

          (FASB) Statement No 115)
08        Other Assets                                                                      SUBMITTED

09        Accounts Payable                                                                  SUBMITTED

10B       Treasury securities held by the Government trust, revolving, and special          SUBMITTED

          funds
11        Federal Employee and Veteran Benefits Payable                                     SUBMITTED

12        Environmental and Disposal Liabilities
                                           SUBMITTED

13        Benefits Due and Payable
                                                         SUBMITTED

14        Insurance Programs Other Than Veterans Affairs
                                   SUBMITTED

15        Other Liabilities
                                                                SUBMITTED

17        Prior-Period Adjustments
                                                         SUBMITTED

18        Contingencies (SFFAS Nos. 5 and 12)
                                              SUBMITTED

19        Commitments
                                                                      SUBMITTED

20        Dedicated Collections (Excluding Funds Identified as Earmarked and
               SUBMITTED

          Reported in Note 22 - Earmarked Funds)

22        Earmarked Funds
                                                                  SUBMITTED

25        Stewardship Land
                                                                 SUBMITTED

26        Heritage Assets
                                                                  SUBMITTED

27        Fiduciary Activities
                                                             SUBMITTED

28A       Financial and Housing Market Stabilization - Investment in GSE
                   SUBMITTED

28B       Financial and housing Market Stabilization - GSE Keepwell Payable
                SUBMITTED





                                                    - 1 ­
 Audit of the Pension Benefit Guaranty 

Corporation’s Fiscal Year 2009 and 2008 

 Special-Purpose Financial Statements 



Audit Report AUD-2010-3 / FA-09-64-3 





              Section X

GF007F – Other Financial Report
   (FR) Data Status Report
                                   U.S. Department of the Treasury/FMS          11-16-2009 16:56:51
                                 Governmentwide Financial Report System

                                       Other FR Data Status Report


Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION                  Year:   2009            SEPTEMBER

Number    Note Title                                                                Status

01        Statement of Operations and Changes in Net Position                       SUBMITTED
02        Taxes                                                                     SUBMITTED
09        Stewardship Investments                                                   SUBMITTED
10        Deferred Maintenance                                                      SUBMITTED
15        Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No.           SUBMITTED
          5, par. 105, 106,and 114)
16        Analysis of FR Operating Revenue to Budget Receipts                       SUBMITTED




                                                  - 1 ­
 Audit of the Pension Benefit Guaranty 

Corporation’s Fiscal Year 2009 and 2008 

 Special-Purpose Financial Statements 



Audit Report AUD-2010-3 / FA-09-64-3 





             Section XI 


  GF007G – Other Data Report 

                                                                                                                                                                                 11/16/2009 16:36:39

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 01                Statement of Operations and Changes in Net Position                                                     Fiscal Year: 2009             Period: SEPTEMBER
        Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A
        Status: Complete                                                                               I = Inactive Line


    Tab: Other Data Info.
     Section: A                  Section Name: Nonexchange Revenue: Specific potential accruals not              No Data: YES          Line Attributes: Dollars
                                               made as a result of using the modified cash basis of                                  Rounding Method: User-Defined         Decimal: User-Defined
                                               accounting.


Line Status     Line Description         NB            CY - Low Range               CY - High Range                 PY - Low Range        PY - High Range
                                        Debit
1
                                        Debit
2
                                        Debit
3
                                        Debit
4
                                        Debit
5



    Tab: Other Text Data

        Section: A                 Section Name: Nonexchange Revenue: Specific potential accruals not             No Data: YES
                                                 made as a result of using the modified cash basis of
                                                 accounting.

 Line         Question                                                                                                      Answer
 1            Provide the practical and inherent limitations affecting the accrual of taxes and duties. (SFFAS
              No. 7, par.64)




                                                                                                            - 1 ­
                                                                                                                                                                    11/16/2009 16:36:39

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 02              Taxes                                                                                        Fiscal Year: 2009             Period: SEPTEMBER
        Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                             Agency Notes:    N/A
       Status: Complete                                                                    I = Inactive Line


    Tab: Other Data Info.
     Section: A                Section Name: Taxes (SSFAS No.7, par. 67-69)                      No Data: YES             Line Attributes: Dollars
                                                                                                                        Rounding Method: User-Defined         Decimal: User-Defined
Line Status     Line Description        NB      2009 - SEPTEMBER        2008 - SEPTEMBER              Previously Rptd      Line Item Changes
                Estimated realized      Debit
1
                value of compliance
                assessments as of
                the end of the period
                Estimated realizable    Debit
2
                value of pre-
                assessment work­
                in-progress
                Changes in 1 and 2      Debit
3
                above
                Other claims for        Debit
4
                refunds not yet
                accrued but likely to
                be paid when
                administrative
                actions are
                completed
                Management's best       Debit
5
                estimate of
                unasserted claims for
                refunds
                Changes in 4 and 5      Debit
6
                above
                Amount of               Debit
7
                assessments written
                off that continue to
                be statutorily
                collectible




                                                                                                - 2 ­
                                                                                                                                                                                     11/16/2009 16:36:39

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                             GF007 - Other Data Report

 Other Data: 02                Taxes                                                                                                       Fiscal Year: 2009             Period: SEPTEMBER
         Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:    N/A
        Status: Complete                                                                                   I = Inactive Line


     Tab: Other Data Info.
      Section: B                  Section Name: Provide the following amount if a range is estimable              No Data: YES             Line Attributes: Dollars
                                                and not included in Sec. A (SFFAS No. 7 par 67)                                          Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                       CY Low                        CY High                        PY Low               PY High
                 Realizable value of     Debit
1
                 pre-assessment
                 work-in-progress
                 Changes in line 1       Debit
2
                 above
                 Management's best       Debit
3
                 estimate of
                 unasserted claims for
                 refunds
                 Changes in line 3       Debit
4
                 above

     Tab: Other Text Data

        Section: A                  Section Name: Taxes (SSFAS No.7, par. 67-69)                                       No Data: YES

 Line          Question                                                                                                         Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.
 2            Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax
              gap.
 3            Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers
              and importers.
 4            Provide the estimates of the annual tax gap (amounts should specifically define whether it
              includes or excludes estimates of tax due on illegally earned revenue).
 5            Disclose the amounts by which trust funds may be over- or under-funded in comparison with the
              requirements of law, if reasonable estimable.




                                                                                                                 - 3 ­
                                                                                                                                                                         11/16/2009 16:36:39

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 09              Stewardship Investments                                                                           Fiscal Year: 2009             Period: SEPTEMBER
        Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
       Status: Complete                                                                        I = Inactive Line


    Tab: Other Data Info.
     Section: A                Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                             No. 8, par 87)                                                                  Rounding Method: User-Defined         Decimal: User-Defined


Line Status     Line Description      NB                   FY 2009                   FY 2008                       FY 2007                FY 2006                 FY 2005
                                      Debit
1
                                      Debit
2
                                      Debit
3
                                      Debit
4
                                      Debit
5
                Other non-Federal     Debit
6
                physical property

     Section: B                Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                             Development (SFFAS No. 8, par. 94, 99 & 100)                                    Rounding Method: User-Defined         Decimal: User-Defined


Line Status     Line Description      NB                   FY 2009                   FY 2008                       FY 2007                FY 2006                 FY 2005
                                      Debit
1
                                      Debit
2
                                      Debit
3
                                      Debit
4
                                      Debit
5
                Other investment in   Debit
6
                development




                                                                                                    - 4 ­
                                                                                                                                                                         11/16/2009 16:36:39

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 09              Stewardship Investments                                                                           Fiscal Year: 2009             Period: SEPTEMBER
        Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
       Status: Complete                                                                        I = Inactive Line


    Tab: Other Data Info.
     Section: C                Section Name: Investment in Human Capital (SFFAS No. 8, par 100)      No Data: YES              Line Attributes: Dollars
                                                                                                                             Rounding Method: User-Defined         Decimal: User-Defined
Line Status     Line Description       NB                 FY 2009                    FY 2008                       FY 2007                FY 2006                 FY 2005
                                       Debit
1
                                       Debit
2
                                       Debit
3
                                       Debit
4
                                       Debit
5
                Other Investments in   Debit
6
                human capital


     Section: D                Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                             Research (SFFAS No. 8, par.99 & 100)                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status     Line Description       NB                 FY 2009                    FY 2008                       FY 2007                FY 2006                 FY 2005
                                       Debit
1
                                       Debit
2
                                       Debit
3
                                       Debit
4
                                       Debit
5
                Other investments in   Debit
6
                basic research




                                                                                                    - 5 ­
                                                                                                                                                                                11/16/2009 16:36:39

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

 Other Data: 09               Stewardship Investments                                                                                 Fiscal Year: 2009             Period: SEPTEMBER
         Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A
        Status: Complete                                                                              I = Inactive Line


     Tab: Other Data Info.
      Section: E                Section Name: Research and Development: Investment in Applied               No Data: YES              Line Attributes: Dollars
                                              Research (SFFAS No. 8, par 100)                                                       Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                   FY 2009                      FY 2008                       FY 2007                FY 2006                 FY 2005
                                         Debit
1
                                         Debit
2
                                         Debit
3
                                         Debit
4
                                         Debit
5
                 Other investment in     Debit
6
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS          No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                    Answer
 1            Provide a description of federally owened physical property transferred to state and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal property.
              (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                     No Data: YES
                                                  Development (SFFAS No. 8, par. 94, 99 & 100)

 Line          Question                                                                                                   Answer
 1            Provide a description of the major programs of Federal investments in development. (SFFAS No.
              8, par. 100)
 2            Provide a description of the progress of major development projects including the results with
              respect to projects completed or otherwise terminated during the year and the status of projects
              that will continue (SFFAS No. 8, par. 99)
     Tab: Other Text Data

        Section: C                  Section Name: Investment in Human Capital (SFFAS No. 8, par 100)          No Data: YES

 Line          Question                                                                                                   Answer
 1            Provide a description of the major education and training programs considered Federal
              investments in human capital. (SFFAS No.8, par. 94)


                                                                                                            - 6 ­
                                                                                                                                                                    11/16/2009 16:36:39

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                     GF007 - Other Data Report

Other Data: 09              Stewardship Investments                                                                            Fiscal Year: 2009         Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
       Status: Complete                                                                          I = Inactive Line



    Tab: Other Text Data

       Section: D              Section Name: Research and Development: Investment in Basic                   No Data: YES
                                             Research (SFFAS No. 8, par.99 & 100)

Line        Question                                                                                                  Answer
1           Provide a description of the major programs of Federal investments in basic research. (SFFAS
            No. 8, par. 100)
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E              Section Name: Research and Development: Investment in Applied                 No Data: YES
                                             Research (SFFAS No. 8, par 100)

Line        Question                                                                                                  Answer
1           Provide a description of the major programs of Federal investments in applied research. (SFFAS
            No. 8, par. 100)
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                       - 7 ­
                                                                                                                                                                 11/16/2009 16:36:39

                                                                         U.S. Department of the Treasury
                                                                          Financial Management Service
                                                                     Governmentwide Financial Report System
                                                                            GF007 - Other Data Report

 Other Data: 10               Deferred Maintenance                                                                   Fiscal Year: 2009             Period: SEPTEMBER
        Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                       Agency Notes:       N/A
       Status: Complete                                                             I = Inactive Line


    Tab: Other Data Info.
     Section: A                 Section Name: Range of Amounts                            No Data: YES               Line Attributes: Dollars
                                                                                                                   Rounding Method: User-Defined          Decimal: User-Defined
Line Status     Line Description         NB            CY- Low   D       CY- High    D CY - Critical Maintenance             PY- Low     D            PY- High    D PY - Critical Maintenance
                                                                                                             D                                                                            D
                Buildings, structures,   N/A
1
                and facilities
                Furniture, fixtures,     N/A
2
                and equipment
                Other general            N/A
3
                property, plant, and
                equipment
                Heritage assets          N/A
4
                Stewardship land         N/A
5




                                                                                         - 8 ­
                                                                                                                                                                                                 11/16/2009 16:36:39

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

 Other Data: 15               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)                     Fiscal Year: 2009                   Period: SEPTEMBER
         Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                              Agency Notes:         AMR - MD&A Section VII, Note 2 & Note 9
        Status: Complete                                                                             I = Inactive Line


     Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                                                 Line Attributes: Dollars
                                                                                                                                         Rounding Method: Millions                        Decimal: Zero
Line Status      Line Description        NB       2009 - SEPTEMBER              2008 - SEPTEMBER                Previously Rptd              Line Item Changes
                 Present value of       Debit
1
                 unpaid expected
                 losses (net of
                 associated
                 premiums)                              168,190                      46,762                       46,762
                 Periodic changes       Debit                                                                                                       0
2


                                                        121,428                      -18,976                     -18,976
                                                                                                                                                    0
     Tab: Other Text Data

        Section: A                  Section Name: Risk Assumed

 Line         Question                                                                                                      Answer
 1            Provide the indicators of the range of uncertainty around insurance related estimates and                    The significant volatility in plan underfunding and sponsor credit quality over time makes
              sensitivity of the estimates to changes in major assumptions (SFFAS No.5, par.114)                           long-term estimates of PBGC's expected claims difficult. This volatility, and the
                                                                                                                           concentration of claims in a relatively small number of terminated plans, have characterized
                                                                                                                           PBGC's experience to date and will likely continue. Factors such as economic conditions
                                                                                                                           affecting interest rates, financial markets, and the rate of business failures will also influence
                                                                                                                           PBGC's claims going forward.

                                                                                                                           In accordance with Section 450, PBGC's exposure to losses from plans of companies that
                                                                                                                           are classified as reasonably possible is disclosed in the footnotes. In order for a plan sponsor
                                                                                                                           to be specifically classified as reasonably possible, it must first have $5 million or more in
                                                                                                                           underfunding, as well as meet addtional criteria. Criteria used for classifying a company as
                                                                                                                           reasonably possible include, but not limited to, one or more of the following conditions: the
                                                                                                                           plan sponsor is in Chapter 11 reorganization; funding waiver pending or outstanding with the
                                                                                                                           Internal Revenue Service; sponsor missed minimum funding contribution; sponsor's bond
                                                                                                                           rating is below-investment-grade for Standard & Poor's (BB+) or Moody's (Ba1); sponsor
                                                                                                                           has no bond rating but unsecured debt is below investment grade; or sponsor has no bond
                                                                                                                           rating but the ratio of long-term debt plus unfunded benefit liability to market value of shares
                                                                                                                           is 1.5 or greater.
 2            Provide the actuarial or financial methods used to measure the present value of unpaid expected              The best estimate of unfunded vested benefits exposure is not based on PBGC guaranteed
              losses (SFFAS No. 5. par. 114)                                                                               benefit levels. PBGC calculated this estimate, as in previous years, by using data obtained
                                                                                                                           from filings and submisisons to the government and from corporate annual resports for fiscal
                                                                                                                           years ending in calendar 2008. The Corporation adjusted the value reported for liabilities to
                                                                                                                           December 31, 2008, PBGC select rate of 5.38% that was derived using the 1994 Group
                                                                                                                           Annuity Mortality Static Table (with margins) projected to 2018 using Scale AA. When


                                                                                                          - 9 ­
                                                                                                                                                                               11/16/2009 16:36:39

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

Other Data: 15            Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)           Fiscal Year: 2009                 Period: SEPTEMBER
       Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:       AMR - MD&A Section VII, Note 2 & Note 9
       Status: Complete                                                                   I = Inactive Line



 Tab: Other Text Data

       Section: A            Section Name: Risk Assumed

Line        Question                                                                                          Answer
                                                                                                              available, data were adjusted to a consistent set of mortality assumptions. The underfunding
                                                                                                              associated with these plans could be substanially different at September 30, 2009 because
                                                                                                              of economic condtions that existed between December 31, 2008 and September 30, 2009.
                                                                                                              The Corporation did not adjust the estimate for events that occurred between December 31,
                                                                                                              2008, and September 30, 2009.




                                                                                              - 10 ­
                                                                                                                                                                          11/16/2009 16:36:39

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF007 - Other Data Report

    Other Data: 16             Analysis of FR Operating Revenue to Budget Receipts                                             Fiscal Year: 2009             Period: SEPTEMBER
         Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                Agency Notes:    N/A
        Status: Complete                                                                       I = Inactive Line


     Tab: Other Data Info.
      Section: A                 Section Name: Fiscal 2009 Operating Revenues Not Reported in the     No Data: YES             Line Attributes: Dollars
                                               Budget Receipts                                                               Rounding Method: User-Defined          Decimal: User-Defined


Line Status      Line Description         NB      CY-Individual income tax   CY-Corporation income   CY-Unemployment taxes        CY-Excise taxes     CY-Estate and gift taxes   CY-Customs duties
                                                   and tax withholdings                    taxes
                 Undistributed           Credit
1                Offsetting receipts
                 (offset against
                 outlays)
                 Proprietary receipts    Credit
2                from the public
                 (offset against
                 outlays)
                 Rents and royalties     Credit
3                on the outer
                 continental shelf
                 lands (offset against
                 outlays)
                 Offsetting              Credit
4                governmental
                 receipts (offset
                 against outlays)
                 Intrabudgetary          Credit
5                transactions (offset
                 against outlays)
                                         Credit
6
                                         Credit
7
                                         Credit
8
Line Status      Line Description         NB           CY-Other taxes and CY-Miscellaneous earned
                                                              receipts                 revenue
                 Undistributed           Credit
1
                 Offsetting receipts
                 (offset against
                 outlays)
                 Proprietary receipts    Credit
2                from the public
                 (offset against
                 outlays)
                 Rents and royalties     Credit
3                on the outer


                                                                                                     - 11 ­
                                                                                                                                                                           11/16/2009 16:36:39

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF007 - Other Data Report

 Other Data: 16               Analysis of FR Operating Revenue to Budget Receipts                                                Fiscal Year: 2009             Period: SEPTEMBER
        Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                   Agency Notes:    N/A
       Status: Complete                                                                         I = Inactive Line


    Tab: Other Data Info.
     Section: A                 Section Name: Fiscal 2009 Operating Revenues Not Reported in the      No Data: YES               Line Attributes: Dollars
                                              Budget Receipts                                                                  Rounding Method: User-Defined         Decimal: User-Defined


Line Status     Line Description        NB           CY-Other taxes and CY-Miscellaneous earned
                                                            receipts                 revenue
                continental shelf
                lands (offset against
                outlays)
                Offsetting              Credit
4
                governmental
                receipts (offset
                against outlays)
                Intrabudgetary          Credit
5
                transactions (offset
                against outlays)
                                        Credit
6
                                        Credit
7
                                        Credit
8
     Section: B                 Section Name: Fiscal 2009 Budget Receipts Not Reported in the         No Data: YES               Line Attributes: Dollars
                                              Operating Revenue                                                                Rounding Method: User-Defined         Decimal: User-Defined


Line Status     Line Description        NB         CY-Individual income     CY-Corporation income        CY-Employment and          CY-Unemployment CY-Other retirement     C      CY-Excise taxes   C
                                                              taxes   C                 taxes   C      general retirement C            insurance  C
                Earned (exchange)       N/A
1
                revenue reported in
                the Statement of Net
                Cost
                                        N/A
2
                                        N/A
3
                                        N/A
4
Line Status     Line Description        NB       CY-Estate and gift taxes   CY-Customs duties    C          CY-Miscellaneous
                                                                                                                receipts   C
                                                                      C
                Earned (exchange)        N/A
1
                revenue reported in
                the Statement of Net
                Cost
                                         N/A
2



                                                                                                     - 12 ­
                                                                                                                                                                                    11/16/2009 16:36:39

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 16                Analysis of FR Operating Revenue to Budget Receipts                                                        Fiscal Year: 2009             Period: SEPTEMBER
        Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:    N/A
        Status: Complete                                                                                 I = Inactive Line


    Tab: Other Data Info.
     Section: B                  Section Name: Fiscal 2009 Budget Receipts Not Reported in the                   No Data: YES             Line Attributes: Dollars
                                               Operating Revenue                                                                        Rounding Method: User-Defined         Decimal: User-Defined


Line Status     Line Description          NB       CY-Estate and gift taxes      CY-Customs duties         C         CY-Miscellaneous
                                                                                                                         receipts   C
                                                                            C
                                          N/A
3
                                          N/A
4




    Tab: Other Text Data

        Section: A                 Section Name: Fiscal 2009 Operating Revenues Not Reported in the               No Data: YES
                                                 Budget Receipts

 Line         Question                                                                                                       Answer
 1            Provide a detailed description of the undistributed offsetting receipts reconciling item(s).
 2            Provide a detailed description of the proprietary receipts from the public reconciling item(s).
 3            Provide a detailed description of the offsetting governmental receipts reconciling item(s).
 4            Provide a detailed description of the intrabudgetary transaction reconciling item(s).
 5            Provide a detailed description of the agency entered description reconciling item(s).
    Tab: Other Text Data

        Section: B                 Section Name: Fiscal 2009 Budget Receipts Not Reported in the                  No Data: YES
                                                 Operating Revenue

 Line         Question                                                                                                       Answer
 1            Provide a detailed description of the earned revenue reconciling item(s).
 2            Provide a detailed description of the agency entered description reconciling item(s).




                                                                                                                - 13 ­
      Audit of the Pension Benefit Guaranty 

     Corporation’s Fiscal Year 2009 and 2008 

      Special-Purpose Financial Statements 



     Audit Report AUD-2010-3 / FA-09-64-3 





                  Section XII 


GF008G – Completion and Approvals Report 

                                         U.S. Department of the Treasury/FMS              11-16-2009 16:18:00
                                        Governmentwide Financial Report System

                                        GF008 - Completion and Approvals Report


Entity: 1602 -    PENSION BENEFIT GUARANTY CORPORATION                              Year: 2009 SEPTEMBER

GF002 - Agency Audited Financial Statement Module
                                                             REDACTED
FPA Status:       COMPLETE                          By: AC                        Date:   12-NOV-09 14:56
                                                             REDACTED
CFO Status:       LOCK          Approved            By: WL                        Date:   12-NOV-09 14:58
                                                             REDACTED
IG Action:        LOCK                              By: DO                        Date:   16-NOV-09 14:55

GF003 - Reclassification Module
                                                             REDACTED
FPA Status:       COMPLETE                          By: AC                        Date:   12-NOV-09 14:56
CFO Status:       LOCK          Approved            By: WLREDACTED                Date:   12-NOV-09 15:00
                                                             REDACTED
IG Action:        LOCK                              By: DO                        Date:   16-NOV-09 14:55

GF004 - Intragovernmental Trading Partner Module
                                                             REDACTED
FPA Status:       COMPLETE                          By: AC                        Date:   12-NOV-09 14:56
                                                             REDACTED
CFO Status:       LOCK          Approved            By: WL                        Date:   12-NOV-09 15:00
IG Action:        LOCK                              By: DO REDACTED               Date:   16-NOV-09 14:55

GF006 - FR Notes Module
                                                             REDACTED
FPA Status:       COMPLETE                          By: AC                        Date:   12-NOV-09 14:56
                                                             REDACTED
CFO Status:       LOCK          Approved            By: WL                        Date:   12-NOV-09 15:00
                                                             REDACTED
IG Action:        LOCK                              By: DO                        Date:   16-NOV-09 14:56
GF007 - Other Data Module
                                                             REDACTED
FPA Status:       COMPLETE                          By: AC                        Date:   12-NOV-09 14:56
                                                             REDACTED
CFO Status:       LOCK          Approved            By: WL                        Date:   12-NOV-09 15:00
                                                             REDACTED
IG Action:        LOCK                              By: DO                        Date:   16-NOV-09 14:56

CLOSING PACKAGE - IG
IG Opinion:       Unqualified                       By: DO REDACTED               Date:   16-NOV-09 16:06
IG Explanation:
    Unqualified -- see attached file.

IG file attachment: 72411_PBGC_GFRS_FINAL.pdf




                                                          -1­
  Audit of the Pension Benefit Guaranty 

 Corporation’s Fiscal Year 2009 and 2008 

  Special-Purpose Financial Statements 



  Audit Report AUD-2010-3 / FA-09-64-3 





             Section XIII 


GF120 – Reclassification Audit Trail 

Report at Statement Summary Level 

                                                                          U.S.Department of the Treasury                                                                11/16/2009 17:25:15
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                   GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:           BALANCE SHEET                                                                     Fiscal Year: 2009                                   Period: SEPTEMBER

          Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                           Reporting Method: MILLIONS                     Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                      Agency Amount              F/N    Closing Package Line Item       Reclassified Amount         Variance       Fiscal   Date/Time      User Id
                                                                                                                                                        Year

 B    Cash and cash equivalents                            (3,752)    F    Federal Investments                                     45              0    2009 10/21/2009 17:45:14 ACASTORO

                                                                      F    Fund Balance with Treasury                               1
                                                                      N    Cash and Other Monetary                            3,706
                                                                           Assets
 B    Cash and cash equivalents                            (1,759)    F    Federal Investments                                    201              0    2008 10/21/2009 17:45:14 ACASTORO

                                                                      F    Fund Balance with Treasury                               1
                                                                      N    Cash and Other Monetary                            1,557
                                                                           Assets
 N    Securities lending collateral                        (2,507)    N    Securities and Investments                         2,507                0    2009 10/21/2009 17:50:52 ACASTORO
      (Note 3 and 5)
 N    Securities lending collateral                        (3,772)    N    Securities and Investments                         3,772                0    2008 10/21/2009 17:50:52 ACASTORO
      (Note 3 and 5)
 B    Fixed maturity securities                           (33,478)    F    Federal Investments                               18,002                0    2009 11/06/2009 16:19:12 ACASTORO

                                                                      N    Securities and Investments                        15,476
 B    Fixed maturity securities                           (38,080)    F    Federal Investments                               18,630                0    2008 11/06/2009 16:19:12 ACASTORO

                                                                      N    Securities and Investments                        19,450
 N    Equity securities                                   (24,133)    N    Securities and Investments                        24,133                0    2009 10/21/2009 17:54:55 ACASTORO

 N    Equity securities                                   (12,921)    N    Securities and Investments                        12,921                0    2008 10/21/2009 17:54:55 ACASTORO

 N    Real estate and real estate                            (596)    N    Securities and Investments                             596              0    2009 10/21/2009 17:57:11 ACASTORO
      investment trusts
 N    Real estate and real estate                              (3)    N    Securities and Investments                               3              0    2008 10/21/2009 17:57:11 ACASTORO
      investment trusts
 N    Other                                                  (653)    N    Securities and Investments                             653              0    2009 10/24/2009 06:00:44 ACASTORO

 N    Other                                                   (23)    N    Securities and Investments                              23              0    2008 10/24/2009 06:00:44 ACASTORO

 N    Sponsors of terminated plans                            (85)    N    Accounts and Taxes Receivable                           85              0    2009 10/21/2009 18:01:01 ACASTORO

 N    Sponsors of terminated plans                            (19)    N    Accounts and Taxes Receivable                           19              0    2008 10/21/2009 18:01:01 ACASTORO

 N    Premiums (Note 11)                                     (603)    N    Accounts and Taxes Receivable                          603              0    2009 10/21/2009 18:06:24 ACASTORO


                                                                                                  - 1 ­
                                                                          U.S.Department of the Treasury                                                                     11/16/2009 17:25:15
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                    GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:            BALANCE SHEET                                                                       Fiscal Year: 2009                                     Period: SEPTEMBER

          Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                              Reporting Method: MILLIONS                       Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                       Agency Amount             F/N    Closing Package Line Item          Reclassified Amount           Variance       Fiscal   Date/Time      User Id
                                                                                                                                                             Year

 N    Premiums (Note 11)                                     (187)    N    Accounts and Taxes Receivable                             187                0    2008 10/21/2009 18:06:24 ACASTORO

 N    Sale of securities                                     (195)    N    Accounts and Taxes Receivable                             195                0    2009 10/21/2009 18:12:01 ACASTORO

 N    Sale of securities                                   (1,357)    N    Accounts and Taxes Receivable                         1,357                  0    2008 10/21/2009 18:12:01 ACASTORO

 N    Derivative contracts (Note 4)                        (2,860)    N    Accounts and Taxes Receivable                         2,860                  0    2009 10/21/2009 18:20:35 ACASTORO

 N    Derivative contracts (Note 4)                        (7,124)    N    Accounts and Taxes Receivable                         7,124                  0    2008 10/21/2009 18:20:35 ACASTORO

 B    Investment income                                      (410)    F    Interest Receivable                                       192                0    2009 10/21/2009 18:34:20 ACASTORO

                                                                      N    Accounts and Taxes Receivable                               1
                                                                      N    Securities and Investments                                217
 B    Investment income                                      (405)    F    Interest Receivable                                       118                0    2008 10/21/2009 18:34:20 ACASTORO

                                                                      N    Securities and Investments                                287
 N    Other                                                    (3)    N    Accounts and Taxes Receivable                               3                0    2009 10/21/2009 18:37:20 ACASTORO

 N    Other                                                    (3)    N    Accounts and Taxes Receivable                               3                0    2008 10/21/2009 18:37:20 ACASTORO

 N    Capitalized assets, net                                 (29)    N    Property, Plant and Equipment                              29                0    2009 10/21/2009 18:42:29 ACASTORO

 N    Capitalized assets, net                                 (32)    N    Property, Plant and Equipment                              32                0    2008 10/21/2009 18:42:29 ACASTORO

 N    Trusteed plans                                       80,507     N    Insurance Programs                                   (80,507)                0    2009 10/21/2009 18:44:38 ACASTORO

 N    Trusteed plans                                       56,571     N    Insurance Programs                                   (56,571)                0    2008 10/21/2009 18:44:38 ACASTORO

 N    Plans pending termination and                          601      N    Insurance Programs                                        (601)              0    2009 10/21/2009 18:48:13 ACASTORO
      trusteeship
 N    Plans pending termination and                          216      N    Insurance Programs                                        (216)              0    2008 10/21/2009 18:48:13 ACASTORO
      trusteeship
 N    Settlements and judgments                               58      N    Insurance Programs                                         (58)              0    2009 10/21/2009 18:50:32 ACASTORO

 N    Settlements and judgments                               56      N    Insurance Programs                                         (56)              0    2008 10/21/2009 18:50:32 ACASTORO

 N    Claims for probable terminations                      1,870     N    Insurance Programs                                    (1,870)                0    2009 10/23/2009 09:51:50 ACASTORO


                                                                                                  - 2 ­
                                                                          U.S.Department of the Treasury                                                                     11/16/2009 17:25:15
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                   GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:         BALANCE SHEET                                                                          Fiscal Year: 2009                                     Period: SEPTEMBER

          Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                              Reporting Method: MILLIONS                       Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                      Agency Amount              F/N    Closing Package Line Item          Reclassified Amount           Variance       Fiscal   Date/Time      User Id
                                                                                                                                                             Year

 N    Claims for probable terminations                      3,154     N    Insurance Programs                                    (3,154)                0    2008 10/23/2009 09:51:50 ACASTORO

 N    Present value of nonrecoverable                      2,296      N    Other Liabilities                                     (2,296)                0    2009 10/21/2009 18:54:36 ACASTORO
      future financial assistance (Note
      7)
 N    Present value of nonrecoverable                      1,768      N    Other Liabilities                                     (1,768)                0    2008 10/21/2009 18:54:36 ACASTORO
      future financial assistance (Note
      7)
 N    Derivative contracts (Note 4)                        3,014      N    Other Liabilities                                     (3,014)                0    2009 11/02/2009 09:39:16 ACASTORO

 N    Derivative contracts (Note 4)                        8,338      N    Other Liabilities                                     (8,338)                0    2008 11/02/2009 09:39:16 ACASTORO

 N    Due for purchases of securities                        172      N    Other Liabilities                                         (172)              0    2009 10/21/2009 18:59:01 ACASTORO

 N    Due for purchases of securities                      1,847      N    Other Liabilities                                     (1,847)                0    2008 10/21/2009 18:59:01 ACASTORO

 N    Payable upon return of                               2,507      N    Other Liabilities                                     (2,507)                0    2009 10/21/2009 19:00:25 ACASTORO
      securities loaned
 N    Payable upon return of                               3,772      N    Other Liabilities                                     (3,772)                0    2008 10/21/2009 19:00:25 ACASTORO
      securities loaned
 N    Securities sold under                                  643      N    Other Liabilities                                         (643)              0    2009 10/21/2009 19:02:36 ACASTORO
      repurchase agreements
 N    Securities sold under                                  885      N    Other Liabilities                                         (885)              0    2008 10/21/2009 19:02:36 ACASTORO
      repurchase agreements
 N    Unearned premiums                                      386      N    Other Liabilities                                         (386)              0    2009 10/21/2009 19:03:53 ACASTORO

 N    Unearned premiums                                      362      N    Other Liabilities                                         (362)              0    2008 10/21/2009 19:03:53 ACASTORO

 B    Accounts payable and accrued                            87      F    Benefit Program Contributions                               (1)              0    2009 11/02/2009 09:41:20 ACASTORO
      expenses (Note 8)                                                    Payable
                                                                      N    Accounts Payable                                           (73)

                                                                      N    Other Liabilities                                          (13)

 B    Accounts payable and accrued                           121      N    Accounts Payable                                          (110)              0    2008 11/02/2009 09:41:20 ACASTORO
      expenses (Note 8)
                                                                      N    Other Liabilities                                          (11)

 B    Net position                                        (22,837)    B    Net Position-Non-Earmarked                           22,837                  0    2009 11/06/2009 16:24:44 ACASTORO
                                                                           Funds


                                                                                                  - 3 ­
                                                                      U.S.Department of the Treasury                                                              11/16/2009 17:25:15
                                                                       Financial Management Service
                                                                  Governmentwide Financial Report System


                                               GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:      BALANCE SHEET	                                                                     Fiscal Year: 2009                                 Period: SEPTEMBER

         Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION	                                       Reporting Method: MILLIONS                   Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                  Agency Amount              F/N    Closing Package Line Item       Reclassified Amount       Variance       Fiscal   Date/Time      User Id

                                                                                                                                                  Year


 B    Net position                                    (11,405)    B	   Net Position-Non-Earmarked                        11,405              0    2008 11/06/2009 16:24:44 ACASTORO
                                                                       Funds




                                                                                            - 4 ­
                                                                        U.S.Department of the Treasury                                                                  11/16/2009 17:25:15
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                 GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:        INCOME STATEMENT                                                                    Fiscal Year: 2009                                    Period: SEPTEMBER

         Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                           Reporting Method: MILLIONS                      Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                    Agency Amount              F/N    Closing Package Line Item        Reclassified Amount          Variance       Fiscal   Date/Time      User Id
                                                                                                                                                        Year

 B    Total Costs                                       (23,178)    F    Benefit Program Costs                                    19               0    2009 11/06/2009 16:28:58 ACASTORO

                                                                    F    Buy/Sell Costs                                           (4)

                                                                    F    Federal Securities Interest                             314
                                                                         Expense
                                                                    F    Imputed Costs                                             8
                                                                    N    Non-Federal Gross Cost                             22,841
 B    Total Costs                                        (2,817)    F    Benefit Program Costs                                    13               0    2008 11/06/2009 16:28:58 ACASTORO

                                                                    F    Buy/Sell Costs                                            4
                                                                    F    Federal Securities Interest                             505
                                                                         Expense
                                                                    F    Imputed Costs                                             4
                                                                    N    Non-Federal Gross Cost                              2,291
 B    Total Revenue                                     11,746      F    Federal Securities Interest                         (1,316)               0    2009 11/06/2009 16:29:41 ACASTORO
                                                                         Revenue (exchange)
                                                                    F    Imputed Financing Source                                 (8)

                                                                    N    Non-Federal Earned Revenue                         (10,427)

                                                                    N    Other Taxes and Receipts                                  5

 B    Total Revenue                                      5,478      F    Federal Securities Interest                         (1,909)               0    2008 11/06/2009 16:29:41 ACASTORO
                                                                         Revenue (exchange)
                                                                    F    Imputed Financing Source                                 (4)

                                                                    N    Non-Federal Earned Revenue                          (3,548)

                                                                    N    Other Taxes and Receipts                                (17)

 B    Net Position, beginning of year                   (11,405)    B    Beginning Net Position                             11,405                 0    2009 11/06/2009 16:31:30 ACASTORO

 B    Net Position, beginning of year                   (14,066)    B    Beginning Net Position                             14,066                 0    2008 11/06/2009 16:31:30 ACASTORO




                                                                                                  - 5 ­
If you want to report or discuss confidentially any instance 

 of misconduct, fraud, waste, abuse, or mismanagement, 

      please contact the Office of Inspector General. 




                       Telephone:

            The Inspector General’s HOTLINE

                    1-800-303-9737


  The deaf or hard of hearing, dial FRS (800) 877-8339

   and give the Hotline number to the relay operator.




                           Web:

       http://oig.pbgc.gov/investigation/details.html




                         Or Write:

          Pension Benefit Guaranty Corporation

               Office of Inspector General

                     PO Box 34177

             Washington, DC 20043-4177 

